<html>
<title> - OVERSIGHT OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 110-1164]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1164

    OVERSIGHT OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE

75-681 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         GORDON H. SMITH, Oregon
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BARBARA BOXER, California            JIM DeMINT, South Carolina
BILL NELSON, Florida                 DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
AMY KLOBUCHAR, Minnesota









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 6, 2008......................................     1
Statement of Senator Boxer.......................................    60
    Prepared statement...........................................    62
Statement of Senator Cantwell....................................     1
    List of NOAA Contributors to the IPCC Assessments............     8
    Prepared statement...........................................     1
Statement of Senator Klobuchar...................................     7
Statement of Senator Stevens.....................................    14

                               Witnesses

Fosmark, Kathy, Co-Chair, Alliance of Communities for Sustainable 
  Fisheries......................................................    52
    Prepared statement...........................................    53
Gray, Jefferson, Superintendent, Thunder Bay National Marine 
  Sanctuary and Underwater Preserve..............................    39
    Prepared statement...........................................    40
Lautenbacher, Jr., Vice Admiral Conrad C., (U.S. Navy, Ret.), 
  Under Secretary for Oceans and Atmosphere and Administrator, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................    15
    Prepared statement...........................................    17
Levin, Hon. Carl, U.S. Senator from Michigan.....................     3
    Prepared statement...........................................     5
Williams, Dr. Susan L., Professor of Evolution and Ecology, 
  Director, Bodega Marine Laboratory, University of California at 
  Davis..........................................................    42
    Prepared statement...........................................    43

                                Appendix

Response to written questions submitted to Vice Admiral Conrad C. 
  Lautenbacher, Jr. by:..........................................
    Hon. Maria Cantwell..........................................    72
    Hon. Daniel K. Inouye........................................    67
    Hon. John F. Kerry...........................................    80
    Hon. Frank R. Lautenberg.....................................    86
    Hon. Bill Nelson.............................................    81
    Hon. Olympia J. Snowe........................................    86
Vitter, Hon. David, U.S. Senator from Louisiana, prepared 
  statement......................................................    65

 
    OVERSIGHT OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                          TUESDAY, MAY 6, 2008

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. The Senate Committee on 
Commerce, Science, and Transportation, Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard will come to order.
    We have an oversight hearing this morning on the National 
Oceanic and Atmospheric Administration's budget, and we will 
hear from Admiral Lautenbacher shortly, but we are going to 
hear from my colleague Senator Levin, this morning, who wants 
to testify about legislation that is also on the docket this 
morning as it relates to marine sanctuaries.
    So, welcome, Senator Levin. Thank you for being here this 
morning to talk about the impacts and expansion of proposed 
legislation in Michigan in regards to the expansion of the 
Thunder Bay National Marine Sanctuary.
    So, welcome to the Committee.

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    I'd like to welcome you all to today's oversight hearing of the 
National Oceanic and Atmospheric Administration (NOAA), its Fiscal Year 
2009 budget, and issues facing the National Marine Sanctuaries program.
    Thank you, Admiral Lautenbacher, for being here today.
    I would like to start out today with an important note of 
congratulations.
    NOAA scientists are among the hundreds of researchers across the 
globe who contributed to the Intergovernmental Panel on Climate Change 
(IPCC).
    Last year, the IPCC was awarded the Nobel Peace Prize, and I was 
delighted to see that many of NOAA's scientists shared in this 
prestigious honor.
    I have here a list of the NOAA scientists who contributed to this 
effort, and will be including it in the record.
    I congratulate those individuals, and all those in NOAA who work so 
hard on this vital topic.
Budget Overview
    I'm happy to see that for the first time, the President's budget 
request for NOAA actually exceeds last year's Congressional 
appropriation.
    I am concerned, though, that when we look deeper into the numbers, 
this budget is not the victory we would like it to be.
    NOAA's fiscal year budget request for 2009 of $4.1 billion is 5 
percent above Fiscal Year 2008 enacted levels of $3.9 billion.
    Almost this entire increase, though, goes toward funding the cost 
overruns in the troubled weather and climate satellite acquisition 
program.
    Unfortunately, this means that while NOAA's top-line budget request 
is larger, the President is still proposing cuts for our Nation's ocean 
programs.
Troubled Satellites Program
    Admiral, as you know, there has been a lot of attention of late to 
the troubles with NOAA's satellite acquisition program.
    Our aging fleet of satellites monitors weather, hurricanes, the 
climate, and the oceans, and desperately needs to be replaced.
    But the failures of this acquisition are impossible to ignore.
    While cost overruns have driven the price of the National Polar-
orbiting Operational Environmental Satellite System from $6.5 billion 
to $12.5 billion, the lead contractor was awarded $123 million in 
``award fees.''
    This is inexcusable.
U.S. Census
    I am also concerned about recent revelations over the 2010 Census.
    The Census Bureau's handheld census computer acquisition has failed 
miserably. More than doubling in price, the computers are riddled with 
so many problems they will not be ready for use during the 2010 census.
    To help pay for these troubles, Secretary Gutierrez has asked 
Congress to transfer $27 million from NOAA to the Census Bureau during 
this fiscal year. He has also indicated he will need to move up to $700 
million from NOAA and other agencies in Fiscal Year 2009 to make up for 
the Census shortfall.
    As these failures threaten to decimate NOAA's budget, it is once 
again the oceans that will be asked to suffer.
Cuts to Ocean Programs
    Because of the financial demands of the satellite acquisition 
program and the Census Bureau, we are seeing cuts proposed for many of 
your most important agencies.
    The National Ocean Service, the office of Oceanic and Atmospheric 
Research, and the National Marine Fisheries Service all see their 
budgets slashed.
    Despite the demands Congress laid out in the Magnuson-Stevens Act 
reauthorization, and despite ocean acidification and the role the 
oceans play in global warming, the Administration still feels the need 
to weaken our ocean programs--in a time when attention to the oceans is 
needed now more than ever.
    In Washington, the Puget Sound Partnership is embarking on a 
mission to save the Puget Sound's ecosystem--everything from salmon to 
orca whales. But the Puget Sound Partnership's efforts cannot succeed 
without strong Federal support--and this budget lacks support for 
either the orcas or the Puget Sound.
Salmon Recovery Fund
    If you recall, last year I told you how disappointed I was to see 
the President request only $67 million for the Pacific Coastal Salmon 
Recovery Fund--a program that averaged $87 million in funding per year 
from 2000 to 2005.
    I'm sure you can guess, then, that I and many of my colleagues are 
even more upset at this year's request of only $35 million--
representing a 60 percent cut over the historically-funded level.
    This funding goes to those on the front lines of salmon recovery--
the states and tribes that do the hard, on-the-ground work to protect 
our salmon.
    In just the past week we have seen:

  <bullet> the emergency shut-down of West Coast Salmon Fisheries and 
        the declaration of a fisheries disaster,

  <bullet> the release of new Biological Opinions for Northwest listed 
        Salmon, and

  <bullet> the further escalation of the controversy over sea lions and 
        salmon at the Bonneville Dam.

    In such a critical time for salmon recovery, the Bush 
Administration's proposed cuts to our salmon recovery funding are 
unacceptable.
    I was also disappointed to see funding for NOAA's Education Program 
take a 51 percent cut from 2006 levels, from $34 million to $16.5 
million.
    I look forward to working with you and my colleagues to restore 
funding to these critical programs.
Doppler Radar Gap
    Finally, Admiral, I would like to briefly discuss the Doppler radar 
gap on the outer coast of Washington State.
    I have discussed this issue with you before, and last year I 
secured funding for a NOAA study on how best to address this gap.
    I want to emphasize, though, that Washington State communities were 
devastated by massive storms and flooding last December.
    The urgency for solving this problem is greater now than ever 
before.
    Two months ago today, I held a community meeting on this issue in 
Grays Harbor, Washington, and the message from my constituents was 
clear: we need a solution now.
    I look forward to working with you to find that solution quickly, 
and implementing it as soon as possible.
Conclusion
    So thank you again, Admiral for your testimony and for appearing 
here today to discuss NOAA's budget.
    At this time I would like to hand it over to my colleagues for 
their opening remarks.

                 STATEMENT OF HON. CARL LEVIN, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Levin. Thank you, Madam Chairman. The--I very much 
appreciate the opportunity to testify in support of my bill, 
which would expand the boundaries, out into the Great Lakes, of 
this sanctuary.
    This is the only freshwater sanctuary that we have. Our 
other sanctuaries are all saltwater. And the difference that 
that makes, in terms of preservation of wrecks is significant. 
Because it is freshwater and there is no salt in it, the 
shipwrecks, which are--this area is famous for, are very well 
preserved, and the expansion of this boundary will actually 
preserve some of our already best-preserved wrecks, because the 
waters that we're talking about are deeper waters and colder 
waters to the ones that already exist.
    It would more than double the number of shipwrecks which 
are protected. The estimate is, now, that there are about 116 
shipwrecks inside this Shipwreck Alley, the very famous area in 
Thunder Bay where so many of the ships which plied the Great 
Lakes were, in fact, wrecked, usually by weather. It would 
double that number to over 300 wrecks. These are a huge 
attraction for us. It's a part of the state which is sometimes 
overlooked, in terms of tourism and economic development, so 
there is a real spinoff effect. It's not just that we get 
divers and people who are into the history of the Great Lakes; 
this is a major part of the maritime history of the Great Lakes 
that is actually, just, located right in this area because of 
the type of ships which went down. So, this is a huge 
educational attraction, as well as a diving attraction, and 
that's of significance to a state which is suffering a great 
deal economically, and when we have an attraction such as this, 
which has just been there now 8 years, but which has proven to 
be a huge magnet for people coming to the lakes, personally; 
but also, interestingly enough, Madam Chairman, this is, 
because of our telepresence and the connection of this 
sanctuary to other sanctuaries around the country, what is 
going on underneath those waters can be seen not only in the 
visitors center in Alpena, but in a number of sanctuaries 
around the country, in real-time. This is the new technology, 
which has been installed there, which means that there can be a 
connection, educationally, immediately. The curiosity of people 
around the country--indeed, all the way out to--I believe, to 
Hawaii; I think it's already connected to the Hawaiian 
sanctuary--can be met. Educational opportunities can be 
achieved. The visitors' presence can be increased.
    The bottom line is this, Madam Chairman. We've got an area 
now there, out in the waters--originally, it was supposed to be 
larger than it is now. It was pared down because of a 
reasonable determination that we wanted to make sure that the 
people along those shores wanted, in fact, this kind of 
protection. So, it was reduced from what it was originally 
intended to be. Now we want to go back and increase the 
protection of these ships.
    There's no greater cost that is necessary. The only cost 
issue here is whether or not there might be a need, at some 
point, or a desirability, for a second NOAA boat. We can do 
this without a second NOAA boat. We can add protection to an 
additional 160 or 180 ships without an additional NOAA boat. We 
have the Coast Guard out there anyway. They're going to expand 
their station at Alpena anyway. They do the law enforcement 
there. They're the ones that protect these ships anyway. NOAA 
does not go out and protect these ships. Their function is a 
different function.
    So, while it may desirable, at some point, that there be a 
second NOAA boat, we don't have to have a second NOAA boat. 
There is no additional cost, in other words, to expanding these 
boundaries.
    What is additional will be the protection to more than 
twice as many shipwrecks, which represent a critical part of 
the maritime history of these lakes and represent a huge 
attraction for people, both in person and through this 
telepresence, to understanding this history, the excitement and 
the knowledge that it produces.
    So, we hope that this committee will approve our bill, 
which provides for the expansion of these waters. This is not 
like expanding a national park, where you've got 
infrastructure, where you've got trails, where you've got 
things that have a cost to them when you increase the size.
    My final point would be this. We recently created--fairly 
recently--the most recent sanctuary was the one in Hawaii, 
which is 120,000 square miles of water--120,000 square miles--
with one boat that NOAA has, basically, to perform the purpose 
that would be--is being performed by the NOAA boat that we 
have. Our increase is a very tiny increase, in terms of square 
miles, compared to what we just did in Hawaii. In fact, it's, 
like, one--it's 120,000 square miles to that sanctuary in 
Hawaii; the number of additional square miles here is a very 
small percentage, like 3 percent of that area that was just 
created for Hawaii. So, we hope that we will give this 
additional protection to this spectacular site that is part of 
the marine history of the Great Lakes.
    We have another Great Lakes Senator which has joined us, 
who I think has a special appreciation, sensitivity about our 
history, our maritime history. The Chairman of this committee 
has her own very special understanding of our coast and the 
marine sanctuary which is in the State of Washington. And this 
is a unique sanctuary, because it's freshwater. We hope that--
--
    And, by the way, finally, the people support this. There's 
no doubt about that. We don't have to go through a long--years-
long administrative process to determine whether the people 
support this. The three counties involved are on record, their 
resolutions are on record. The townships all support this. 
There's no doubt about the public support. So, we don't want to 
wait years, needlessly, for the administrative process here to 
go through the hearings. The three counties have gone through 
that process and are on record as supporting this increase in 
the size.
    Thank you for allowing me to testify and for being with you 
this morning. I'd be happy, obviously, to try to answer a few 
questions, but there are people here that I know you want to 
hear from who have firsthand expertise, more than I do. But, 
again, I'd be happy to try to answer any questions if you have 
any.
    [The prepared statement of Senator Levin follows:]

   Prepared Statement of Hon. Carl Levin, U.S. Senator from Michigan
    Thank you Senator Cantwell and thank you Commerce Committee members 
for allowing me to testify this morning.
    The Thunder Bay National Marine Sanctuary, located in Lake Huron 
near Alpena, Michigan, has been a resounding success since it was 
created as a unique Federal-state partnership back in October 2000. It 
has preserved the proud maritime history of the Great Lakes, offered 
educational opportunities to children, adults, maritime history 
enthusiasts, and researchers, and provided a fascinating site for 
divers and snorkelers to explore.
    NOAA initially proposed that the sanctuary cover an area twice as 
big as was established in 2000, but the proposal had to be scaled back 
to address concerns raised by some in the local community. Now, 
community leaders and residents agree that it is time to expand the 
sanctuary; numerous local units of government have expressed their 
support for an expansion through resolutions.
    Last year, I introduced legislation (S. 2281) that would expand the 
sanctuary, bringing even greater benefits to the local community, 
historians, and people from across the country who take advantage of 
the artifacts and educational resources made available there.
    The current sanctuary includes 448 square miles of water and 115 
miles of shoreline, and the expansion would include 3,722 square miles 
and include 226 miles of shoreline.
    Thunder Bay has been a regular byway for ships traveling on Lake 
Huron, and it earned the name ``Shipwreck Alley'' because the geography 
and weather patterns in the bay led to over 300 shipwrecks. The 
sanctuary currently protects 116 shipwrecks; the expansion would 
protect an estimated additional 178 shipwrecks. Additionally, the 
sanctuary reserves and interprets the remains of commercial fishing 
sites, historic docks, and other underwater archaeological sites.
    This expansion is needed to protect the maritime history of 
Michigan and the Great Lakes. Historically, this region was influenced 
by the demand for natural resources. Because local roads were so 
inadequate, the Great Lakes became an important passageway and trading 
route for settlement and industrialization.
    The expansion would protect a number of historically significant 
sites that can illuminate the history of commerce on the Great Lakes. 
For example, it would protect the CORNELIA B. WINDIATE, a three-mast 
wooden schooner which is one of the Great Lakes' most intact 
shipwrecks. The ship sank in December 1875 when bound from Milwaukee to 
Buffalo with a cargo of wheat, and was featured in an episode of Deep 
Sea Detectives on The History Channel.
    This and other shipwrecks are not only historically important, they 
are very popular with divers. Because deep water sites are often well 
preserved in the cold freshwater, they contain many artifacts and 
provide a treasure of information about the past. Many of the shallow 
water wrecks are accessible by snorkelers, boaters and kayakers.
    In 2005, NOAA opened the Great Lakes Maritime Heritage Center in 
Alpena, an educational station and visitors' center that traces 
maritime history in the Great Lakes. As you know, families, school 
groups and history buffs can even explore the shipwrecks by live video 
feeds from divers in the sanctuary, extending the reach of the vast 
educational opportunities in the sanctuary not only to large numbers of 
visitors each year, but to people around the country who visit the 
other 13 NOAA National Marine Sanctuaries.
    Visitors to Thunder Bay can also view artifacts and interpretive 
exhibits and watch films about Thunder Bay and all of our Nation's 
Maritime Sanctuaries. Also, scientists from around the world dock their 
vessels in the Thunder Bay River as they use the facility for their 
research.
    The Sanctuary has also been a real asset for the local community, 
and the community has responded in kind. Since the establishment of the 
Sanctuary, local citizens have worked with the sanctuary to improve the 
Alpena County George N. Fletcher Library, to provide volunteers at 
festivals and outreach events, and to help digitize the Thunder Bay 
Sanctuary Research Collection.
    Since the time glaciers receded leaving the two pleasant peninsulas 
that form Michigan, the Great Lakes have shaped my home state. Physical 
boundaries are only the beginning. From the Native Americans who lived 
around and explored the lakes and adjacent land, to the European 
settlers who developed trading routes for furs, then lumber, and 
eventually automobiles that Michigan shipped around the world, the 
Great Lakes hold the story of Michigan's history. One part of that 
story is being preserved at the Thunder Bay National Marine Sanctuary, 
and that Sanctuary deserves to be expanded.
    I hope that the Committee will support this effort, and I 
appreciate your consideration.

    Senator Cantwell. Well, Senator, let me thank you, again, 
for being here this morning to talk about this important 
legislation, the expansion.
    It's my understanding that diving and fishing and other 
recreational activities are permitted within this area.
    Senator Levin. That is correct.
    Senator Cantwell. And so, that has probably led to an 
easier management and oversight, given that those activities 
are allowed?
    Senator Levin. Not only is that true, but it's also 
resulted in greater public support. There was some concern 
about that on the part of the neighboring counties. Two of the 
three that did not originally--they wanted to wait, see how it 
worked out--because of those kind of activities being allowed, 
they are very supportive of this. All three counties that 
border on this area are supportive of this.
    Senator Cantwell. And, in addition, it--besides the Coast 
Guard, obviously, doing their day-to-day duties on oversight of 
our waters and the variety of responsibilities that they have 
there, it looks like the Michigan State Police and County 
Sheriff's Office and your State Department of Natural Resources 
are also involved in policing and enforcing these waters. Is 
that correct?
    Senator Levin. They are. There's a--of course, great 
reliance, more and more, on the Coast Guard, which are--is in 
those waters anyway, because of the financial--fiscal 
constraints that the state has, make it even more difficult for 
our state enforcement folks to be there. But, the Coast Guard 
is in all those waters, in any event. I wish we could do more, 
from a D&R perspective, as you point out, but our budget 
constraints make that, I'm afraid, more difficult, so I can't 
point to that as being, really, the major source of the 
enforcement. They're there. There's a presence, but it's not as 
strong as we'd like.
    Senator Cantwell. Senator Klobuchar, do you have any 
questions?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, I just wanted to say I was 
enjoying this moment, because, Senator Levin, I'm the only 
member of the Subcommittee that doesn't have an ocean. And now 
that you're here, you and I, as Great Lakes Senators, outnumber 
the ocean Senators here, so--as it should be.
    [Laughter.]
    Senator Levin. First time in--we call this the--we call 
this the Fourth Coast.
    Senator Klobuchar. Exactly.
    Senator Levin. And we--you and I and the other Great Lakes 
Senators are all part of a Great Lakes Task Force, which tries 
to bring to the attention of our colleagues the fact that this 
is a longer coastline than any other coastline we have.
    Senator Klobuchar. And one of the things that I'm going to 
focus on a little today is just the--what we've seen, the 
changes to the Great Lakes, in terms of the invasive species 
and--and I know this wasn't the focus of your testimony today--
but also the lowering in--Lake Superior, last year, was at its 
lowest level in 80 years, because the water has been 
evaporating with climate change, the ice melting. And I just 
wondered if you'd seen similar things with Lake Michigan.
    Senator Levin. I think we have some good news on Lake 
Michigan this year, although I'm not positive. I think the 
majority of our lakes actually have seen a slight increase. And 
I don't know if it's true in Superior, but I think it is true 
in Michigan.
    Senator Klobuchar. Well, there might have been an increase 
this year. We're just seeing a trend down that----
    Senator Levin. Yes. Oh, no----
    Senator Klobuchar.--has affected our barge traffic.
    Senator Levin.--oh, our--the dredging problems that we have 
at all of our ports is huge. We've got a major problem because 
of the lowering of our waters, even though there may have been 
a bump-up this year. It's one of the greatest problems we face 
in Michigan, is in our ports. It's desperate. We have lost--we 
have lost access to our ports because they cannot be dredged; 
we don't have the funds to get them dredged.
    Senator Klobuchar. Right. And we also--there are some 
decreases in this budget, that I'm concerned about, for 
research that was really--been very important to our area. And 
so, I'm going to voice those concerns when I have an 
opportunity.
    So, thank you very much.
    Senator Levin. Well, thank you.
    And the Great Lakes Task Force thanks you, Madam Chairman, 
and--for holding these hearings and for your support. I know, 
even though you're a saltwater state, and we're freshwater 
states in the Great Lakes, that you have a special 
understanding of shipping and the history of the waters, 
whether they be salt or fresh, so that we feel like we're in 
good hands in this committee.
    Thank you.
    Senator Cantwell. Thank you, Senator Levin. And, again, 
thank you for being here this morning.
    Just so people are aware, our second panel will focus on 
sanctuary expansion issues--this Thunder Bay National Marine 
Sanctuary issue, as well as another one proposed, expansion in 
California. So, we will have a second panel on that, but we 
appreciate Senator Levin coming to be with us this morning.
    We'll now turn to Admiral Lautenbacher for your testimony, 
but I'm going to make an opening statement first. And if my 
colleague Senator Klobuchar would like to follow with that, we 
will proceed then with you, Admiral Lautenbacher.
    I want to thank everyone for being here today on this 
oversight hearing of the National Ocean and Atmospheric 
Administration's Fiscal Year 2009 budget and the issues facing 
the National Marine Sanctuary Program.
    And, Admiral Lautenbacher, again, thank you for your time 
in being here today to talk about these many important issues 
within your budget oversight.
    I would like to start with a note of congratulations. NOAA 
scientists are among the hundreds of researchers across the 
globe who are contributing to the Intergovernmental Panel on 
Climate Change. And last year the--that same panel was awarded 
a Nobel Peace Prize, and I'm delighted to see that many of the 
NOAA scientists shared in this prestigious honor.
    I know that we have a list somewhere here of the scientists 
that were part of that, so we're going to enter that into the 
record, but we do send our congratulations to those who were 
involved in this vital topic.
    [The information previously referred to follows:]


                                NOAA Contributors to the IPCC Assessment Reports
----------------------------------------------------------------------------------------------------------------
                                                                                                  IPCC Working
                 Last Name                             First Name              Line Office           Group
----------------------------------------------------------------------------------------------------------------
                            Contributors to the IPCC Fourth Assessment Report (2007)
                      NOTE: No NOAA personnel are listed as contributors to Working Group 3
----------------------------------------------------------------------------------------------------------------
Austin                                                               John                                   WG1
Antonov                                                              John                                   WG1
Boyer                                                                 Tim             NESDIS                WG1
Conway                                                          Thomas J.                OAR                WG1
Delworth                                                          Thomas L.              OAR                WG1
Dixon                                                               Keith                OAR                WG1
Dlugokencky                                                            Ed                OAR                WG1
Easterling                                                          David                OAR                WG1
Elkins                                                           James W.                OAR                WG1
Fahey                                                            David W.                OAR                WG1
Feely                                                             Richard                OAR                WG1
Free                                                              Melissa                OAR                WG1
Garcia                                                             Hernan             NESDIS                WG1
Gleason                                                             Byron             NESDIS                WG1
Groissman                                                           Pavel             NESDIS                WG1
Gudgel                                                            Richard                OAR                WG1
Held                                                                Isaac                OAR                WG1
Karl                                                               Thomas             NESDIS                WG1
Kiladis                                                            George                OAR                WG1
Knutson                                                            Thomas                OAR                WG1
Lanzante                                                             John                OAR                WG1
Lau                                                           Ngar-Cheung                OAR                WG1
Lawrimore                                                             Jay             NESDIS                WG1
Leung                                                                Ruby                OAR                WG1
Levinson                                                            David             NESDIS                WG1
Levitus                                                            Sydney             NESDIS                WG1
Manning                                                            Martin                OAR                WG1
Masarie                                                               Ken                OAR                WG1
McPhaden                                                          Michael                OAR                WG1
Miller                                                            John B.                OAR                WG1
Molinari                                                           Robert                OAR                WG1
Montzka                                                        Stephen A.                OAR                WG1
Peng                                                           Tsung-Hung                OAR                WG1
Peterson                                                           Thomas             NESDIS                WG1
Ramaswamy                                                   Venkatachalam                OAR                WG1
Reid                                                               George                OAR                WG1
Rosati                                                            Anthony                OAR                WG1
Rosenlof                                                            Karen                OAR                WG1
Sabine                                                        Christopher                OAR                WG1
Schwarzkopf                                                           Dan                OAR                WG1
Solomon                                                             Susan                OAR       WG1-Co-chair
Stern                                                             William                OAR                WG1
Stouffer                                                        Ronald J.                OAR                WG1
Vose                                                              Russell             NESDIS                WG1
Wanninkhof                                                            Rik                OAR                WG1
Wuertz                                                              David             NESDIS                WG1
Wyman                                                              Bruce L.              OAR                WG1
Pulwarty                                                            Roger                OAR                WG2
----------------------------------------------------------------------------------------------------------------
                             Contributors to the IPC Third Assessment Report (2001)
----------------------------------------------------------------------------------------------------------------
Albritton                                                             Dan                OAR                WG1
Barnston                                                               A.                NWS                WG1
Bates                                                                  J.                OAR                WG1
Broccoli                                                               A.                OAR                WG1
Brooks                                                                 H.                OAR                WG1
Cooke                                                                  W.                OAR                WG1
Crowe                                                                  M.             NESDIS                WG1
Daniel                                                               J.S.                OAR                WG1
Delworth                                                          Thomas L.              OAR                WG1
Dixon                                                                  K.                OAR                WG1
Dlugokencky                                                            Ed                OAR                WG1
Easterling                                                          David             NESDIS                WG1
Eskridge                                                             R.E.             NESDIS                WG1
Free                                                              Melissa                OAR                WG1
Gaffen (now Seidel)                                               Dian J.                OAR                WG1
Gallo                                                                  K.             NESDIS                WG1
Groissman                                                           Pavel             NESDIS                WG1
Griffies                                                             S.M.                OAR                WG1
Gutman                                                                 G.             NESDIS                WG1
Held                                                                Isaac                OAR                WG1
Karl                                                               Thomas             NESDIS                WG1
Knight                                                         Richard W.             NESDIS                WG1
Knutson                                                            Thomas                OAR                WG1
Landsea                                                             Chris                OAR                WG1
Lawrimore                                                             Jay             NESDIS                WG1
Livezey                                                         Robert E.                NWS                WG1
Montzka                                                        Stephen A.                OAR                WG1
Murphy                                                                 D.                OAR                WG1
Norris                                                                 J.                OAR                WG1
Overpeck                                                               J.             NESDIS                WG1
Owen                                                                   T.             NESDIS                WG1
Peterson                                                           Thomas             NESDIS                WG1
Quayle                                                                 R.             NESDIS                WG1
Quinn                                                            Patricia                OAR                WG1
Ramaswamy                                                   Venkatachalam                OAR                WG1
Reynolds                                                               R.                NWS                WG1
Ross                                                                   R.                OAR                WG1
Schwartzkopf                                                         M.D.                OAR                WG1
Solomon                                                             Susan                OAR                WG1
Stensrud                                                             D.J.                OAR                WG1
Stouffer                                                        Ronald J.                OAR                WG1
Tans                                                                 P.P.                OAR                WG1
Winton                                                                 M.                OAR                WG1
Xie                                                                    P.                NWS                WG1
Buckley                                                          Earle N.                                   WG2
Buizer                                                             James L.              OAR                WG2
Davidson                                                         Margaret                NOS                WG2
Fahn                                                                James                OAR                WG2
Farrow                                                                   Lisa            OAR                WG2
Foster                                                             Joshua                OAR                WG2
Kane                                                                Sally                OAR                WG2
Landsea                                                             Chris                OAR                WG2
Lewsey                                                            Clement                NOS                WG2
Mieremet                                                       Richard B.                                   WG2
Nierenberg                                                        Claudia                OAR                WG2
Piotrowicz                                                     Stephen R.                OAR                WG2
Pulwarty                                                            Roger                OAR                WG2
Schnell                                                              Russ                                   WG2
Simpson                                                           Caitlin                OAR                WG2
Stewart                                                             Macol                OAR                WG2
Surgeon                                                       Tonna-Marie                OAR                WG2
Trtanj                                                            Juli M.                OAR                WG2
Wilson                                                               Stan                                   WG2
----------------------------------------------------------------------------------------------------------------
                            Contributors to the IPCC Second Assessment Report (1995)
----------------------------------------------------------------------------------------------------------------
Albritton                                                             Dan                OAR                WG1
Angell                                                               J.K.                OAR                WG1
Arkin                                                          Phillip A.                NWS                WG1
Bates                                                                  T.                OAR                WG1
Butler                                                               J.H.                OAR                WG1
Delworth                                                          Thomas L.              OAR                WG1
Diaz                                                                H. F.                OAR                WG1
Dlugokencky                                                            Ed                OAR                WG1
Douglas                                                                B.             NESDIS                WG1
Easterling                                                          David             NESDIS                WG1
Elkins                                                           James W.                OAR                WG1
Elliott                                                        William P.                OAR                WG1
Gaffen                                                            Dian J.                OAR                WG1
Haywood                                                                J.                OAR                WG1
Kanamitsu                                                           Masao                NWS                WG1
Karl                                                               Thomas             NESDIS                WG1
Knight                                                         Richard W.             NESDIS                WG1
Knutson                                                            Thomas                OAR                WG1
Lau                                                           Ngar-Cheung                OAR                WG1
Levitus                                                            Sydney             NESDIS                WG1
Livezey                                                         Robert E.                NWS                WG1
Montzka                                                        Stephen A.                OAR                WG1
Novelli                                                           Paul C.                OAR                WG1
Ohring                                                             George             NESDIS                WG1
Overpeck                                                               J.             NESDIS                WG1
Quinn                                                            Frank H.                OAR                WG1
Ramaswamy                                                   Venkatachalam                OAR                WG1
Ropelewski                                                           C.F.                NWS                WG1
Solomon                                                             Susan                OAR                WG1
Stouffer                                                        Ronald J.                OAR                WG1
Tans                                                            Pieter P.                OAR                WG1
Assel                                                          Raymond A.                OAR                WG2
McVey                                                            James H.                OAR                WG2
Methot                                                            Richard               NMFS                WG2
Mountain                                                            David               NMFS                WG2
Sherman                                                           Kenneth               NMFS                WG2
Kane                                                                Sally                OAR                WG3
----------------------------------------------------------------------------------------------------------------
                             Contributors to the IPCC First Assessment Report (1990)
----------------------------------------------------------------------------------------------------------------
Angell                                                               J.K.                OAR                WG1
Arkin                                                          Phillip A.                NWS                WG1
Bryan                                                                Kirk                OAR                WG1
Chelliah                                                         Muthuvel                NWS                WG1
Diaz                                                                 H.F.                OAR                WG1
Elkins                                                           James W.                OAR                WG1
Fehsenfeld                                                           Fred                OAR                WG1
Gruber                                                                 A.             NESDIS                WG1
Hayashi                                                                Y.                OAR                WG1
Karl                                                            Thomas R.             NESDIS                WG1
Levitus                                                            Sydney             NESDIS                WG1
Manabe                                                                 S.                OAR                WG1
Reynolds                                                             R.W.                NWS                WG1
Ropelewski                                                           C.F.                NWS                WG1
Stouffer                                                        Ronald J.                OAR                WG1
Wetherald                                                      Richard T.                OAR                WG1
Woodruff                                                         Scott D.                OAR                WG1
Everett                                                                J.                                   WG2
Hayes *                                                                J.                                   WG2
LaRoe                                                                  E.                                   WG2
Lawford                                                                R.                                   WG2
Liu *                                                                  C.                                   WG2
Meehan                                                                 J.                                   WG2
Rodionov                                                           Sergei                                   WG2
Stewart *                                                              R.                                   WG2
Yamada                                                                 T.                                   WG2
----------------------------------------------------------------------------------------------------------------
* 11/16/2007--only people working NOAA at the time of publication and included in the Reports' Contributing
  Authors lists are included.
Source: NOAA Personnel contributing to the Four IPCC Assessment Reports--taken from appendices of IPCC
  Assessment Reports.


    Senator Cantwell. I'm happy to see that, for the first 
time, the President's budget request for NOAA actually exceeded 
last year's Congressional appropriation. I'm concerned, though, 
that, when we look deeper into how we got to that number, and 
some of the other discussions that are roaming around within 
the Department of Commerce, that this may not be as big a 
victory as we would like to see.
    The NOAA fiscal budget for 2009, of $4.1 billion, is 5 
percent above the 2008 level, and almost this entire increase 
goes toward funding the cost overruns in the Weather and 
Climate Satellite Acquisition Program. Unfortunately, though, 
that means that the NOAA top-line budget request is larger, and 
that the President is still proposing budget cuts for the 
Nation's oceans programs.
    Admiral, you know that we have seen a lot of attention 
lately, and a lot of concern from Members of this Committee, 
about the satellite program. Our aging fleet of satellites 
which monitor weather, hurricanes, climate, and oceans 
desperately need to be replaced, but the failures of these 
acquisitions are impossible to ignore.
    The National Polar-orbiting Operational Environmental 
Satellite System will have cost overruns from $6.5 billion to 
$12.5 billion, and the lead contractor, Northrop Grumman, was 
awarded $123 million in award fees. I think this is 
inexcusable.
    We also have this discussion about what's going to happen 
within the Department of Commerce as it relates to concerns 
about the 2010 Census, the fact that the Census Bureau's 
handling of computer acquisition has failed, more than doubling 
the price, the computers are riddled with many problems; and, 
to help pay for this, Secretary Gutierrez has asked Congress to 
transfer $27 million from NOAA to the Census Bureau during this 
fiscal year. He has indicated that he will need to move up $700 
million from NOAA and other agencies in Fiscal Year 2009 to 
make up for the Census shortfall.
    As these failures threaten to decimate NOAA's budget, it 
is, once again, the oceans that will suffer the consequences. 
Because of the financial demands of the Satellite Acquisition 
Program and the Census Bureau, we are seeing cuts proposed by 
many of--to many of these important programs. The National 
Ocean Service, the Office of Oceanic and Atmospheric Research, 
the National Marine Fishery Service all see their budgets 
slashed. And, despite the demands Congress laid out in the 
Magnuson-Stevens Act reauthorization, and despite ocean 
acidification, the role that oceans play in global warming, the 
Administration still sees the need to weaken the oceans program 
in a time when we need even more attention than ever.
    If you recall, last year, I was very disappointed to see 
the--what had been a budget request in the previous years of 
$87 million for 2000 to 2005 for our salmon recovery plan only 
down to $67 million. And I expressed that--disappointed. So, I 
don't think I'm going to surprise you today by saying that my 
colleagues are very concerned and upset about the budget 
request for this year that is only $35 million, which is a 60 
percent reduction over the 2000 to 2005 budget level. And I can 
tell you, with the--all the discussion this week on the buy up 
and the salmon recovery plan, how essential these funds are. 
These funds go to the front line of salmon recovery. The 
states, the tribes, they do their hard work to protect our 
salmon, but they need the additional support.
    And in just this past week, we've seen the emergency 
shutdown of West Coast salmon fisheries and the declaration of 
a fishery disaster. I will note that in that request from 
states we will end up seeing the Administration spend the same 
amount of money we could have been spending on other programs 
to help prevent this situation.
    We saw the release of a new Biological Opinion and further 
escalation of other fishing issues in the Northwest.
    So, in such a critical time for salmon recovery, the 
Administration, I believe, has proposed unacceptable levels of 
salmon funding.
    I'm also disappointed to see that NOAA's education program, 
which is focused on environmental stewardship, takes a 51 
percent cut from the 2006 levels, and I look forward to my--
working with my colleagues to restore that.
    And, finally, Admiral, I'd like to mention a few other 
issues that are critically important, not just to the Nation, 
but to the Northwest. We have had an opportunity to discuss, in 
my office, the need for a Doppler radar system on the coast of 
Washington. We had documented hurricane-force winds, according 
to the Coast Guard, that caused a devastating impact in the 
Northwest, with floods and devastation last December. And 
having a better system there for emergency response is 
critically important.
    There are other issues that I would love to discuss here in 
my opening remarks, but I want to give my colleagues a chance 
to also make comments. And, Admiral, we have many questions 
about everything from the salmon recovery plans to the orca 
population to many other things. So, again, we appreciate you 
being here to answer these questions.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Madam Chair. And 
thank you for holding this hearing.
    Thank you, Admiral, for being here. I was reviewing your 
testimony, and I saw that you have--you mentioned how you've 
converted a fleet of research vessels from 100 percent--from 
petroleum-based to 100 percent bio-based fuel, and I wanted to 
thank you for that. I think it's a good model that we could 
look at in other areas of the government.
    The--as I mentioned before, when Senator Levin was here, 
NOAA's role is particularly important when it comes to the 
Great Lakes. And I listed these concerns. I wanted to go 
through them again. While we may have seen a slight increase in 
the water levels this year--I'm just guessing, because we had a 
little more snow--but overall we've seen a downward trend. Lake 
Superior's water levels are at their lowest point--this was 
last year--in eight decades, which have reduced the commercial 
shipping tonnage that can be brought into our harbors. There's 
a lot of concern in the business community about that. We've 
had invasive species issues that have done a lot of harm to the 
lake's ecosystem. We have the concern about the Asian carp 
coming up, and some other things. And also, the harbor and open 
water infrastructure used to manage these problems continues to 
age and deteriorate.
    Given these threats to the Great Lakes and other coastal 
maritime environments, as Senator Cantwell was going through, 
while I understand that you--there was a funding increase in 
certain important areas, I'm concerned about other critical 
programs that are--that have not received that kind of 
treatment in the President's FY09 budget. For instance, the 
major research grants of NOAA, the Office of Oceanic and 
Atmospheric Research, is proposed for a decrease of over $15 
million. This may include significant cuts in funding for the 
ocean, coastal, and Great Lakes research laboratories. Over the 
past few years, the Great Lakes Environmental Research 
Laboratory has conducted high-quality research and provided 
scientific leadership on important issues for the Great Lakes 
and for other coastal environments. This research has led to 
innovative solutions to protect these environments, and I'm 
just particularly concerned, because we're seeing such a change 
in the Great Lakes environment, which I attribute, in large 
part, to climate change. But, we're seeing a major change, and 
I would think it would be--not be a good time to be cutting 
back on research.
    With that, I look forward to hearing your testimony, and I 
thank you very much for your work and all the work that the 
people that work with you do.
    Thank you very much.
    Senator Cantwell. We've been joined by our Ranking Member, 
Senator Stevens.
    Would you like to make an opening statement?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Well, thank you very much.
    Good morning, Admiral. It's nice to see you here. I know 
that you realize that our state has half the coastline of the 
United States, and NOAA is one of our most important agencies. 
I'm delighted to see that this 2009 budget request is the 
largest one I've ever seen. I'm disturbed that the fisheries 
have been reduced. I hope that you can find a way to readjust 
that as we go along. Very clearly, it's $46 million less for 
marine fisheries, which the Chairman has mentioned.
    We have, a growing problem in our state, as you know, in 
terms of the IUU fisheries. And they're outside the 200-mile 
limit, they're coming across our line. We're trying our best to 
work out, along with the various agencies, some form of 
monitoring the maritime border, which is really beyond our 200-
mile limit, but at least it would give us some understanding 
who's out there, in terms of these new enormous vessels.
    We do not overfish any species. There are no endangered or 
threatened species that we harvest off of Alaska. And we're 
very proud of our fisheries. We're very disturbed about the 
continued increase in the IUU fisheries capability, and really 
more disturbed than anything over the fact we don't know what 
they're doing. So, I would urge you to concentrate on that, to 
find some way to get us the knowledge of what species are these 
vessels harvesting and where are they taking that catch, and is 
there any way at all for us to determine what they're catching? 
Because I think they could. If we don't find some way to 
regulate them, they could destroy everything we've done and 
everything the world has done by following our example and 
having a 200-mile limit within which you can have scientific 
management. Ours is the best in the world, and we'd like to 
work with you to continue that.
    So, I look forward to your statement. I'm pleased to see 
you here today.
    Thank you very much.
    Senator Cantwell. Thank you, Senator Stevens.
    Again, Admiral Lautenbacher, welcome to the Committee, and 
we look forward to hearing your testimony this morning.

 STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., (U.S. 
  NAVY, RET.), UNDER SECRETARY FOR OCEANS AND ATMOSPHERE, AND 
ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you very much, Madam Chair, 
Senator Klobuchar, Senator Stevens, and distinguished members 
of the staff. It's a great pleasure to be here with you this 
morning.
    I appreciate the support of this committee over the years 
and the interest that you have in the number of significant 
challenges which you've outlined in your opening statements. I 
thank you for your leadership and help with our people and our 
programs.
    The President's budget this year supports the priority of 
advancing mission-critical services. The budget request, as 
mentioned, is $4.1 billion, which represents a $202 million, or 
5.2-percent, increase over the enacted level in Fiscal Year 
2008. The major increases are in the areas of satellites, 
facilities, and implementation of the Magnuson-Stevens Act.
    For NOAA overall, this is the minimum that we need to 
maintain our current level of services and to carry out our 
mission, to understand and predict changes in the Earth's 
environment, and to conserve and manage coastal, marine, and 
Great Lakes resources.
    NOAA has had many notable accomplishments during the past 
fiscal year. They're recited in my written testimony, but I 
want to mention one, which was already mentioned by the Chair.
    First of all, I have always mentioned how proud I am of the 
people who work in NOAA and what they do for the Nation. I'm 
particularly proud, this year, to make mention of the 120 NOAA 
scientists that were recognized by the Nobel Prize Committee 
for their work on the Intergovernmental Panel on Climate 
Change. Many people in the NOAA family were intimately 
involved, including numerous lead, review, and contributing 
authors, as well as line offices, in our observations and 
modeling, which were critical.
    I will move to the 2009 budget request, and I want to 
highlight just a couple of areas for you so we can get to the 
questioning.
    The budget requests $49 million in increases to support the 
implementation of the President's Ocean Initiative. This 
includes $18 million to advance ocean science and research, $5 
million to protect and restore marine and coastal areas, and 
more than $26 million to ensure sustainable use of ocean 
resources.
    The budget also requests $32 million in increases to 
support the new provisions of the Magnuson-Stevens bill and to 
provide better management of fisheries harvests. This includes 
an increase of $8\1/2\ million to expand annual stock 
assessments. Magnuson-Stevens also requires NOAA to establish 
annual catch limits for all managed fisheries by 2011. To do 
this effectively, we need sound science to determine 
appropriate catch levels. We are asking for $5 million in 
increases to support annual catch limits and stipends, as well 
as $4 million for a resource survey program to track the 
abundance of North Atlantic scallops and West Coast groundfish. 
We are also asking for a $1 million increase to support 
enforcement against illegal, unregulated, and unreported, or 
IUU, fishing, which has been an important issue to members of 
the Committee.
    The budget request also includes $21 million for the 
Integrated Ocean Observing System, or IOOS. Projects to protect 
and restore valuable marine and coastal areas include funding 
of $4 million to implement the newly enacted Marine Debris 
Research, Prevention, and Reduction Act. The budget also 
provides $1 million to support implementation of the Ocean and 
Human Health Act through the Oceans and Human Health 
Initiative.
    NOAA views its education mission as one of its top 
priorities, and has requested more than $15 million in our 2009 
budget. We are currently updating our education plan, as 
required by the America COMPETES Act.
    The 2009 budget requests $60 million to support the ongoing 
construction and relocation efforts to the Pacific Regional 
Center on Ford Island in Hawaii. We are also asking for $8 
million to support management of the national monument in the 
northwestern Hawaiian Islands, mentioned earlier by Senator 
Levin.
    NOAA also requests funding to restore several of our base 
programs that were reduced in the 2008 omnibus. The fisheries 
budget request includes restoration of just over $8 million for 
fisheries research and monitoring. This will maintain our 
ability to provide value-added analysis to the Fishery 
Management Councils.
    The Weather Service budget request includes restoration of 
just over $10 million for local warnings and forecasts. To 
enhance our weather forecasting abilities, ensure consistency, 
we are requesting a funding increase of $242 million to 
continue support of the Next Generation Geostationary Satellite 
Program, called GOES-R. These unique sentinels in the sky 
provide the images of severe weather you see on TV. All of the 
sensors are on contract, and we plan to issue major contracts 
for space and ground segments in Fiscal Year 2009. This is a 
critical time for the program, and we must keep it on track.
    In 2009, NOAA will invest more than $319 million on 
climate-related activities. This is an increase of $85 million 
over the FY08 enacted. We are requesting an increase of $74 
million for climate sensors that were removed from the Next 
Generation Polar Satellite Program, or NPOESS. The money is 
specifically for instruments called TSIS and CERES, which 
measure the Earth's radiation budget.
    NOAA's 2009 request provides modest new investments in our 
priority areas, while maintaining critical services. We will 
build on our successes for last year and stand ready to meet 
the challenges that will surface in 2009 and beyond.
    With regard to the proposed boundary expansion mentioned 
for Thunder Bay, Cordell Bank, and the Gulf of Farallones 
National Marine Sanctuaries, under S. 2281 and H.R. 1187 
respectively, NOAA generally agrees with the intent of these 
bills to protect the important marine resources off the 
Michigan and California coasts. The concepts behind expanding 
these three sanctuaries have support from the respective 
advisory councils and many constituents. As a general matter, 
NOAA prefers to manage sanctuaries through the Federal 
regulatory process rather than through statutory requirements; 
therein, including a--robust public processes where 
stakeholders and other constituents are given multiple 
opportunities to provide input. NOAA looks forward to working 
with the committees--Committee as these bills move forward.
    Again, thank you for your--opportunity to present the 
budget request, and I'm happy to answer the questions you may 
have.
    Thank you.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]

 Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr., (U.S. 
      Navy, Ret.), Under Secretary for Oceans and Atmosphere, and 
 Administrator, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce
    Madam Chairwoman and Members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's Fiscal Year (FY) 2009 Budget Request for NOAA.
    The FY 2009 President's Budget supports NOAA's priority to advance 
mission-critical services. The FY 2009 request is $4.1 billion, which 
represents a $202 million or 5.2 percent increase over the FY 2008 
enacted level. This request includes the level of resources necessary 
to carry out NOAA's mission, which is to understand and predict changes 
in the Earth's environment, and conserve and manage coastal and marine 
resources to meet our Nation's economic, social and environmental 
needs. At NOAA we work to protect the lives and livelihoods of 
Americans, and provide products and services that benefit the economy, 
environment, and public safety of the Nation. Before I discuss the 
details of our FY 2009 budget request, I would like to briefly 
highlight some of NOAA's notable successes from the past Fiscal Year 
(2007).
FY 2007 Accomplishments
NOAA Is Major Contributor to Nobel Prize-Winning Intergovernmental 
        Panel on 
        Climate Change Reports
    Scientists from NOAA's Earth System Research Laboratory were among 
those sharing in the 2007 Nobel Peace Prize. The scientists were 
recognized for their contributions to the Intergovernmental Panel on 
Climate Change (IPCC). The IPCC was created in 1988 by the World 
Meteorological Organization and the United Nations Environment Program 
to provide regular assessments for policymakers of the scientific, 
technical and socioeconomic aspects of climate change. IPCC has 
produced its major assessments every five to 6 years since 1990.
    NOAA scientists served as contributors to and government reviewers 
of the Fourth IPCC Assessment Report. NOAA's Geophysical Fluid Dynamics 
Laboratory provided model runs that enhanced the projections used in 
the IPCC report.
Magnuson-Stevens Act Implementation
    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2007 was signed into law on January 12, 2007. 
The reauthorized Act contains significant new provisions to end 
overfishing, promote market-based approaches to fisheries management, 
improve the science used in fisheries management, improve recreational 
data collection, enhance international cooperation in fisheries 
management, and address illegal, unreported, and unregulated fishing, 
as well as bycatch of protected living marine resources. Especially 
notable is the requirement to establish an annual catch limit for each 
fishery, which for the first time creates a mandate with a timetable to 
end overfishing.
Progress on Next Generation Geostationary Satellite Program
    Geostationary satellites remain the weather sentinels for NOAA. The 
next-generation geostationary satellite series, GOES-R, will provide 
new and improved atmospheric, climatic, solar, and space data. In 2007, 
NOAA revised the management and acquisition strategy for the GOES-R 
program, partnering more closely with NASA to take advantage of each 
agency's technical expertise. In February 2007, the Advanced Baseline 
Imager, the main instrument on GOES-R, completed a key milestone, 
enabling the contractor to begin building the first instrument. 
Throughout 2007, NOAA awarded the three remaining instrument contracts 
for the Solar Ultraviolet Imager, Extreme Ultra Violet and X-Ray 
Irradiance Sensors, and Geostationary Lightning Mapper. These 
instruments will help us to understand and forecast solar disturbances 
as well as track lightning strikes from space.
NOAA's National Weather Service Provides More Specific Warning 
        Information for Severe Weather
    NOAA's National Weather Service (NWS) began issuing more 
geographically specific warnings for tornadoes, severe thunderstorms, 
floods, and marine hazards on October 1, 2007. The new ``storm-based 
warnings'' allow forecasters to pinpoint the specific area where severe 
weather threats are highest, thereby reducing the area warned by as 
much as 70 percent when compared to the previously used county-by-
county warning system. Storm-based warnings are displayed graphically 
and are extremely adaptable to cell phones, PDAs, and the Internet. The 
Emergency Alert System (EAS) is geared toward counties and NOAA Weather 
Radio (NWR) All Hazards will still sound an alarm if there is a warning 
anywhere in a county. However, text and audio messages will provide 
more specific information about the location of the storm in the 
county, and the direction in which it is moving. Storm-based warnings 
will reference landmarks such as highways, shopping centers, and parks, 
and will use directional delimiters to indicate county location.
Fleet Modernization Moves Ahead
    In June 2007, NOAA celebrated the keel laying of NOAA ships BELL M. 
SHIMADA and FERDINAND R. HASSLER in Moss Point, Mississippi. This 
marked the first time NOAA has celebrated this important construction 
milestone for two ships simultaneously. HENRY B. BIGELOW, second of the 
four fisheries survey vessels of the same class being built by VT 
Halter Marine, was commissioned into the fleet in July before beginning 
operations in New England. In September, Phase I of conversion of NOAA 
Ship OKEANOS EXPLORER (formerly USNS CAPABLE) to an ocean exploration 
ship was completed. NOAA ship PISCES was christened in December and 
subsequently launched in Moss Point, Mississippi.
New State-of-the-Art Satellite Operations Facility Officially Opened
    In June 2007, NOAA and the General Services Administration 
officially opened the new state-of-the-art NOAA Satellite Operations 
Facility (NSOF). NSOF is the new home for NOAA's around-the-clock 
environmental satellite operations, which provides data critical for 
weather and climate prediction. NSOF supports more than $50 million of 
high technology equipment, including 16 antennas monitoring the 
operations of 16 on-orbit satellites.
National Water Level Observation Network Upgraded to Real-time Status
    The National Ocean Service (NOS) completed a three-year effort to 
upgrade the technology of its National Water Level Observation Network 
(NWLON). NWLON stations provide mariners, first responders, and the 
public with real-time tide and water-level information. A major benefit 
of the upgrade is that network stations normally equipped to transmit 
water-level and other environmental data at hourly increments via NOAA 
Geostationary Operational Environmental Satellites now transmit data 
every 6 minutes, thus enabling users to access data more quickly.
NOAA Aids in the Recovery of Fisheries and Fishing Communities Damaged 
        by 
        Hurricanes
    NOAA funded and conducted a number of activities aimed at helping 
Gulf Coast fisheries recover from the devastating impacts of Hurricanes 
Katrina, Rita, and Wilma, which struck the Gulf Coast in 2005. The 
states are using these funds to restore and rehabilitate oyster, 
shrimp, and other marine fishery habitats damaged or destroyed by 
hurricane events, and to conduct cooperative research and monitoring 
and other activities designed to recover and rebuild Gulf of Mexico 
fisheries and fishing communities.
NOAA Weather Radio All Hazards Activities: Meeting the Expectations of 
        the Nation for Weather and All Hazard Warning Information
    NOAA's National Weather Service added 16 broadcast stations to the 
NOAA Weather Radio (NWR) All Hazards network in 2007. In addition to 
achieving 100 percent coverage of high-risk areas, NOAA refurbished 62 
broadcast stations with technology upgrades that significantly improved 
reliability and availability, while decreasing maintenance costs. This 
allows the network to meet expectations of availability as the Nation's 
weather and all hazard warning system.
     NWR is a reliable and inexpensive means of communicating weather, 
hazard, and emergency information directly to the public. The network 
infrastructure consists of 986 broadcast stations covering 98 percent 
of the Nation's population and has the ability to deliver messages to 
individuals monitoring their own receivers as well as the ability to 
reach millions of listeners and viewers through the Emergency Alert 
System, which is monitored by television and radio license holders. The 
network is required to broadcast to all areas of the United States 
identified as being at high risk of experiencing severe weather and to 
sustain a high level of reliability and maintainability in those areas.
Marine Reserves Established in Channel Island National Marine Sanctuary
    In 2007, NOS established the Federal portion of the marine reserves 
and conservation area network within the Channel Islands National 
Marine Sanctuary. This is the largest network of marine reserves in 
Federal waters in the continental United States. This action 
complements the State of California's established network of marine 
reserves and conservation areas within the state waters of the 
sanctuary in 2003.
Expanding U.S. Tsunami Preparedness
    NOAA's National Weather Service (NWS) is responsible for the 
expansion of the U.S. network of tsunami detection sensors. During 
2007, 14 Deep-ocean Assessment and Reporting of Tsunamis 
(DART<SUP>TM</SUP>) buoys were established: four in the Western Pacific 
Ocean, three off the Pacific Coast of Central America, five in the 
northwestern Pacific Ocean, and two in the North Atlantic Ocean, 
bringing the total number of U.S. DART<SUP>TM</SUP> stations to 34. The 
United States, with NOAA as lead agency, is currently working with 
approximately 70 countries, the European Commission, and over 50 non-
governmental agencies in planning and implementing the Global Earth 
Observation System of Systems (GEOSS), which includes a global tsunami 
warning system. In addition, NWS works with communities to prepare for 
tsunamis through the TsunamiReady<SUP>TM</SUP> Program. As of December 
12, 2007, there are 47 TsunamiReady<SUP>TM</SUP> sites in 10 states, 
Puerto Rico, and Guam. The National Weather Service reached its goal of 
recognizing 10 new TsunamiReady<SUP>TM</SUP> communities in Fiscal Year 
2007.
First Buoy to Measure Acidification Launched
    The first buoy to directly monitor ocean acidification was launched 
in the Gulf of Alaska. Ocean acidification is a result of carbon 
dioxide absorbed by the ocean. The new buoy, part of a National Science 
Foundation project awarded to PMEL and the University of Washington in 
Seattle, in collaboration with Fisheries and Oceans Canada and the 
Institute of Ocean Sciences in British Columbia, measures the air-sea 
exchange of carbon dioxide, oxygen, and nitrogen gas, in addition to 
the pH (a measure of ocean acidity) of the surface waters. The buoy is 
anchored in water nearly 5,000 meters deep and transmits data via 
satellite. Rising acidity in the ocean could have a detrimental effect 
on ocean organisms, with resulting impacts on ocean life and the food 
chain.
NOAA Ships Arrive at New Home Port in Hawaii
    NOAA ships OSCAR ELTON SETTE, HI'IALAKAI, and KA'IMIMOANA relocated 
to their new home port at Ford Island, Pearl Harbor, Hawaii, heralding 
the permanent presence of NOAA on Ford Island. This was a major 
milestone in the multi-year, multi-phase construction of the NOAA 
Pacific Regional Center, a project to consolidate NOAA programs and 
operations on the island of Oahu into a single facility on Ford Island.
NOAA's Open Rivers Initiative Completes First Projects
    In its first year, NOAA's Open Rivers Initiative completed three 
projects that restored over 30 miles of spawning and rearing habitat 
for migratory fish. The obsolete Brownsville Dam, located on the 
Calapooia River in Oregon, was removed in August 2007, effectively 
eliminating an obstruction to migratory fish and a safety hazard to the 
local human community. In California, two failing and undersized 
culverts were removed, allowing endangered salmon to reach their 
historic spawning and rearing grounds. In collaboration with local 
communities, NOAA's Open Rivers Initiative will continue to restore 
free fish passage to historic habitat by removing obsolete dams and 
barriers that dot the rivers of coastal states.
Delivering Real-Time Data to Help Shellfish Growers
    Shellfish growers in the Pacific Northwest can now get near real-
time water quality data from the System-wide Monitoring Program 
operating at National Estuarine Research Reserves in Alaska, 
Washington, and Oregon. The data are available through telemetering 
capabilities, which measure, receive, and transmit data automatically 
from distant sources. Water quality data can be viewed on a website 
jointly sponsored by NOS and the Northwest Association of Networked 
Ocean Observing Systems (http://www.nanoos-shellfish.org/). Water 
quality and weather data are transmitted every 30 minutes via satellite 
from monitoring stations at all 27 National Estuarine Research 
Reserves, providing information to the growing Integrated Ocean 
Observing System (IOOS).
Great Lakes Lab Recognized for `Green' Research Vessels
    NOAA's Great Lakes Environmental Research Laboratory (GLERL) 
converted a fleet of research vessels from petroleum-based to 100 
percent bio-based fuel and lubricants, earning a White House Closing-
the-Circle Award in the green purchasing category. GLERL operates 
research vessels throughout the Great Lakes region as scientific 
platforms for ecosystems research and other NOAA interests in the area. 
The conversion was a result of a call for ``greening'' of Government 
agencies through waste reduction, recycling, and the use of 
environmentally friendly and sustainable products including bio-
products.
FY 2009 Budget Request Highlights
Supporting the President's Ocean Initiative
    Building on last year's investment in Ocean Initiative related 
activities, the FY 2009 President's Request includes new increases of 
$49.1 million for NOAA over the FY 2008 President's Request to support 
the President's Ocean Initiative. This ocean initiative includes more 
funding to advance ocean science and research; protect and restore 
marine and coastal areas; and ensure sustainable use of ocean 
resources.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $7.0 million is 
included for the Integrated Ocean Observing System (IOOS) to support 
Data Management and Communications, Regional Observations, and the Data 
Assembly Center (DAC), which delivers real-time, quality controlled 
data from NOAA and regional observing systems. An increase of $1 
million is requested to manage the escalating size and quantity of 
hydrographic datasets collected by NOAA and other providers. This 
increase in funding will help NOAA update the nautical charts provided 
to mariners navigating on U.S. waters in a more timely fashion. In 
addition, NOAA is requesting $2 million in increased funding for the 
PORTS<SUP>'</SUP> program, to improve and expand the delivery of real-
time and forecasted navigation information. A recent economic benefits 
study of the Houston/Galveston PORTS<SUP>'</SUP> program, released in 
May 2007, showed that the program brought the Houston/Galveston area 
significant economic benefits and has helped to achieve a 50 percent 
reduction in groundings.
    Projects to protect and restore valuable marine and coastal areas 
include funding of $4 million to implement the newly enacted Marine 
Debris Research, Prevention, and Reduction Act. This funding will allow 
NOAA to provide competitive grants and to develop the first Federal 
clearinghouse on marine debris. NOAA also requests increased funding of 
$5.4 million for the Open Rivers program to restore stream miles of 
fish habitat through watershed-level projects with multiple fish 
passage opportunities.
    Finally, the budget provides support to ensure sustainable access 
to seafood through the development of offshore aquaculture and better 
management of fish harvests. In direct support of new provisions of the 
MSRA, and to provide better management of fish harvests, NOAA requests 
increased funding of $31.8 million over the FY 2008 enacted level. Of 
this amount, $5.1 million is requested to enhance the independent peer-
review process for scientific data required to appropriately set the 
annual catch limits for all managed fisheries; $8.5 million will 
initiate and expand existing sampling programs and management 
procedures in order to end overfishing by 2011, as mandated by the 
MSRA; and $3.0 million will complete the final implementation phase of 
a new registry system for recreational fishermen and for-hire fishing 
vehicles. An additional $1.5 million increase is requested in support 
of deep sea coral research, allowing NOAA to begin identifying, 
understanding, and providing the information needed in order to protect 
deep coral habitats.
Sustaining Critical Operations
    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are people, integrity, excellence, teamwork, ingenuity, science, 
service, and stewardship. Our ability to serve the Nation and 
accomplish the missions outlined below is determined by the quality of 
our people and the tools they employ. Our facilities, ships, aircraft, 
environmental satellites, data-processing systems, computing and 
communications systems, and our approach to management provide the 
foundation of support for all of our programs. Approximately $42.0 
million in net increases will support our workforce inflation factors, 
including $37.5 million for salaries and benefits and $4.5 million for 
non-labor-related adjustments, such as fuel costs.
    This year we have focused our increases on satellite continuity and 
operations and maintenance support for our aircraft and NOAA vessels. A 
funding increase of $242.2 million is requested to continue support of 
the Geostationary Operational Satellites (GOES-R) program. GOES 
satellites provide critical atmospheric, oceanic, climatic, and solar 
products supporting weather forecasting and warnings, climatologic 
analysis and prediction, ecosystems management, and safe and efficient 
public and private transportation. This increase will be used for 
continued systems engineering, development of satellite instruments, 
risk reduction activities, and transition to the systems-level 
acquisition and operations phase of the program.
    Funding of $6.1 million is also requested in support of a Major 
Repair Period for the RAINIER, NOAA's most productive hydrographic 
vessel. At 39 years old, the RAINIER requires a major capital 
investment in its mechanical and electrical systems in order to 
maintain its current operational tempo and reduce risks to personnel, 
property, and mission capability.
    Finally, NOAA requests an increase of $4.0 million in support of 
additional flight hours and operations and maintenance for our 
aircraft. The requested funds will provide an additional 1,295 flight 
hours for hurricane research, surveillance, and reconnaissance, as well 
as for other research and forecasting requirements. NOAA also asks this 
year for restoration to several of our base programs, most notably in 
the National Weather Service and the National Marine Fisheries Service. 
These requested increases in our base accounts will allow NOAA to 
sustain on-going programs and projects at the levels recommended in the 
FY 2008 President's Budget.
Improving Weather Warnings and Forecasts
    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the U.S. economy is sensitive to weather 
and climate. Realizing this, NOAA seeks to provide decisionmakers with 
key observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, life, and 
property of the U.S. and its economy. Landfalling hurricanes are one of 
the most physically destructive and economically disruptive extreme 
events that impact the United States, often causing billions of dollars 
of damage in their wake. In FY 2009, NOAA will continue to improve our 
hurricane research and modeling capabilities with a requested increase 
of $4.0 million for operational support and maintenance of the next-
generation Hurricane Weather Research and Forecasting model and storm 
surge prediction system, as well as accelerated improvements to that 
system. Increased funding of $3.0 million will support the operations 
and maintenance of 15 hurricane data buoys in the Caribbean, Gulf of 
Mexico, and the Atlantic Ocean, enhancing our real-time hurricane storm 
monitoring and observations. NOAA also continues to improve and 
maintain our weather warning infrastructure, with requested funding of 
$6.6 million to upgrade the Advanced Weather Interactive Processing 
System, the Nation's weather and flood warning system. Increased 
funding of $4.8 million will be used to upgrade twelve NOAA Wind 
Profilers and to perform a tech-refresh on this twenty-year-old radar 
system. Finally, NOAA is requesting $2.9 million in increased funding 
for modernization of the NOAA Weather Radio network.
Climate Monitoring and Research
    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. Preliminary 
estimates of the impact of the severe drought which affected the Great 
Plains and the Eastern United States throughout 2007 are in the range 
of $5 billion, with major reductions in crop yields and low stream and 
lake levels. Continued drought and high winds in the Western United 
States in 2007 resulted in numerous wildfires, with 3,000 homes and 
over 8.9 million acres burned, and at least 12 deaths. The FY 2009 
Budget Request contains investments in several programs aimed at 
increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decisionmakers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA continues to build a suite 
of information, products, and services that will enable society to 
respond to changing climate conditions. In FY 2009, NOAA will support 
the critical National Integrated Drought Information System with 
increases of $2 million to develop and bring into operation by FY 2010 
the next-generation Climate Forecast System, leading to improved 
climate forecasting products. An increase of $74 million will be used 
to develop Clouds and the Earth's Radiant Energy System (CERES) and 
Total Solar Irradiance Sensor (TSIS) climate sensors to preserve 
decades long climate data records. The CERES sensor will measure the 
Earth's radiation budget, an essential measurement for determining the 
causes of climate variability and change. The TSIS sensor measures the 
total energy of the sun falling on the Earth, a measurement used to 
identify and isolate natural solar variations that impact climate in 
contrast to other factors, such as human influences on climate.
Critical Facilities Investments
    The FY 2009 President's Budget Request also includes important 
increases for critical facilities, necessary to provide a safe and 
effective working environment for NOAA's employees.
    For FY 2009, NOAA will concentrate their modernization efforts on 
three main projects. NOAA requests an increase of $40.2 million for the 
continued construction of the new Pacific Region Center on Ford Island 
in Honolulu, Hawaii. This increase in funding will support the 
continued construction and renovation of two buildings, enabling NOAA 
to reduce expenditures for rent and relocate operations from their 
current location in the deteriorating Kewalo Basin and Dole Street Lab 
Facilities. An increase of $12.1 million will complete the design and 
initial preparations for a replacement facility for the Southwest 
Fisheries Science Center. Finally, $11.7 million is requested to 
support the installation of a semi-permanent replacement structure for 
the at-risk Operations Complex at the NESDIS Command and Data 
Acquisition Station in Fairbanks, Alaska. The current facility is at 
risk to experience a major structural failure in the next 5 years. The 
requested funding will ensure that NOAA maintains crucial mission 
operations support for the Polar-orbiting satellites, as well as backup 
support for others.
Conclusion
    NOAA's FY 2009 Budget Request provides essential new investments in 
our priority areas while maintaining critical services, reflecting 
NOAA's vision, mission, and core values. The work NOAA accomplished in 
2007 impacted every U.S. citizen. We will build on our successes from 
last year, and stand ready to meet the challenges that will surface in 
FY 2009 and beyond. NOAA is dedicated to enhancing economic security 
and national safety through research and accurate prediction of weather 
and climate-related events, and to providing environmental stewardship 
of our Nation's coastal and marine resources. That concludes my 
statement, Madam Chairwoman. Thank you for the opportunity to present 
NOAA's FY 2009 Budget Request. I am happy to respond to any questions 
the Committee may have.

    Senator Cantwell. Thank you, Admiral, very much.
    And if I could start with something that's a very burning 
issue in our state, the salmon Biological Opinion issue. 
Obviously, at the direction of a very frustrated judge, the 
previous opinion, there was lots of concern. And since what the 
court has released, what we've just seen is, you know, the work 
of four states, four Federal agencies, seven tribes, so there 
is much collaboration. And so, I think that's encouraging, that 
there is that much collaboration. But, it's going to take a lot 
of hard work to continue to make this plan a success. And so, 
what is your plan to make sure that the collaboration and 
implementation phase goes well?
    Admiral Lautenbacher. Well, first of all, we're committed 
to the collaboration. I'm hoping that people have reviewed the 
Biological Opinion that stated it incorporates much of the 
public commentary as--and building a general consensus as to 
where we ought to go.
    Our program includes $12.3 million to try to ensure that 
the implementation is done correctly. This is at a level that 
allows us to follow the implementation of it and ensure that it 
is managed correctly. We will continue to support that 
commitment, and we--as we go forward, and provide the resources 
and the people necessary to support and monitor the Biological 
Opinion.
    Senator Cantwell. And how do we look at this issue? I mean, 
I don't understand--how do you think you're well-positioned to 
do that, if we see this 60 percent cut in the salmon recovery 
funds?
    Admiral Lautenbacher. The Salmon Recovery Fund is--which 
is--it's all connected. First of all, we have a fairly robust 
salmon budget, when you look at the entire picture. From the 
Salmon Recovery Fund, this is an area where we've invested 
probably a billion dollars in working in this way. We had, this 
year, a limited amount of resources and a number of 
requirements, so this is a matter of priority, it's not a 
matter that I don't view that that program is worthwhile or 
that there--or that the funding wouldn't be used--or it's not--
it's not--it's not been reduced from our requirements list. 
But, if you go through the programs that we have to support for 
the Northwest and for all the fisheries, these are the 
decisions we made in priority. As I always do when I come here, 
I'm willing to work and to look for the best program that we 
can provide for the money that we have to offer.
    Senator Cantwell. But, wouldn't you say--wouldn't you say, 
on the surface of it, having this biological opinion and all 
the coordination that it takes, and then seeing that the funds 
are being cut 60 percent, it's kind of hard to imagine how 
that's going to support that effort?
    Admiral Lautenbacher. Well, there is still a considerable 
amount of effort going on for recovery, the recovery plans. We 
have the money to support the monitoring and the evolution of 
the biological opinion, as it pertains to the recovery efforts 
that are going on in the Columbia River, so we'll be able to 
tell what's happening and what's not happening and how things 
are improving. If we need to provide more, those types of 
results will be shown from the monitoring efforts.
    Senator Cantwell. It's my understanding, though, that some 
of those same monitoring and mapping efforts are also being 
curtailed. And so, I look at it as--if someone thinks that 
somehow that's going to help us in saving budget costs, because 
now, here we are having a disaster declared, having states, you 
know, all along the West Coast coming and looking for Federal 
dollars, and perhaps some of the mapping programs and some of 
the planning would have detailed some of this. So, I feel like 
we're still spending the money that--from a disaster-recovery 
perspective, after-the-fact, after the disaster. So, I look 
forward to working with you specifically on making sure there 
is an appropriate amount of money there for salmon recovery and 
that the biological opinion is able to be carried forward. So, 
I'll look forward to working with you in detail on that.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Senator Cantwell.
    Admiral in my opening statement I talked about the 
President's budget, proposed cuts to the Office of Oceanic and 
Atmospheric Research, and specifically I'm concerned about the 
impact this may have on the ocean, coastal, and Great Lakes 
research laboratories, including the work of the Great Lakes 
Environmental Research Laboratory that I believe is essential 
to properly maintain the Great Lakes ecosystem.
    What impact do you think this is going to have on the 
laboratory's ability to complete their assigned research 
projects?
    Admiral Lautenbacher. Regarding the issue about the overall 
reduction, there was an overall reduction in OAR from the 
enacted. That's generally consistent with the pattern of 
adjusting, as we do year by year for one-time Congressional 
additions which have been--which are made to the budget. The 
good news is, that reduction is less than it was last year. I 
know that's not much, you know, solace, but it is--we are doing 
better, I think, in terms of bringing Congress and the 
Administration together on what that level is. So----
    Senator Klobuchar. But, what----
    Admiral Lautenbacher.--it's not----
    Senator Klobuchar.--impact do you think this budget level 
will have on the research projects that are going on?
    Admiral Lautenbacher. Let me talk about the Great Lakes. 
Our budget for the Great Lakes is roughly equal to what it was 
last year. Some of the money is in a few different places, but 
we believe that the Great Lakes Environmental Research 
Laboratory is funded at roughly the same levels as it was last 
year, so we were able--we will be able to continue with our 
projects on zebra mussels, our projects on building the Great 
Lakes Observing System, our work with USGS and EPA on the Great 
Lakes Task Force to ensure some progress is made in these 
areas.
    Senator Klobuchar. Could I just mention--thank you--and 
could I just mention a few things, important things----
    Admiral Lautenbacher. Yes.
    Senator Klobuchar.--that--some of the initiatives underway. 
I just want to make sure you don't foresee cuts to them. The 
efforts to explain and to predict changes in water resources, 
lake water levels, and ice cover, do you think there'll be 
changes to that because of the budget?
    Admiral Lautenbacher. No.
    Senator Klobuchar. OK. The measures to prevent the 
introduction of aquatic invasive species, that I talked about 
earlier?
    Admiral Lautenbacher. With the exception of any changes 
that were made--last-minute changes made--and I don't have that 
in front of me--first of all, there is a very small amount of 
money we devote to that.
    Senator Klobuchar. Yes.
    Admiral Lautenbacher. You know, I think we can probably all 
agree on that. It's roughly about the same as it was last year. 
I don't expect that there'll be much of a change----
    Senator Klobuchar. But, could we just----
    Admiral Lautenbacher.--in our level of support for----
    Senator Klobuchar.--focus on that a little bit? Is that----
    Admiral Lautenbacher. Yes.
    Senator Klobuchar.--you know, that these species oftentimes 
enter the lakes through the ballast water. Could you talk a 
little bit about what you see that--the effect--the impact 
these species have, or may have, in terms of plagues or what 
other things they could spread? And, obviously, we're trying to 
take some action, here in Congress, with ballast water. But, 
just you--what you see as the threat from the invasive species.
    Admiral Lautenbacher. The invasive species are an enormous 
threat to all of our coasts and the Great Lakes, as has been 
documented. In many places, once invasive species gain a hold, 
they're very difficult or impossible to remove. They require a 
great deal of effort and a lot of resources to contain them and 
to mitigate some of the effects. So, they're--it is something 
that we need to work on and to prevent.
    The best way is to prevent them from coming in, which is 
education and barriers and ways to deal with it preemptively, 
because once they get a foothold, then it's very difficult, as 
you know from the zebra mussel issue that we have----
    So, we support--we've worked on education programs, we've 
worked on research projects, we have supported the ballast 
water bill to improve the ``no ballast on board''--the ``BOB 
ships'' that come in--to improve our ability to reduce the 
levels of risk involved with having any kinds of invasive 
species in the Great Lakes and to strengthen the requirements 
for that--for the water coming into the Great Lakes--ballast 
water coming into the Great Lakes.
    Senator Klobuchar. And one last thing, I mentioned, in my 
opening, about how you converted the fleet of research vessels 
from petroleum-based to 100 percent bio-based fuel. Do you see 
this as a future model for NOAA, for other vessels, and for the 
government as a whole? And are there other similar green 
programs that NOAA is conducting elsewhere?
    Admiral Lautenbacher. I do. We have a staff that's very 
interested in green projects. The facilities that we've worked 
on are all green facilities, and we've won prizes for the 
buildings that we've put up. They're very energy efficient and 
in line with the latest technology. We are looking at the 
experimental or research conversions of the ships on the Great 
Lakes as a model for the rest of NOAA boats that will be, you 
know, compatible will that kind of conversion. It is--it's an 
important example, and we're very proud of the work we've done 
there, and we're going to advertise and try to expand it.
    Senator Klobuchar. Well, thank you very much. And if I have 
some follow up questions on the budget, we'll put them in 
writing. Appreciate it.
    Admiral Lautenbacher. I'd be happy to respond. Thank you.
    Senator Klobuchar. Thank you.
    Senator Cantwell. Senator Stevens?
    Senator Stevens. Thank you very much.
    Admiral I note that there is $1 million that's earmarked 
for fisheries enforcement, and I question whether this is 
enough to deal with the law enforcement in the fisheries area, 
particularly in view of this expanding threat from the IUU 
fisheries. Where are you going to get the money for law 
enforcement?
    Admiral Lautenbacher. We--the law enforcement's a--an issue 
that's handled both by our fisheries marshals, the Coast Guard, 
and the local port authorities for entry into the United 
States. Our increases for IUU--we've basically doubled the 
amount of money against it. Now, it's not a lot of money, I 
agree, but it--but it's put in very--some very critical areas.
    We have two major thrusts that we're trying to work on. 
First of all is to, as you've said, find out what's going on, 
on the high seas. We're working, you know, intently through the 
regional fisheries management organizations, the international 
organizations. In fact, there is even a new one in the Pacific 
that we're now supporting. So, those are organizations that 
have regulations and have visibility into what's going on in 
the various parts of our oceans. So, we are putting more effort 
into trying to ensure we understand what's coming out of those 
organizations and so that we can have the enforcement so that 
the products that are illegally taken are not--do not enter 
this country, and that we can stand up and make a case in the 
world court of opinion to ensure that they are not being 
marketed in other places, as well. So, the other half of the 
increase is designed to improve our ability to be able enforce 
those regulations at our ports of entry, that we will not 
tolerate that, and we will then, through the--as I said, 
through the international organizations, push them to accept 
the same kinds of limitations on buying illegally caught fish.
    Senator Stevens. Well, I've been in hopes that NOAA, 
working with the Coast Guard, would be able to give the State 
Department the information it needs to go to the U.N. to try 
and start an initiative to bring about U.N. recognition of the 
problem and action to deal with the IUU fisheries. It doesn't 
seem to me that this million dollars is going to go that far. I 
would hope, at the very least, that you would agree that you 
could start a task force with the Coast Guard, working with the 
State Department, to find money within the three agencies to 
deal with this.
    Now, in my opinion, the IUU fisheries are growing so large 
that they're going to monopolize the high seas, they're going 
to attack the species that go beyond the 200 mile limits, and 
they're going to destroy the reproductive capability, 
particularly of the North Pacific, if we don't get on them. 
Now, I don't see that, sense of emergency in this budget, and I 
certainly don't see it as far as the cooperation between your 
agency, the State Department, and the Coast Guard.
    Now, the Coast Guard, is more aware of the presence of the 
emergency. But if I'm informed correctly, this IUU fleet is 
expanding exponentially, it's almost doubling every 2 years. 
Now, we've just got to get a handle on that or there are not 
going to be fisheries of the world left. There is no 
regulation, no science, and no reporting at all.
    And, Admiral, with your background, I'm sure you could get 
the cooperation of the Coast Guard, but I would hope you'd 
commit yourself to really getting this initiated. There's going 
to be a change of Administration. God knows who's going to be 
in charge of the next Administration in your area. But, in any 
event, we've got to have something that's nonpartisan, that is 
directed toward ending IUU fisheries. And if we don't, the fish 
that we get and we harvest for our Nation off Alaska are going 
to be gone.
    Already, we're seeing runs completely disappear, as you 
know. We've had areas that have produced salmon for years and 
years and years, all of a sudden, bam, they're closed, there 
are no fish there at all. That's only coming about because of 
these IUU fisheries.
    Now, I don't see a sense of urgency coming out of this 
plan, and I would hope that you'd take that on. I really do. 
You've got the capability to do it, and I really think that 
somehow or other we have to find a way to take this to the U.N. 
before the meeting next year. And I've been talking to some 
people about that. They all say you have to have some facts and 
figures to deal with the U.N. We don't have them. But, it's 
your responsibility, Admiral, to get them for us. I hope you'll 
find some way to do that.
    And I'd like to have a meeting, a bipartisan meeting with 
members of this committee and with representatives of your 
agency, the Coast Guard, and the State Department to see what 
we're going to do about this. Because unless we wake up, there 
is not going to be a fishery in the North Pacific of any 
anadromous fish. It's very, very serious, in my opinion.
    And look what's happened to California. A lot of people 
have blamed the California orca. In Washington, the salmon have 
disappeared. They didn't disappear because of overfishing from 
the American side. There has been very little salmon fishing 
from vessels that are associated with the harbors along the 
West Coast. That is the result of IUU fisheries, in my opinion. 
And it's got to stop. Because if it hits our fish, the last 
remaining sound salmon fishing in the world, because it's 
scientifically managed and it's really increasing, still 
increasing every year, the returns in our state are, as you 
know. I hope, I just pray that you'll find some way to put this 
task force together and get active on it, because I don't see a 
sense of urgency in this budget.
    You have, in this budget, reduced the funds for fishery 
surveys to $15 million from $25 million. That's cancellation of 
many of the surveys, in my state, of the populations. How are 
we going to know when they hit--this reduction hits our state, 
unless you have those surveys?
    Admiral Lautenbacher. Yes, sir. There are two issues here. 
There's the 2008 budget, which Congress gave us with a 
reduction, and we are working through that. There will be 
impact, as you've suggested, to some surveys all around, 
including ones in Alaska.
    In 2009, we're asking for that money back. So, this--the 
new budget that we're asking for, if we can get those funds, 
we'll be able to do all the surveys that we have projected as 
being needed for Alaska and for the other regions.
    Senator Stevens. Well, that was going to be----
    Admiral Lautenbacher. So, I ask for your support----
    Senator Stevens.--my next question----
    Admiral Lautenbacher.--on that.
    Senator Stevens.--is whether or not the 2009 budget really 
restores that.
    Admiral Lautenbacher. Yes, sir.
    Senator Stevens. You're saying the cut that took place, of 
$10 million, is replaced in 2009?
    Admiral Lautenbacher. Yes, sir.
    Senator Stevens. When will you start those surveys, then?
    Admiral Lautenbacher. If we have approval from Congress for 
the money, we will begin them right away. And obviously we have 
a problem with the CR. If we end up with a CR that locks in 
some of last year's limits without some help, then we won't be 
able to do that.
    Senator Stevens. Well, have you had any meetings yet with 
the State Department and others on the IUU problem?
    Admiral Lautenbacher. I have talked to the Commandant of 
the Coast Guard. I've not talked to the State Department. I 
will get with the Commandant of the Coast Guard again. And 
remember that part of what we're using this money for is to try 
to get the facts and figures you're talking about. They're--
that's not an easy project, as you've suggested, but I will--I 
take this just as seriously as you do, Senator, and I will work 
with the State Department and the Coast Guard to see what more 
we can do, sir.
    Senator Stevens. Well, thank you. I'd like to visit with 
you later this year about that.
    Admiral Lautenbacher. Yes, sir.
    Senator Stevens. I am disturbed about the COBB. Now, this 
looks like provincial concepts, but I understand that you're 
going to retire the COBB, which has been the vessel that has 
been doing the surveys in southeastern Alaska, which is the 
most threatened area of our state. And it is not going to be 
replaced at all. How are you going to do the surveys if the 
COBB just disappears from our waters?
    Admiral Lautenbacher. We have a plan--or, we're working on 
a comprehensive plan, but we have--you know, we have an outline 
of how we would do this. Part of it would be done by the DYSON, 
and the other part will be done by shallow-draft vessels that 
we're going to charter.
    Senator Stevens. DYSON works north of Juneau, doesn't it? 
It's out of Kodiak. I'm talking about southeastern Alaska now.
    Admiral Lautenbacher. Yes, sir. We have a plan to fill in 
all--all of the surveys that the COBB does will be taken care 
of, either----
    Senator Stevens. By whom?
    Admiral Lautenbacher.--as I said, some of them can be 
handled--a few of them can be handled by the DYSON, and the 
rest will be handled by shallow-draft charter vessels or, 
potentially, other NOAA vessels. We're working on a full-course 
program. But, you remember, the COBB is 59 years old. It is--
it's a museum piece, at this point.
    Senator Stevens. Well, I'm almost 85, and I'm still going. 
That boat can keep up.
    [Laughter.]
    Admiral Lautenbacher. Yes, sir. You've been much better 
taken care of, though.
    Senator Cantwell. I might add, you're going very well this 
morning, as well.
    [Laughter.]
    Senator Stevens. Well, I've got to tell you that I 
understand what you're saying, but it does look to me like 
you're robbing Peter to pay Paul; you're taking it out of the 
largest area that we have to cover, which is the Kodiak area, 
that's an enormous area; the southeastern is the smallest area, 
but, I agree, it's most pressured. But, to have the DYSON come 
down from Kodiak to operate out of Juneau is wrong. You need 
more help up there, too. The species that are up north are even 
more threatened than those down south.
    I really think the threat is there now, and it's not from 
pollution, it's not from changes in any circumstances on land, 
it's at sea. And unless people get that message, I think we're 
going to be in real trouble. The chairperson right now, with 
the Seattle interests, has as much or greater interests in what 
goes on in southeastern Alaska than we do. That's most fished 
by boats from the Seattle region. But, the impact of these IUU 
fisheries are greater there, as they come out of the Gulf of 
Alaska, more than anywhere in our state. I'm worried about them 
getting into the area--but, they don't really get too far up 
there, where we have the closure and there is no open ocean 
between the Russian zone and ours. I'm not as worried about 
that as I am down south, where there is no active border 
patrol, ``maritime boundary patrol,'' I should say, rather than 
``border.''
    But, I hope we can find some replacement for COBB. And I am 
disturbed; before 9/11, we had double the amount of boats we've 
got there now in the Coast Guard and national marine fisheries. 
They've been cut in half. And that's what's happening to the 
protection of the fisheries. And the United States is going to 
wake up some day, half of the fish consumed by the United 
States comes from the waters I'm talking about. Half of it. And 
we're increasingly relying on fish products in our market, 
daily purchasing from markets. It's not going to be there, 
because the IUU fisheries are not dumping their stuff in the 
United States, we know that. I think we've really got to wake 
up.
    Last, we have some necessity to look at the concept of 
expanding some sanctuaries for fisheries off our shores. Are 
you looking at that?
    Admiral Lautenbacher. Yes, sir. I was asked to comment in 
my testimony, which I did earlier, to talk about boundary 
expansions for the Thunder Bay and the Gulf of Farallones and 
one other California----
    Senator Stevens. I didn't read that in connection with my 
state. Where are you talking about?
    Admiral Lautenbacher.--we were talking about one that's in 
the Great Lakes, and we're talking about two that are basically 
in the San Francisco area, off----
    Senator Stevens. You're not talking about looking at 
protecting the area of the Aleutian chain that goes out there 
2,000 miles.
    Admiral Lautenbacher.--no, sir, we're not talking--I'm not 
talking about any of that. This--the comments on this hearing 
have been directed toward expansion of the National Marine 
Sanctuaries, two of them off the coast of California, and one 
of them--I think it's in----
    Senator Stevens. Well, most people don't realize that it's 
2,000 miles. You go out that chain, all the way out, and south 
of that we have 200 miles, but that abuts the great Gulf of 
Alaska. And that's where they are now, that's where those 
vessels are coming now. I don't think we've apprehended but one 
in this whole period. Now, I do think that we have to find some 
way to form an alliance. I'm getting redundant. But IUU 
fisheries are the greatest threat to our fisheries in the North 
Pacific today.
    Admiral Lautenbacher.--yes, sir.
    Senator Stevens. And we can't manage them through our 
regional council. We can't even affect what they do outside 
that line. So, I hope you'll help us.
    Thank you very much.
    Senator Cantwell. Thank you, Senator Stevens. And thank you 
for your comments, both from the perspective of Alaska and 
certainly the Northwest overall. And we certainly agree that a 
lot more attention needs to be paid both on the analysis and on 
the planning side.
    And I don't know, Admiral Lautenbacher, if you wanted to 
comment right now on what you think NOAA science is telling us 
about this drastic situation in the West Coast.
    Admiral Lautenbacher. Well, there are a number of issues 
that go with this. First of all, we've talked about the water 
conditions, so the general--generally, anadromous fish depend 
on water conditions and upwelling of nutrients and, basically, 
the food chain that's out there. They also depend upon the 
Pacific Decadal Oscillation and the general--what I would call 
climate change variables that you look at. So, there are a lot 
of factors at play.
    But, from an international perspective, the best--we don't 
have enough--when I talk to the Coast Guard--we don't have 
enough resources to go out and surveil the whole ocean to find 
everyone that's doing something wrong. The best chance that we 
have is to ensure that there is no market for those products. 
So, if there is no market for them, we're--we shut them down, 
basically. We're trying to work on ways to get inventories of 
what's coming into the various ports around the Pacific--and 
the Atlantic, for that matter--with--through these regional 
fisheries management organizations that are multinational 
agreements under the FAO and part of international agreements 
to stop IUU. I mean, it's a--that's the principle of the 
organizations that work in these areas. So, if we can--we can 
get more information on what ships are doing this, where 
they're making the transfers, and what ports they're coming 
into, we can, you know, gradually, hopefully--more than 
gradually--eventually shut them down. But, that's the task that 
we're on now.
    But, as I said, I will talk to the Commandant of the Coast 
Guard and get his current wisdom on it at this point.
    Senator Cantwell. Well, I join Senator Stevens in saying 
that we have to be aggressive about the programs that you run, 
and have the resources to do so. So, we certainly will be 
looking at this budget perspective and making sure that we 
actually have the planning and dollars. No one expects you to 
map the entire ocean, but we do expect to have a rigorous 
program on this issue, and we certainly think that coming 
behind the problem after a disaster is declared, and having the 
Federal Government pay out resources, rightly so, is coming 
behind the problem, and so, we certainly will want to see that 
this budget reflects what we expect it will take to protect 
salmon on the West Coast.
    I'd like to turn to a couple of other issues, if I could, 
Admiral, particularly the NOAA satellite system. And obviously 
we have a lot of concern about schedule delays in that program. 
I think, last time the Commerce Committee had a hearing on 
this, in 2007, we were talking about various documents and 
reports that were part of where we were--the Acquisition 
Program Baseline, the Acquisition Strategy Report, the Award 
Fee Plan, all of this, because it obviously is a very 
complicated acquisition program, with problems in it, Tri-
Agency Memorandum of Agreement, Test Evaluation and Master 
Plan, all those were reports that were part of this process. 
And we asked then when we could see those documents and when 
they would be completed. And at the time, they weren't 
completed, and I don't know if they're completed yet. Can you 
give us an update on that?
    Admiral Lautenbacher. We have made great progress in 
completing the documents. I think we're down to five, at this 
point, which I expect to be done with in the next month. And I 
have brought it up----
    Senator Cantwell. Those five that I just mentioned?
    Admiral Lautenbacher.--they include the Acquisition Program 
Baseline, the Tri-Agency MOA, the Strategy Report, and the 
TEMP, which I think is signed, or close to it.
    But, there are more programs than the ones you mentioned 
that had not been signed, so they are--there progress has been 
made.
    First of all, those documents are all at a place where 
they're not interfering, or not detracting from our ability to 
manage the program, because they are completed to the point--
with the exception of final review by principals in the 
Department of Defense. And I'm optimistic that they'll all be 
signed within 4 or 5 weeks. But, they're not hindering progress 
on our ability to manage the program. They are essentially 
done, with the exception of----
    Senator Cantwell. Well, we've had--but, we have had cost 
overruns, we've had concerns--obviously, our--this is a multi-
agency--we've had a whole committee hearing on this, and 
obviously many of my colleagues showed up to express their 
concern and frustration about the multi-agency approach and the 
cost overruns and----
    Admiral Lautenbacher.--we have put in a completely 
different management system. This program is still a tri-agency 
program, because there is no real option to changing that at 
this point. We have put in the management--a new set of 
management controls. We have new people in this process. We 
are--we can measure every time a pin drops in this. We have 
provided briefings to the staff and any members who wish to 
have them. The government oversight of this program, starting 2 
years ago--two and a half years ago--has been improved well 
beyond what anybody ever expected when they created the 
program. It is on cost. It is on cost, and the schedule was 
created after that review, which showed that the initial 
estimates were well below anybody's likely--likely costs. The 
current schedule is being maintained, and the current costs are 
being maintained.
    Senator Cantwell.--we've seen the NPOESS satellites fire 
out of control, though, from $6.5 billion to $12.5 billion.
    Admiral Lautenbacher. Six point five billion dollars, that 
was a number that was created from a baseline in the late 
1990s. This is 10 years later. It was created before anybody 
had any experience in building the instruments or in the 
acquisition system that was installed at that point to manage 
it. It proved that that estimate was not correct, because they 
could not--the contractors could not build the instrument in 
accordance with the schedule and the contract that they signed. 
You go back to the contractor's making money. We have reduced 
the contractor's fees, and we have put the contractor under a 
much stronger leash than was in place at the time this program 
was started, in the middle nineties, basically. There's been 
significant change in the way it's being managed, and the 
price, we believe--this independent cost-reviewed, based on 
experience, is the right cost. We are maintaining that schedule 
and that cost at this point.
    Senator Cantwell. Am I not correct, Admiral, that, even 
with those problems, that the contractor, Northrop Grumman, 
received $123 million in award fees, even though they had cost 
overruns?
    Admiral Lautenbacher. The process that was built into the 
original contract was a process that allowed them to get 
profit. And it was--I can't verify that number, but they did 
receive profit. We have changed their structure----
    Senator Cantwell. We're not talking about profit, we're 
talking about award fees, which are usually associated with 
good performance.
    Admiral Lautenbacher.--the way that program was set up was, 
there was a series of milestones and achievements that they had 
to reach, which they did. So, those awards were legitimate 
under the contract. And remember, these--there is only, really, 
one thing wrong with this program; it's the VIIRS instruments. 
Everything else is working fine. So, it's one instrument that 
is the problem. But, other parts of that contract were being 
met on time and on schedule. The contract said they get an 
award for doing--for meeting those milestones on time. We have 
since changed that so it's a much stricter system and pays more 
attention to the areas where they're behind, which obviously 
are the ones that we should be more concerned about than where 
they're on schedule.
    Senator Cantwell. So, are you saying, Admiral, that there 
will be no cost overruns in the future?
    Admiral Lautenbacher. I wish I could sit here and guarantee 
there wouldn't be any cost overruns in the future. I believe 
we're as protected as we possibly can be. We have applied every 
convention that I know of in my 40 years, or that--the 
independent cost reviews and management experts that we've had 
look at the program; and, as of right now, we are within what--
the government estimates; we are still maintaining course and 
speed on this program.
    Senator Cantwell. So, you think the NPOESS number, that has 
moved from $6.5 to $12.5 billion--you think $12.5 billion is 
the right number.
    Admiral Lautenbacher. I think $12.5 billion is the right 
number.
    Senator Cantwell. And what happens if we're back here in 
another year and we find out that it's much greater than that? 
What will you say now--then about the process?
    Admiral Lautenbacher. Well, I will have to know what--I 
can't think of anything now that would change this. I mean, I--
there is--you know, there would have to be some kind of a 
catastrophe or something that was not--I don't know. I was 
going to say, I can't guarantee the future. I can tell you what 
happened in the past, and I can tell you what we've done to 
improve it. And I've watched these acquisition programs for 
years and years, I've been an independent cost analyst in the 
Department of Defense, I've managed programs, I've been a 
budget analyst--I'm not going to sit here and tell you that 
this is the end of the cost.
    Generally speaking, our satellite programs have cost at 
least twice as much as the original estimate. That's been the 
track record since the beginning of the satellite programs in 
1970. So, the initial estimates are always optimistic, if you 
want to put it that way. We were always betting that we can 
deliver something with a minimum amount of fuss in the shortest 
period of time, we're going to have technology that shows up at 
the right point. And they are so complicated that that has 
rarely proven to be the case. And I don't see any--I see that 
we're in the same situation right now.
    What I'm trying to do is make sure we have the right costs 
in place. I believe, based on everything we know today, that 
that's the right number and we can deliver it for that cost. 
And I also am trying to do that on the GOES-R program, so there 
is a cost in the GOES-R program which I believe we're ahead of 
the problem, we're putting the right cost in, at this point, so 
there won't be this tendency for year-by-year cost overruns to 
occur in the GOES-R program. And we've taken every possible 
lesson learned from GOES-R--or from NPOESS, and put it into 
GOES-R in the way the management structure is set up. And, 
again, it's transparent--we're making it transparent to the 
oversight committees, to ensure that everyone has the 
information they need as we move along.
    Senator Cantwell. Well, I would certainly say that having a 
track record of having an original estimate, and then having 
the cost to the taxpayer be twice that amount, is not a good 
example to continue to follow. I think it points to problems 
with the acquisition process for these resources, and I 
certainly plan to look into making changes in that process.
    But, since you mentioned the geostationary satellites, 
what's going to happen if Congress pursues a continuing 
resolution and we don't carve out something? What's--what could 
be the delay in the program? What actually would be the impact?
    Admiral Lautenbacher. We believe that, at this point, it 
would be at least a year delay, because this is the time when 
we need to sign the contracts and start work on the--from the 
prime contractor for both the space segment and the ground 
segment. The contracts have already been let for the 
instruments. This is a lesson we learned from NPOESS. So, the 
contract for the instruments have been working--been working on 
them to make sure that they're ready for the satellite. So, if 
we--if we have to stay at the same levels, we will have to slow 
down, substantially, either the instruments or the space 
segment. And we believe that would delay, probably, a year--
more than a year in the--being able to launch the satellite. 
And then, that would be a risk that we'd go below--we like to 
have a risk of no greater than--or, no less than 80 percent, 
that we're--we'll--that we'll have our two satellites in orbit 
to--as warning sentinels against severe weather and other 
disasters. We do not like to drop below 80 percent. If we have 
this delay, caused by not being able to increase the funding, 
as we've proposed, that is a strong possibility.
    Senator Cantwell. Well, I'm sure my colleagues, from other 
parts of the country who have that kind of weather conditions 
much more frequently than we do in the Northwest, would be very 
concerned about that. So, we certainly want to make sure that 
we're doing all that we can to improve the delivery on this 
program.
    Let me turn to another technology question, as it relates 
to a specific issue that you and I have discussed as--it's 
particular to Washington State--I brought it up in my opening 
statement--about the extreme damage done to the State of 
Washington from hurricane-force winds that we definitely 
weren't anticipating or expected. We certainly get 100-mile-
and-hour winds from time to time--or quite frequently, in the 
fall and winter of the year, 70- to 80-mile-an-hour winds, but 
this was something even above what has been our historical 
trends. And we have discussed the fact that the West Coast, in 
this particular area of Washington State, probably has some of 
the worst radar coverage in the U.S. Would you agree with that, 
Admiral, that we are less resourced there than probably anybody 
else?
    Admiral Lautenbacher. I would agree that the radar coverage 
is blocked in certain areas. We put resources into Northwest 
Washington as well as we do around the country. We try to 
spread our resources where it makes sense and to provide 
uniform kinds of coverage. So, I don't--I--we are not shorting, 
basically, resources for the Northwest. I want to make that 
clear.
    Now, I agree that we have some issues there. We've worked 
on it. We appreciate your help in supporting the meeting that 
we had, on March 6th, where we got together with all of the 
constituents, emergency managers, everyone who was involved in, 
basically, dealing with this very severe winter storm, and I 
think we have a much better understanding of what the 
constituents need and what we need. So, we're working on 
improving the observations. We're improving forecasts. And 
better communication and dissemination came out as an issue. 
So, we're working across the entire Weather Service to deal 
with that. The warning--our forecast office out there is 
working to make sure that they have the right kinds of 
connections with the emergency managers, radio stations, people 
who can effect an understanding for the public as to what's 
happening, and provide direct support.
    We are doing a full assessment of all of the services out 
there, from the headquarters perspective, as to what we 
delivered and can we improve on it. We expect that to be done 
by end of the month.
    We are working with the FAA to incorporate the--as I 
mentioned to you earlier--the data from its air route 
surveillance radar at McChord Field, Washington, because that's 
a place where you can see down the coast with some information. 
So, we believe that can be finished--we can do that by the end 
of 2008, and have that in place, have that connection made and 
have that data input into the weather systems. So, that will 
make a--that will make a significant difference in radar 
coverage.
    Senator Cantwell. But, Admiral, could you--beyond that, do 
you support improved technology solutions for that area?
    Admiral Lautenbacher. Oh, yes. Yes. And we are working with 
the University of Massachusetts and the Collaborative Adaptive 
Sensing--CASA program--to determine the feasibility of the 
smaller radars to see what makes sense. And, in the end, we are 
looking at a--I would say, a full-court press, as I mentioned, 
a mixed--I've asked--directed the head of the Weather Service 
to look at the full array of sensors so we can provide the 
right information--buoys that are far enough off the coast, 
increasing radar coverage, that we've talked about, other types 
of ground sensors.
    And another issue that doesn't come up real often in most 
other parts of the country is the need for localized models. 
That's a very specialized terrain area. And so, when you look 
at the large-scale generalized models, where you have a grid 
size that's 10 kilometers, that doesn't detail what happens in 
that specialized area, with this rugged geometric. So, those 
are--those are--we are looking at a full-court press on trying 
to deal with the issues that resulted from that storm.
    Senator Cantwell. Well, certainly this storm hit in a most 
vulnerable spot, from a technology perspective. I mean, the 
least amount of information ended up being the eye of the 
storm. What funds are included in the FY09 budget to address 
this gap?
    Admiral Lautenbacher. We have the money in there for the 
studies, for the radars, and we will have to use Fiscal Year 
2009 funds to look at modernizing if we have the results from 
the studies that tell us what to do. We could provide buoys, 
and we can provide modeling, and we'll have to look at the cost 
of the small radars, which--we haven't completed the study yet, 
so I can't tell you what that is.
    Senator Cantwell. And you think that can be done within the 
FY09 budget, those kinds of----
    Admiral Lautenbacher. I think that some of it can be done. 
I don't think that all of it can be done. I think that this 
will take time. This is not--this is not an instantaneous fix. 
There's--it's not--there is nothing on the shelf, other than 
the things I've mentioned. We have a National Data Buoy Center, 
and we can--and we can schedule installations of buoys and hook 
them up to the Net. We can schedule some sensors. We can look 
at changes to models. In terms of building radars and putting 
in modernized radars, that takes, normally, several years to do 
that and complete it. It's not something that can be done very 
quickly. But, we will start on it. We are committed to start on 
it and provide the funding when it's--when we have a program 
that meets a sensible cost-benefit analysis that you would 
agree to.
    Senator Cantwell.--well, we appreciate you continuing to 
work on this very important issue. And I can't explain to those 
who are in attendance today how devastating that was to a 
particular area of our state, the flooding. The Coast Guard 
rescued hundreds of people off of rooftops and everything else. 
But, no one expected 150-mile-an-hour winds. And with the 
shadow of the Olympic Mountain Range, it does cause quite a bit 
of problem in getting good weather and forecast data into that 
region.
    A related issue--I'm sticking on a technology trend here 
for a second--on the Unmanned Aerial Vehicles, I know that your 
2009 request includes $6.3 million to conduct UAV tests in four 
different regions: the Pacific, the Arctic, West Coast, East 
Coast. So, what type of--will those be ready for the 2008 
hurricane season? What is your anticipation?
    Admiral Lautenbacher. We plan to--if the tracks are such 
that are amenable to where we have asset stationed, we plan to 
test it again in the 2008 hurricane season, yes. So, one of the 
tests will be for hurricanes and the others we plan for the 
Pacific and for the Arctic area, both West Coast and Hawaii or 
the Central Pacific. Those tests are more amenable to 
scheduling. And that's part of the budget, and we will--you 
know, we will conduct them for 2009, and we have some money in 
2008 that we'll continue to expand on our ability to use 
unmanned aerial systems.
    I think they're essential for the future. They allow us to 
see in places that are remote. Satellites can't see the detail; 
they're not low enough or have enough fidelity. Manned aircraft 
are dangerous; you can't maintain the mission profiles for very 
long without incurring a huge expense because of the cost of 
manned aircraft. And particularly for looking at weather 
systems that come into the western part of the United States, I 
think that UAVs offer a great benefit, and, potentially, leap 
forward for us to be able to provide better weather forecasting 
along the West Coast. So, we are very interested in making 
these tests.
    Senator Cantwell. Has the FAA given you approval to do so, 
particularly as it relates to, you know, mainland or adjacency 
to international waters?
    Admiral Lautenbacher. This is--if--the technology is fairly 
proven, it's--it really is the operational issues that we have 
with using manned airspace and unmanned air vehicles in that 
airspace. We are working with the FAA. We've been able to get 
approval to do the tests, so far. We would like to be able to 
get more--I don't want to say ``blanket authority,'' but more 
rapid response for areas that are not conflicting with manned 
aircraft. We think that's possible off the coasts, in areas 
away from, obviously, airports and----
    Senator Cantwell. So, you have got--you have gotten 
authority for----
    Admiral Lautenbacher.--I don't have ``blanket authority,'' 
but we have----
    Senator Cantwell.--no, but----
    Admiral Lautenbacher.--been able to do it for tests, yes. 
We have been able--but, it requires you to work closely with--
well, NASA helps us with the FAA, to get permission to fly 
these routes.
    Senator Cantwell.--and so, have they given you specific 
restrictions? Is that what happens----
    Admiral Lautenbacher. They give you restrictions, and it 
has to fit in with the--with their operations. So, there are 
restrictions. There are time and airspace restrictions that are 
placed on us.
    Senator Cantwell.--well, this is an issue for the larger 
committee as a whole, but we certainly--we'd like to see those 
restrictions, and we'd like to see NOAA continue to push 
forward on getting a broader authority. We think it is 
critical, both for weather and information, that the unmanned 
vehicle technology be used in helping gather and getting us 
more consistent and timely information.
    Admiral Lautenbacher. I agree, and I will keep pressing on 
it.
    Senator Cantwell. I'd like to turn to a couple of other 
issues, if I could. I want to make sure this--in your proposed 
budget, the educational--NOAA education has been cut $34 
million, and many of the programs are directed at scholarships 
and education and--how does cutting that budget sync up with 
Congress's focus on science and education and the COMPETES Act 
and everything that we're trying to do, and yet we're cutting 
this vital element? And, as you were saying in answer to 
Senator Stevens' question, getting to the bottom of mapping and 
science and--we need these individuals, as it relates to better 
science, to guide our decisions in management of fisheries. So, 
how is--cutting that program help us attain those goals?
    Admiral Lautenbacher. Obviously it doesn't. I'm a big 
supporter of education programs, and I have spent a lot of time 
trying to reinstall them in the NOAA budget and in our 
planning.
    What happens if the education budget--first of all, it has 
grown over the years, both in terms of what NOAA has been able 
to provide in its initial submission to Congress and in what 
Congress has eventually appropriated for us and that the 
President has agreed. What we have each year is a series of 
educational programs which are, from the viewpoint of our 
leadership, one-time programs that are directed toward very 
specific items. The general intent--directions that I'm given 
when--to build a budget, is to ensure that we have competitive 
processes and that we have national programs, and so that there 
is a broader coverage applied to it.
    To the extent that I've been able to get those programs 
through, that's where we are today. And those include the 
scholarship programs that we have, which I think are very, very 
vital, and several other open grant programs that are there. 
I'm looking for a way to try to convert most of what happens 
into those kinds of systems.
    Now, to help support building better agreement on it, I 
would say, between the Administration and Congress, we have 
asked the National Academies to help us with a plan, and give 
us priority, so that we can have some--what I would say, 
outside legitimate assurance that what we're doing makes sense, 
and that it's cost-effective, and that this is a--the right 
place to spend resources for education. When that--hopefully, 
that'll be done this year--we'll be able to have--I would like 
to have a better agreement on the amount of resources that we 
provide for education, between Congress and the Administration. 
I believe this foundation will help us with that discussion.
    Senator Cantwell. Could you talk a little bit about the 
Office of Response and Restoration, as it relates to oil spill 
capacities and the budget?
    Admiral Lautenbacher. Yes. OR&R, as we call it, is an 
important responsibility of NOAA. We are the trustee for 
Federal resources in the marine environment. This is a group of 
experts that helps with major disasters, such as oil spills, 
chemical spills, and other types of environmental issues that 
come up. They have experts that help determine the spread of 
oil or the currents, the waves; they work hand-in-hand with the 
Coast Guard and the State cleanup responding parties to ensure 
that it's done correctly, that it's done efficiently, and it's 
an important service that's been termed very valuable by 
everyone who uses it.
    We had, last year, a reduction in the--what we call the 
base funding for that program, and so, we have asked to restore 
that that this year in our program. We're--we had about $11 
million last year, and we're asking for $17 million this year. 
This will allow us to be responsive to more than one event at a 
time, basically. Obviously, the oil spill in the San Francisco 
Bay that happened this year is an example of why we need this 
kind of capability, and I think it's very important for the 
country. And I ask for support for the full amount for OR&R.
    Senator Cantwell. Thank you. Thank you. And one last 
question. Believe it or not, I have several others, but I want 
to get on to our second panel, and I'll submit those----
    Admiral Lautenbacher. Yes, ma'am.
    Senator Cantwell.--in writing. And if you could be as--help 
from your staff to answer those and get back to the Committee, 
that would be very helpful to members.
    But, the orca recovery funding is of--something that--
unique concern to us. The recovery plan released by NOAA this 
year says that the cost to actually delist them from a recovery 
plan would be somewhere in the $50 million range over 28 years. 
And so, right now the budget includes, I think, a million 
dollars for these--so, if you're talking that size and scale, 
you know, over a 20-plus-year period of time, how are we going 
to--how are we going to make progress?
    Admiral Lautenbacher. Well, this is a--an initial 
downpayment, obviously. When you look at those plans, they 
are--we generally work with partnerships. So, in the areas 
where we need to look at recovering habitat and that sort of 
things, it becomes State, local, NGO. There are other ways and 
other parts of our general system to help support that. 
Obviously, we don't have in our budget anywhere near the number 
that's talked about there, but we do have enough to get 
started. I believe, with the million dollars that we have in 
here, as we move ahead we'll be able to have a better handle on 
this rough estimate of $50 million and what it would take to do 
it. And our plan is to continue to work on this program and 
ensure that we put absolutely as much as we can against the 
recovery plan.
    Senator Cantwell. And so, you would think--I mean, 
certainly--I don't think the orca population can tolerate a 50-
year recovery plan. I'm not even sure it can sustain the 28 
years that we're looking at. So, you're saying that this 
initial $1 million is more a reflection of the need to get your 
arms around the various aspects of the program, and that next 
year we might see a more robust number.
    Admiral Lautenbacher. I'm--that is our plan. Our plan is to 
try to learn more about what we can do with a million, what it 
takes, and see if there are other options, other ways to get 
the resources, and more definitive--more definition of what 
those resources are and who might provide them, or when they 
need to be, you know, enacted or in----
    Senator Cantwell. But, given----
    Admiral Lautenbacher.--in play.
    Senator Cantwell.--I don't know who came up with the 
initial $50 million in costs, but you would agree that having 
$50 million over 28 years, and starting with $1 million this 
year, might not get us to----
    Admiral Lautenbacher. It--you have to have a pretty steep 
profile to take care of that; I do agree with that.
    Senator Cantwell. Thank you.
    Thank you, Admiral Lautenbacher, for being here this 
morning and for answering all of these questions. We appreciate 
you answering additional ones that might be submitted, not only 
by the Chair, but by other members of the Committee.
    But, we, as you can see from my colleagues who did attend, 
have great concern about the budget impacts, from a fisheries 
management perspective, as well as some of the other resources 
that we count on from NOAA to maintain a pristine maritime 
environment in the various regions of our country, and to 
continue to manage the resources of the habitats that are 
there. So, we'll look forward to continuing to work with you on 
those particular problems, and to try to drive these numbers to 
actually meet the goals that NOAA has set.
    So, we thank you, again, for being here today.
    Admiral Lautenbacher. And thank you, Madam Chair. I 
appreciate your support. Thank you.
    Senator Cantwell. So, we'll turn now to the second panel 
that we have this morning, which is--if they could make their 
way to the front table--we have with us Mr. Jefferson Gray, who 
is the Superintendent of the Thunder Bay National Marine 
Sanctuary; Dr. Susan Williams, who is the Director of the 
Bodega Bay Marine Laboratory, University of California; and Ms. 
Kathy Fosmark, who is Co-Chair of the Alliance of Communities 
for Sustainable Fisheries.
    So, welcome, to all. Thank you for being here today to talk 
about marine sanctuary expansion issues, these specific 
proposals.
    So, Mr. Gray, I think I'm going to start with you. And if 
you can--turn on your microphones, pull them up close, and we 
would appreciate it if you could keep your comments to 5 
minutes, and we'll go down the line. And then, after the end of 
each--after the end of all presentations, then we'll have some 
questions.
    But, again, thank you for being here, and welcome.

          STATEMENT OF JEFFERSON GRAY, SUPERINTENDENT,

             THUNDER BAY NATIONAL MARINE SANCTUARY

                    AND UNDERWATER PRESERVE

    Mr. Gray. Good morning. And, Madam Chairman, thank you for 
having us here--and the distinguished members of the 
Subcommittee staff.
    My name is Jefferson Gray. I am the Superintendent of the 
Thunder Bay National Marine Sanctuary and Underwater Preserve 
located in Alpena, Michigan. Thank you for the opportunity to 
testify on Senate bill 2281, the Thunder Bay National Marine 
Sanctuary and Underwater Preserve Boundary Modification Act.
    Designated in 2000, the sanctuary provides long-term 
protection and management to a nationally significant 
collection of shipwrecks and other maritime heritage resources. 
NOAA agrees with the underlying purpose of the bill, which is 
to provide Federal protection to the maritime heritage 
resources located off of Michigan's Presque Isle and Alcona 
Counties by incorporating them into the existing sanctuary.
    The proposal has widespread support in the local 
communities. In May of 2000, the Thunder Bay Sanctuary Advisory 
Council recommended expending the sanctuary 3,662 square miles 
to an area extending between those two counties and all the way 
to the international border with Canada.
    Formal support for sanctuary expansion has been received 
from seven local units of government. This is not surprising, 
given the success we'd had matching the sanctuary, building 
strong partnerships in Michigan, and the sanctuary's positive 
influence on local communities. One example of that positive 
influence is the opening of the Great Lakes Maritime Heritage 
Center, which is our visitor center and research center, by 
converting a brownfield site into a green building, which was 
recently certified gold by the LEED certification, as well as 
the biodiesel vessels, that we mentioned earlier, operate out 
of Alpena.
    The bill would expand the sanctuary approximately eight 
times from its current size, of 448 square miles. The sanctuary 
shoreline would increase from 95 to 225 miles, and would 
include the cities of Alpena, Harrisville, and Rogers City.
    Under this proposal, five State parks, seven lighthouses, 
and a lifesaving station would be adjacent to the expanded 
sanctuary. More than 200 shipwrecks rest within this proposed 
area. Magnificently preserved by Lake Huron's cold freshwater, 
these archaeological sites are one of the Nation's best-
preserved and historically significant collection of 
shipwrecks. From pioneer steamers to majestic schooners to 
modern freighters, these sites represent a microcosm of 
maritime heritage on the Great Lakes. Memorials to the men and 
women that worked and died on the inland seas, these unique 
sites have a tremendous historical, archaeological, and 
recreational value. They not only connect us with the past, but 
they connect us to the Great Lakes, one of the Nation's most 
precious natural resources.
    The bill would add important protection to a nationally 
significant collection of maritime heritage resources that are 
vulnerable to human and natural impacts. This proposal has 
received widespread support in the communities, as it would 
highlight these resources and provide additional opportunities 
for tourism and economic growth.
    It's important to note that NOAA's currently undergoing 
management plan review for the existing sanctuary. During the 
initial scoping conducted as part of this process, significant 
public comment was received in support of expansion. As noted 
earlier, the Advisory Council, which advises the sanctuary 
superintendent during management plan, passed a resolution 
recommending that the sanctuary be expanded as soon as 
feasible. While there is public support for expansion, as a 
general matter, NOAA prefers to see significant actions such as 
these vetted through public management and regulatory processes 
rather than legislatively. Again, NOAA supports the intent of 
the bill and looks forward to working with the Committee as the 
bill moves forward.
    Thank you, again, for this opportunity.
    [The prepared statement of Mr. Gray follows:]

   Prepared Statement of Jefferson Gray, Superintendent, Thunder Bay 
           National Marine Sanctuary and Underwater Preserve
    Good morning, Mr. Chairman and members of the Committee. I am 
Jefferson Gray, the Superintendent of the National Oceanic and 
Atmospheric Administration's (NOAA) Thunder Bay National Marine 
Sanctuary and Underwater Preserve (Sanctuary). Thank you for the 
opportunity to testify on S. 2281, the Thunder Bay National Marine 
Sanctuary and Underwater Preserve Boundary Modification Act.
    The Sanctuary was designated in October 2000 for the purposes of 
providing long-term protection and management to the conservation, 
recreational, research, educational, and historical resources and 
qualities of a nationally significant collection of shipwrecks and 
other maritime heritage resources in the area. Along the lines of the 
maritime heritage resource protection goals of the Sanctuary, NOAA 
agrees with the underlying purpose of S. 2281, which is to provide 
Federal protection to the shipwrecks, and other maritime heritage 
resources, located off Michigan's Presque Isle and Alcona Counties by 
incorporating them into the Sanctuary.
    This proposal has widespread support in the local communities. On 
May 22, 2007, the Thunder Bay Sanctuary Advisory Council (SAC) 
recommended expanding the Sanctuary to a 3,662-square-mile area 
extending from Alcona County to Presque Isle County, east to the 
international border with Canada. Formal support for sanctuary 
expansion has been received from the City of Alpena, Alpena County, 
Alpena Township, Sanborn Township, Presque Isle Township, the City of 
Rogers City, Alcona County, Michigan Sunrise Side Travel Association, 
and the Sunrise Side Coastal Highway Management Council.
    Support for Sanctuary expansion should not be surprising given the 
success we have had in managing the Sanctuary, building a strong 
partnership with the State of Michigan, and having a positive influence 
on the local community. Here are just a few of NOAA's recent 
accomplishments:
    The ribbon cutting for the Great Lakes Maritime Heritage Trail took 
place at the seventh annual Thunder Bay Maritime Festival in July 2007. 
The trail offered dockage for visiting tall ships and allowed visitors 
to the festival to tour the tall ship HIGHLANDER SEA. As part of the 
Sanctuary's education mission, twenty full-color historic markers are 
being developed to interpret shipwrecks, lumber mills, dock remnants, 
historic waterfront buildings and Great Lakes shipping to create a 
broader maritime heritage context for the sanctuary's shipwrecks.
    NOAA sponsored the Great Lakes Regional Remotely Operated Vehicle 
(ROV) building competition in April 2007. The contest featured 12 teams 
of high school students vying for a spot at the Marine Advanced 
Technology Education Center's international ROV competition in St. 
John, Newfoundland. The Great Lakes Home School--first time competitors 
from Wolverine, Michigan--took first place at the regional event, and 
finished sixth overall. The competition is designed to inspire the next 
generation of underwater scientists and explorers to pursue careers in 
marine fields.
    Sanctuary staff recently finished digitizing one of the Nation's 
largest archives of 19th-century Great Lakes vessel data and maritime 
history documents. Volunteers contributed 3,500 hours to digitizing 
15,000 Great Lakes vessel files. Digitization is the first step toward 
making the information searchable and useful for research and 
conservation purposes. The files are housed in Alpena County's George 
N. Fletcher Public Library, where staff are developing a searchable 
interface for the collection that will allow users to retrieve 
information using the Michigan Electronic Library or Internet search 
engines.
    In 2007, the Sanctuary's Great Lakes Maritime Heritage Center in 
Alpena, Michigan, was presented with the Department of Energy's Federal 
Energy Saver Award. The purpose of the award is to promote wise energy 
and water use throughout the Federal Government by recognizing agencies 
that showcase cost-effective, energy-efficient, water-conserving and 
renewable energy technologies in their facilities. The center is on 
track to becoming a Gold Certified Leadership in Energy and 
Environmental Design building. This is only the fifth time NOAA has 
received the award since 1995. The Center not only serves to educate 
the public about the significance of shipwrecks and maritime heritage 
though exhibits, but it is also the headquarters for NOAA's Thunder Bay 
National Marine Sanctuary. The Center also won a Department of Energy 
``You Have the Power'' award for energy conservation in 2006.
    Senate bill S. 2281 would expand the sanctuary's boundaries to 
approximately eight times its current size of 448 square miles. The 
sanctuary's shoreline would also increase from 95 to 225 miles and 
subsequently include the cities of Alpena, Harrisville and Rogers City. 
Under this proposal an additional five state park properties, seven 
historic lighthouses and one lifesaving station would also be adjacent 
to the expanded boundaries.
    More than 200 shipwrecks rest within the proposed expansion area. 
Magnificently preserved by the cold freshwater of Lake Huron, these 
archeological sites are one of the Nation's best-preserved and 
historically-significant collections of shipwrecks. From pioneer 
steamers to majestic schooners to modern freighters, these sites 
represent a microcosm of maritime commerce on the Great Lakes. 
Memorials to the men and women that worked the inland seas, these 
unique sites have tremendous historical, archaeological, and 
recreational value. They not only connect us to the past, but they also 
connect us to the Great Lakes--one of our most precious natural 
resources.
    NOAA agrees that S. 2281 would add important protection to 
nationally and internationally significant maritime heritage resources 
that are vulnerable to human impacts and invasive species. This 
proposal has also received widespread support in local communities, as 
it would highlight these resources and provide additional opportunities 
for tourism and economic growth in Northeastern Michigan.
    It is also important to note that NOAA is currently undergoing a 
management plan review for the existing Sanctuary. During the initial 
public scoping that was conducted as part of this process, significant 
public comment was received in favor of sanctuary boundary expansion. 
As noted above, the Thunder Bay SAC, which advises the Sanctuary 
Superintendent during management plan review, passed a resolution that 
recommended the sanctuary be expanded as soon as feasible. While there 
is public support for such an expansion, as a general matter NOAA 
prefers to see that significant actions such as these be vetted through 
public management plan and regulatory development processes rather than 
legislatively, as S. 2281 would do.
    Again, NOAA supports the intent of S. 2281 and looks forward to 
working with the Committee as the bill moves forward.
    Thank you for this opportunity to testify before the Subcommittee.

    Senator Cantwell. Thank you, Mr. Gray.
    Dr. Williams, welcome to the Committee. Thank you for being 
here.

         STATEMENT DR. SUSAN L. WILLIAMS, PROFESSOR OF

         EVOLUTION AND ECOLOGY; DIRECTOR, BODEGA MARINE

          LABORATORY, UNIVERSITY OF CALIFORNIA, DAVIS

    Dr. Williams. Thank you, Madam Chair. I am Professor at the 
University of California at Davis, and I am the Director of the 
Bodega Marine Laboratory. I appear before you as an independent 
marine scientist with over 30 years of experience.
    Senator Cantwell. You might pull that just a little bit 
closer.
    Dr. Williams. It should----
    Senator Cantwell. There you go. There you go. Now you're--
--
    Dr. Williams.--hello?
    Senator Cantwell.--perfect.
    Dr. Williams. OK, thank you.
    I have been involved in the review--public review process 
for the proposed sanctuary expansion since 2002.
    I wish to emphasize three points in my remarks. First, the 
Gulf of the Farallones and the Cordell Bank National Marine 
Sanctuaries lie within one of the most productive and unique 
marine ecosystems on Earth, the California Current Upwelling 
Ecosystem. It's one of only four coastal upwelling ecosystems 
on Earth, and the only one of its kind in the United States. 
These upwelling ecosystems cover only 1 percent of the ocean's 
surface, but are responsible for 20 percent of the world's fish 
catch.
    Second, an integral piece of this unique ecosystem lies 
unprotected outside the existing boundaries, and this area 
includes the wellspring for life in the downstream sanctuaries. 
And without protecting this expansion area, the marine life in 
the existing sanctuaries is put at risk. The rich food produced 
in this upwelling ecosystem supports a diverse assemblage of 
local and migratory life in the sanctuaries and in the 
expansion area. For example, one-third of the world's whale and 
dolphin species, including the highest concentration of 
endangered blue whales on Earth; the largest concentration of 
breeding seabirds in the continental U.S.; over 200 species of 
fishes, including threatened rockfish and salmon; commercial 
seafood species such as Dungeness crab and abalone; bamboo 
corals, which provide invaluable record of climate change. 
Scientific research has demonstrated that the expansion area 
from Point Arena to Bodega Bay is consistently the most 
productive region in the entire ecosystem, and thus, is vital 
to protect.
    New research has demonstrated that the expansion area is 
the wellspring for the sanctuaries. It generates their source 
waters, nutrients, and food. And this computer simulation 
demonstrates that the area in Point Arena provides the source 
water nutrients and food for the areas downstream, which 
include the sanctuaries. These data come from the Bodega Marine 
Lab's Coastal Ocean Observing System.
    So, this expansion area is also a documented hotspot of 
fish and bird diversity and abundance, and a critical habitat 
for endangered whales, threatened sea lions, vulnerable fur 
seals, and fishery species such as the Dungeness crab, 
rockfish, and sole. In fact, biological resources in certain 
areas in the expansion area are richer than in the sanctuaries 
themselves. H.R. 1187 will protect the source waters for this 
phenomenal marine life downstream in the sanctuaries. The 
public review process has been exceptionally thorough, starting 
in 2001 and before, and the Act has broad support.
    The threats are real. Oil spills have occurred; most 
notably, the COSCO BUSAN spill in November 2007. Importantly, 
this bill protects fishes and does not change existing fishery 
regulations, so it has received the support of the Pacific 
Coast Federation of Fishermen's Associations and the Local 
Bodega Bay Fishermen's Marketing Association.
    In conclusion, the whole is only as good as the sum of the 
parts. H.R. 1187 will protect the breadbasket, the food 
pipeline, which I attempted to show in the computer simulation, 
and the biological hotspots in the expansion area, as well as 
the downstream sanctuaries. Without this protection, the life 
in the sanctuaries is at risk.
    I thank the Committee, and I would be happy to provide any 
further assistance in your deliberations.
    [The prepared statement of Dr. Williams follows:]

Prepared Statement of Dr. Susan L. Williams, Professor of Evolution and 
   Ecology, Director of the Bodega Marine Laboratory, University of 
                           California, Davis
    As a marine scientist with over 30 years of experience, I have a 
special interest in preserving the cleanest, most pristine and 
bountiful waters of our planet. It is important for researchers like me 
to be able to observe marine life in healthy and intact ecosystems. As 
a scientist, I know that the healthiest ecosystems need to be protected 
to ensure the survival of threatened and endangered marine species and 
commercially valuable species. As a Professor who teaches Marine 
Biology to non-science majors, it is equally important to be able to 
show students living examples of magnificent species such as blue 
whales. The Sanctuary expansion areas in H.R. 1187 serve these 
purposes, and in my testimony I wish to mainly address the science 
behind the need to include these areas in the Marine Sanctuary system.
    I wish to emphasize three points in my remarks:

        1. The existing Gulf of the Farallones and the Cordell Bank 
        National Marine Sanctuaries lie within one of only four coastal 
        upwelling ecosystems on Earth, and the only one in the United 
        States (the California Current Upwelling Ecosystem); upwelling 
        ecosystems are the most productive ocean ecosystems.

        2. H.R. 1187 will protect the source of the water, nutrients, 
        and food and critical habitats for the exceptionally diverse 
        marine life that resides in or utilizes the Sanctuaries, 
        including fisheries species, endangered or threatened species, 
        species important to understanding global climate change, and 
        the oceanographic processes that influence the weather. Without 
        protection for the northern half of the California Current 
        Upwelling Ecosystem, marine life within the existing 
        Sanctuaries is placed at risk.

        3. Public support for the Sanctuaries boundary modification has 
        been exceptional over the lengthy review process.

    Below, I will address each point in detail.

    1. The Gulf of the Farallones and Cordell Bank National Marine 
Sanctuaries lie within one of the most productive ocean ecosystems on 
Earth: the California Current Upwelling Ecosystem. The California 
Current Upwelling System is one of only four coastal upwelling 
ecosystems on Earth and it is the only coastal upwelling ecosystem in 
the United States. Upwelling systems are collectively responsible for 
20 percent of the total world fish catch, even though they occupy less 
than 1 percent of the total area of the world's oceans (Cushing 1969, 
Bakun and Parrish 1982, Botsford et al., 2003).
    Upwelling ecosystems worldwide are defined by special oceanographic 
processes that lead to exceptional biological productivity. In response 
to winds blowing over the ocean, shallow sunlit waters are fertilized 
with nutrients welled up from deeper colder waters. The nutrients 
stimulate the growth of the microscopic marine plants (phytoplankton) 
at the base of open ocean food webs, resulting in dense concentrations 
of food for marine animals. The upwelling in the area from Point Arena 
to Bodega Bay to be included in the modified boundary is known to be 
the most intense upwelling in North America (see below).
    2. H.R. 1187 will protect the source of the water, nutrients, and 
food and critical habitats for the exceptionally diverse marine life 
that resides in or utilizes the Sanctuaries, including fisheries 
species, endangered or threatened species, species important to 
understanding global climate change, and the oceanographic processes 
that influence weather.
    The scientific justification for the expansion is well-founded and 
summarized below.
    A critical center of upwelling--providing the source waters for the 
Gulf of the Farallones and Cordell Bank National Marine Sanctuaries 
downstream--lies outside of the existing boundaries. The proposed 2093 
square nautical mile expansion from Point Arena to Bodega Bay includes 
this critical upwelling center. Deep, cold, nutrient-rich water wells 
up to the ocean's surface at Point Arena and flows to the south and 
into the existing National Marine Sanctuaries (Largier et al. 1993, 
Kaplan and Largier 2006, Kuebel-Cervantes and Allen 2006), initiating 
and fertilizing blooms of the marine plants along the way and 
supporting organisms at all higher levels of the food web. Figure 1 
shows ocean currents moving downstream from Point Arena south to the 
present Gulf of the Farallones and Cordell Bank National Marine 
Sanctuaries. The upwelling leads to such a great abundance of food that 
many top predators, including marine mammals and great white sharks, 
can thrive in the region.
    The area to be included within the modified boundary (Point Arena 
to Bodega Bay) is not only the source of water, nutrients, and food for 
the existing Sanctuaries, but it also consistently generates the most 
intense upwelling in North America. Ocean production is positively 
correlated with upwelling intensity: the more intense the upwelling, 
the more productive the ocean. The intensity of the upwelling from 
Point Arena to Bodega Bay is characterized according to NOAA's 
upwelling index: http//www.pfeg.noaa.gov/products/PFEL/modeled/indices/
upwelling/NA/daily_
upwell-graphs.html#p09daily.gif. Cold water is also an indication of 
upwelling strength. Figure 2 shows water temperatures are coldest 
around Point Arena, also signifying the intensity of the upwelling.
    The rich food generated by the upwelling provides a feast for a 
diverse assemblage of local and migratory marine life in the Gulf of 
the Farallones and Cordell Bank National Marine Sanctuaries. Overall, 
the California Current Upwelling Ecosystem supports more than one-third 
of the world's whale and dolphin species in the region between Bodega 
Bay and Monterey Bay (Keiper et al., 2005). The Gulf of the Farallones 
has the largest concentration of breeding seabirds in the continental 
U.S. (12 species) and is home to five species of seals and sea lions. 
Thirty-six species of marine mammals migrate through the Sanctuary 
where they feed on the rich food, as do 163 species of birds. The 
Cordell Bank National Marine Sanctuary is home to at least 240 fish 
species, 69 species of seabirds, and 28 marine mammal species, with 
other species migrating through. The nearshore fish community includes 
many commercially valuable, but also threatened, species of rockfish, 
lingcod, and greenling.
    In the fall, a species of seabird (sooty shearwater) migrates from 
the north to the south through the Sanctuaries en route to South 
America and to New Zealand, which protects the shearwaters as important 
elements of indigenous Maori culture. The shearwaters are so numerous 
that the flocks resemble smoke over the ocean's surface.
    Black-footed albatross migrate between their feeding ground on 
Cordell Bank and their nesting sites on Midway Atoll in the central 
Pacific.
    Humpback and blue whales, both endangered with extinction, feed on 
the rich abundant food in the Sanctuary waters, generated by the 
upwelling. The blue whales utilizing these waters represent the largest 
concentration of this species on Earth.
    This highly productive marine ecosystem also gave rise to the 
oldest known coastal human settlement in northern California (at 
Duncan's Landing), which was dated at 8,600 years (Kennedy et al., 
2005).
    Mobile marine species cross over from the Sanctuaries to utilize 
critical habitat that lies unprotected in the expansion area. The 
expansion area hosts diverse populations of local and migratory fishes, 
birds, and marine mammals, which are attracted to the rich food, in a 
very similar manner to the areas protected in the existing Sanctuaries.
    NOAA's Biogeography Program (NOAA 2003) revealed that the area to 
be included in the modified boundary in fact has in some cases even 
richer biological resources. `Hotspots' for high species diversity and 
high abundances of fishes and birds were identified within the 
expansion area. Some of the highest habitat suitability for the 
following species extends north of the boundary: commercial fish 
species (juvenile bocaccio, dover sole adults and juveniles, rockfish, 
Dungeness crab), harbor seals, Risso's dolphin (seasonally). Two sites 
near Point Arena remain major winter haul out areas for the diminishing 
population of Steller sea lions (threatened). The area visited most by 
gray whales occurred between Fort Ross and Point Arena, outside the 
existing boundaries. Similarly, the seasonal high use area for the 
northern fur seal (conservation status: vulnerable) was just to the 
north and west of the Sanctuaries.
    Resident species in the expansion area include rockfish, lingcod, 
flatfish, Dungeness crab, sea lions, seals, and seabirds. Coastal 
seabirds and migratory shorebirds using the Pacific flyway frequent 
this stretch of coast. Secluded stretches of coast offer haul out areas 
for harbor seals and Steller sea lions (threatened) as well as nesting 
sites for many species of local seabirds. Gray whales pass through this 
corridor during their annual migration between breeding areas in Mexico 
and feeding grounds in Alaska. Other migratory species visiting the 
area seasonally to forage in the food-rich waters include endangered 
and threatened species such as humpback and blue whales, northern fur 
seals, coho salmon, black-footed albatross and leatherback sea turtles. 
Chinook or king salmon from northern California watersheds also 
frequent this area in spring and summer to feed on shrimp-like krill, 
anchovies, and sardines.
    In addition to fishes, birds, and marine mammals, extensive 
underwater forests of kelp (a giant seaweed) grow close to shore in the 
expansion area, where they serve as a critical nursery grounds for 
rockfishes. The kelp forests also support thriving populations of 
commercially valuable red sea urchins and red abalone (Karpov 2001, 
Rogers-Bennett 2003). The red abalone are abundant enough for an active 
recreational fishery, the only remaining abalone fishery on the west 
coast.
    Species of ancient deep-sea corals (bamboo corals) also live 
throughout the region and provide scientists with clues to climate 
change. The corals lay down growth rings like trees, providing 
incomparable records of past climate conditions (Roark et al., 2005). 
In addition these corals provide important habitat for deep-sea fishes. 
These corals are structurally fragile and susceptible to disturbance 
from oil and mineral exploration and extraction.
    The Bodega Canyon lies within the modified boundary of the Cordell 
Bank National Marine Sanctuary and is a specialized habitat for a 
variety of species. The Bodega Canyon is one of several submarine 
canyons along the west coast. Cutting into the continental shelf, these 
canyons are critical conduits for transporting organic matter that 
provisions deep-sea animals (Vetter 1995). The steep walls of the 
canyons support a diverse assemblage of marine species including deep-
water corals. Small shrimp-like animals (`zooplankton', especially the 
type know as `krill') emerge from Bodega Canyon every night, attracting 
predators that aggregate on the down current side of submarine canyons 
to feed (Chess 1989). Krill is an important link in the Cordell Bank 
food web. Krill is the primary diet for blue whales and a seabird 
species (Cassin's auklet) and a dietary staple for rockfishes, coho and 
king salmon.
    Endangered blue whales are the largest animals ever known and each 
day they must consume two tons of food largely in the form of krill. To 
maintain this consumption rate, they seek dense krill aggregations. The 
krill in turn depend on the algal blooms sustained by upwelling. Krill 
concentrate downstream of intense upwelling centers, such as Point 
Arena, and at the edges of submarine canyons, including Bodega Canyon. 
California blue whales predictably can be found foraging at the edge of 
submarine canyons (Croll et al., 2005). Protecting these critical 
foraging areas is important to securing the continued survival of these 
magnificent whales.
    Expanding the boundary for the Sanctuaries is crucial to achieving 
their management goal of protecting the ecosystem for the marine life 
within, as stated in the Draft Joint Management Plan. The expansion 
area is an integral part of the California Current Upwelling Ecosystem 
which also encompasses the existing Sanctuaries. The abundant food for 
the species living in the Sanctuaries is produced upstream of the 
existing boundaries. And, many of the larger and mobile species travel 
outside of the Sanctuaries to utilize habitats in the expansion area. 
Critical parts of the ecosystem, such as the upwelling center at Point 
Arena and Bodega Canyon, are not protected in the existing Sanctuaries. 
Ecosystem-based management has strong support from both scientists and 
the public in recognition that species do not live in isolation of 
their environment or other species, including humans.
    The California Current Upwelling Ecosystem not only sustains 
phenomenal biological productivity, it also generates weather patterns 
along the west coast. The thick cloud cover over the ocean and coast--
the `marine layer' noted by Pacific coast weathermen--results from the 
cold surface waters of the upwelling, in conjunction with the summer 
Pacific High Pressure System. Such clouds are known to have an 
important influence on the heat budget of Earth (Rogers et al., 1995, 
Faloona et al., 2005, Wen et al., 2006). This thick cloud layer can be 
strongly altered by pollution and by disruption to the upwelling 
system.
    3. Public support for the Sanctuaries boundary modification has 
been exceptional over the lengthy review process.
    Since my appointment as the Director of the University of 
California's Bodega Marine Laboratory, I have personally witnessed 
overwhelming support for the Sanctuaries and the expansion. I have been 
involved in the Gulf of the Farallones, Cordell Bank, and the Monterey 
Bay National Marine Sanctuaries due to common research and education 
interests. The Sanctuaries and the Bodega Marine Laboratory collaborate 
on public education efforts. The Laboratory provides a neutral venue 
for public meetings, including fishermen's associations and scoping 
meetings for the Joint Draft Management Plan, and hosts Sanctuary-
sponsored lectures and Sanctuary Advisory Council meetings. I attend 
Sanctuary volunteer celebration events. In addition, I participate in 
public forums and workshops dedicated to the science-based management 
of California's ocean resources, as a charter member of the University 
of California's Marine Council and until recently, a member of the 
California Resources Agency Sea Grant Advisory Panel. I interact 
frequently with the public through these activities, the students I 
teach and their parents, and Bodega Marine Laboratory's public 
education program, which reaches up to 12,000 visitors yearly. The 
public I have met who know about the Sanctuaries consider them a 
national treasure and are pleased that Congress is considering an 
expansion.
    Specifically, my direct involvement with the public review process 
for the expansion is as follows:

  <bullet> January 2002--Bodega Marine Laboratory hosted public scoping 
        hearing on Joint Management Plan (attended by over 120 people).

  <bullet> August 2004--Testified at a public scoping hearing for 
        Congresswoman Woolsey. Provided new scientific information that 
        inextricably linked the expansion area to the current NMS 
        through providing food and habitat for the organisms that 
        depend on the NMS.

  <bullet> December 2004--Testified before the Sonoma County Board of 
        Supervisors, who unanimously approved of the expansion.

  <bullet> August 2005--Participated in an informational conference on 
        the proposed expansion at Sanctuary Headquarters in San 
        Francisco in 2005 on behalf of Senator Boxer and Congresswoman 
        Woolsey.

  <bullet> January 2006--Provided scientific briefing for the proposed 
        expansion for California's Secretary to Resources, Mr. Mike 
        Chrisman. The California Coastal Commission approved of the 
        proposed legislation for the expansion.

  <bullet> November 2007--Testified on H.R. 1187 before the House 
        Subcommittee on Fisheries, Wildlife, and the Ocean.

  <bullet> Attended public scoping and informational meetings for the 
        Sanctuaries and the expansion.

  <bullet> Attended meetings of the Sanctuary Advisory Councils, often 
        hosted by the Bodega Marine Laboratory.

  <bullet> Supervise faculty who serve on the Sanctuary Advisory 
        Councils and conduct research in the Sanctuaries and expansion 
        area.

  <bullet> Provide scientific advice on areas within my expertise.

    This legislation has been in the making for a long time. As early 
as 2001 the expansion was considered in public scoping hearings for the 
Joint Draft Management Plan for the three Sanctuaries. The 2003 release 
of the NOAA's Biogeographic Assessment (see bibliography provided at 
the end of the written testimony) provided impetus for this 
legislation. The assessment revealed the inextricable ecological 
linkages between the current Sanctuaries and the expansion area and 
that biological resources were in some cases richer in the expansion 
area. The bill was first introduced in the House by Congresswoman 
Woolsey in 2004 and reintroduced with a companion bill by Senator Boxer 
in 2005. Congresswoman Woolsey reintroduced a modified bipartisan bill 
with Congressman Gilchrist in 2007 and Senator Boxer introduced the 
Senate bill in 2008. A revised version of H.R. 1187--the same bill that 
this subcommittee is now considering--passed the House in March 2008.
    Along the way, public review and comment on the proposed expansion 
has been exceptionally thorough. The bill was launched with a capacity 
crowd public hearing attended by scientists, fishermen, 
environmentalists, and members of the general public at the Sonoma 
County Board of Supervisors Chambers in 2004. The bill has also been 
reviewed several times by the Gulf of the Farallones NMS and Cordell 
Bank NMS Advisory Councils, the groups that under administrative 
procedures, begin the designation process. The bill has been endorsed 
by both Advisory Councils. Additionally, the bill had a House Oceans 
Subcommittee informational hearing in October 2007 and markups by the 
Subcommittee and the full House Natural Resource Committee in March 
2008.
    Additionally, the legislation has been reviewed and endorsed by the 
California Coastal Commission, the California State Lands Commission, 
the Boards of Supervisors of Marin, Sonoma, San Francisco and Mendocino 
Counties, the City of San Francisco, and the Port of Oakland. All these 
meetings were noticed and the public was given the opportunity to 
comment. If the expansion is authorized, the public will again have 
ample opportunity to participate in the details of the expansion as the 
regulations will be developed through the administrative process.
    The members of the California State Lands Commission include the 
Lieutenant Governor, the State Controller and the State Director of 
Finance. The Commission has broad authority to protect lands including 
the state's waterways, tidelands, and submerged lands. As part of its 
responsibilities, the Commission regulates and permits oil and gas 
leases and has comprehensive oil spill prevention programs. In its 
endorsement resolution, it noted the need to protect ``these currently 
unprotected but biologically significant ocean areas in the 
Sanctuaries.''
    At least 36 local, state, and national organizations supported H.R. 
1187, including the state, county, and city governments listed above 
and

  <bullet> California State legislators representing Mendocino and 
        Sonoma County, including Assemblywomen Patricia Berg and Noreen 
        Evans, Assemblyman Jared Huffman, State Senator Pat Wiggins and 
        former State Senator Wes Chesbro while in office.

  <bullet> distinguished scientists (letters from 25 scientists from 
        the University of California and other research institutions),

  <bullet> businesses (the Russian River Chamber of Commerce, Sonoma 
        County Economic and Development Board, Mendocino Sea Vegetable 
        Company),

  <bullet> fishermen (the Pacific Coast Federation of Fishermen's 
        Association; Bodega Bay Fishermen's Marketing Association),

  <bullet> environmental groups (individual and joint letters of 
        support from Natural Resources Defense Council, Ocean 
        Conservancy, Sierra Club, Marine Conservation Biology 
        Institute, Conservation Law Foundation, U.S. Public Interest 
        Research Group, Cook Inletkeeper, Planning and Conservation 
        League, The Marine Mammal Center, Surfrider Foundation, 
        Farallones Marine Sanctuary Association, Environmental Action 
        Committee of West Marin, Pacific Environment, Mendocino Sea 
        Vegetable Company, California Coastal Protection Network, 
        Environment California, Environment America, National Marine 
        Sanctuary Foundation).

    Notably, there is wide support from the fishing community for the 
expansion. These fishermen recognize that protecting the quality of the 
source waters and the food pipeline for the Sanctuaries and critical 
fishery habitat that is currently unprotected is important for 
sustainable fisheries in the area. In addition, California State 
Senator Pat Wiggins, the Chairwoman of the Joint Legislative Committee 
on Fisheries and Aquaculture having oversight over the State Department 
of Fish and Game, stated in her endorsement letter for H.R. 1187: 
``This bill places no additional restrictions on the fishing community, 
so does not conflict with existing or future regulations from our State 
Department of Fish and Game.'' The Sanctuary designation protects 
fisheries while allowing fishing and does not change existing 
authorities for fisheries.
    This great public interest is attracted fundamentally by the 
diverse marine life of the region (including iconic species such as the 
California sea lion), which also generates an important tourism economy 
and serves as a hook for science education. The Gulf of the Farallones 
National Marine Sanctuary has attracted over 100 dedicated volunteers a 
year in its beach watch program alone. The volunteer contributions have 
been estimated at over $200,000 worth of effort annually. The beach 
watch program has been sustained for 10 years, with more than 90 
percent of the volunteers returning each year. The interpretive center 
in San Francisco for the Gulf of the Farallones National Marine 
Sanctuary hosts over 40,000 visitors yearly.
    The expanded boundary would bring the superb public education 
programs of the National Marine Sanctuaries farther north along the 
Pacific coast to reach rural and disadvantaged children. The 
Sanctuaries work closely with local schools and provide teacher 
training for activities such as monitoring tideline and beach 
communities and building a new curriculum that integrates geography and 
marine science through tracking tagged migratory animals online. They 
also have been exceptional research and education partners for 
institutions of higher education in the region.
    The public is concerned that the expansion be authorized now 
because the threats have been realized and will continue.
    The expansion area and the California Current Upwelling Ecosystem 
have been threatened by pollution historically and recently.
    The most environmental impact on the Sanctuaries and unprotected 
adjacent waters occurred on November 7, 2007, when 58,000 gallons of 
bunker oil spilled from the COSCO BUSAN and were dispersed into the 
Gulf of the Farallones and Monterey Bay Sanctuaries. At first count, 
2,200 birds were oiled or killed. The research of the environmental 
impacts of this spill will only add to a solid base of knowledge about 
the effects of hydrocarbons on marine life built upon by scientists in 
NOAA, universities, and private institutes after similar incidents such 
as the EXXON VALDEZ oil spill.
    The COSCO BUSAN spill was presaged in the Gulf of the Farallones 
Draft Management Plan, which cited the evident risks from commercial 
vessels like the COSCO BUSAN that draw greater than 50 feet of water 
and are fueled with bunker oil, which is similar to crude oil. 
Additional risks were cited from the movement of oil tankers carrying 
an estimated 544 million gallons annually along the California coast. 
In addition to the COSCO BUSAN spill, there have been 10 vessel oil 
spills in the Gulf of the Farallones National Marine Sanctuary since 
1971 (tallied in the Gulf of the Farallones Draft Management Plan), 
which killed tens of thousands of seabirds. The debilitating effects of 
oiling sea birds and marine mammals are well known by the public.
    In the late 1970s and 1980s there were attempts to lease oil tracts 
off the counties of Sonoma and Mendocino. Congress and past Republican 
and Democratic Administrations have already recognized that oil 
drilling is inappropriate in this area and have placed them under 
moratoriums. However, the current moratorium will expire in 2012 and 
there have been efforts to erode it in the meantime. Exploration and 
extraction activities disturb the sea floor and even minute 
concentrations of chemicals from oil and mineral extraction (in the 
`production water') are toxic to sea life including economically 
valuable marine species (herring, sea urchins, Pacific oysters) that 
live in the Sanctuaries and expansion area (Garman et al., 1994, Krause 
1984).
    Sewage pollution is another type of pollution that threatens the 
Sanctuaries and the area to be included in the modified boundary. In 
1986, 1995, and as recently as 2003, there were proposals to build 
ocean sewage outfalls along the Sonoma Coast, and there was a massive 
raw sewage spill in the Russian River in 1985, all just north of the 
existing boundary.
    More generally, the reports of the recent Pew and U.S. Ocean 
Commissions reflect broad public sentiment that our oceans are under 
incredible environmental stress and rapid and substantive action is 
required to redress the perils facing our oceans. Given that the Pew 
and U.S. Ocean Commissions agree that it is a priority to protect 
biologically important areas and that there is ample scientific 
evidence of the value of the resources within the proposed expansion 
area, sound economic reasons, and broad public support for the 
expansions, it is important that Congress pass this legislation, rather 
than wait on the uncertainties of a lengthy administrative designation 
process. Congress previously created three Marine Sanctuaries. Congress 
also directed the Secretary of Commerce to administratively designate 
four National Marine Sanctuaries by specific dates. In 1996, Congress 
expanded the Flower Garden Bank NMS by adding Stetson Bank, a direct 
precedent to H.R. 1187/S. 2635. In sum, Congress has had direct 
involvement in the designation of seven of thirteen National Marine 
Sanctuaries and expanded one National Marine Sanctuary.
    Giving the Sanctuary program authority to address these threats and 
realities will help ensure that these ecologically unique waters remain 
clean and abundant with marine life. The Sanctuary would be able to 
collect penalties and settlements after spills and dedicate them to 
restoration projects in the expansion area, as it has in the existing 
Sanctuaries.
    The expansion will also better enable the Sanctuaries to carry out 
their management goal of protecting the ecosystem for the marine life 
within by including the critical parts currently unprotected, such as 
Bodega Canyon and the upwelling center at Point Arena. The expansion 
thus also addresses the U.S. and Pew Ocean Commissions conclusion that 
the ocean management must be based around ecosystems, rather than 
traditional jurisdictional boundaries; the legislation would adjust the 
jurisdictional boundary to better match the ecosystem.
    In the invitation letter, the Committee asked me to address the 
resources necessary to carry out the expansion. It is important to 
fully fund the National Marine Sanctuaries to further protect one of 
the richest marine ecosystems on Earth. However, funding should not 
stand in the way of passing the legislation because it provides in 
itself important protection for nationally valuable marine resources. 
As stated earlier in my testimony, the designation alone allows the 
Sanctuaries to collect fines. Potential polluters might think twice. 
The designation would attract competitive research grants. Although it 
was a hardship, the Cordell Bank NMS operated without funding in the 
first few years of its designation. The Sanctuary programs have 
achieved admirable success in partnering within the region, using 
volunteers, and attracting private donations to leverage their limited 
resources. However, additional funding is important for the Sanctuaries 
to fully expand its program and activities into new areas.
    H.R. 1187 authorizes an appropriation of $6,500,000 for 
implementation of the boundary modification and such sums as necessary 
for construction and acquisition projects for the Sanctuaries. The 
Congressional Budget Office, as ordered by the House Committee on 
Natural Resources, reported on March 12, 2008 that ``enacting the bill 
would have no effect on revenues or direct spending.'' The CBO 
estimated that ``assuming appropriation of the amounts specified by the 
bill for sanctuary management or estimated to be necessary for 
authorized construction and acquisition activities'', implementation 
would cost $20 million over the 2009-2013 period. The average annual 
appropriations to manage the two marine Sanctuaries currently are 
approximately $2 million. This small amount supports an exceptional 
Sanctuary program in management, public education, and research.
    In summary: Expanding the Gulf of the Farallones and Cordell Bank 
National Marine Sanctuaries to include the Point Arena upwelling center 
is necessary to protect and study the source water for these two 
existing Sanctuaries. Nutrients and food produced in the Point Arena 
upwelling center are delivered by water currents moving south to the 
Gulf of the Farallones and Cordell Bank. By expanding the Gulf of the 
Farallones and the Cordell Bank National Marine Sanctuaries north to 
Point Arena, the wellspring for the biological productivity, the food 
pipeline, hotspots of biological diversity, and critical habitat for 
seabirds, marine mammals, and fisheries species that range northward 
from the existing Sanctuaries will be protected. Expanding the two 
Sanctuaries in H.R. 1187 will help achieve the goal of ecosystem-based 
management on a regional scale.
    As a marine scientist and educator, and as Director of one of the 
Nation's oldest marine laboratories (Bodega Marine Laboratory) situated 
within the proposed boundary modification, I find the ecological 
uniqueness of the region a compelling reason to protect the source 
waters and critical habitat for the marine life that frequents the Gulf 
of the Farallones and Cordell Bank National Marine Sanctuaries. 
Together, the area encompasses a major portion of the only coastal 
upwelling ecosystem in the United States, which is one of only four on 
Earth. As a citizen and a resident of this exceptional and unique 
stretch of the Nation's coast, I find the diversity and abundance of 
marine life and the high productivity that puts food on the table very 
valuable to protect now and for future generations.
    I thank the Subcommittee for the opportunity to share this 
information and offer any assistance I can provide in the next stages 
of its actions concerning H.R. 1187.
    Relevant Scientific Literature (Upon request, I will provide copies 
of any of these and additional publications).
    Bakun, A. and R.H. Parrish. 1982. Turbulence, transport, and 
pelagic fish in the California and Peru Current systems. CalCOFI Rep. 
23:99-112.
    Botsford, L.W.; C.A. Lawrence; E.P. Dever; A. Hastings, and J. 
Largier. 2003. Wind strength and biological productivity in upwelling 
systems: an idealized study. Fisheries Oceanography 12:245-259.
    Chess, J.R. 1989. Sebastes jordani off central California. 
California Cooperative Oceanic Fisheries Investigation Report, NOAA 
Technical Memorandum, NOAA-TM-NMFS-SWFC-133. 11 pp.
    Croll, D.A.; B. Marinovic; S. Benson; F.P. Chavez; N. Black; R. 
Ternullo; B.R. Tershy. 2005. From wind to whales: tropic links in a 
coastal upwelling system. Marine Ecology Progress Series 289:117-130.
    Cushing, D.H. 1969. Upwelling and Fish Production. FAO Fisheries 
Technical Paper No. 84, FRs/T84. FAO Food and Agriculture Organization 
of the United Nations, Rome. http://www.fao.org/docrep/89204E/
89204E00.htm.
    Faloona, I.; H. Lenschow; T. Campos; B. Stevens; M. van Zanten; B. 
Blomquist; D. Thornton; A. Bandy and H. Gerber. 2005. Observations of 
entrainment in eastern Pacific marine stratocumulus using three 
conserved scalars. Journal of the Atmospheric Sciences 62:3268-3285.
    Garman, G.D.; M.C. Pillai and G.N. Cherr. 1994. Inhibition of 
cellular events during early algal gametogenesis development: effects 
of select metals and an aqueous petroleum waste. Aquatic Toxicology 
28:127-144.
    Kaplan, D.M. and J.L. Largier. 2006. HF-radar-derived origin and 
destination of surface waters off Bodega Bay, California. Deep Sea 
Research II 53:2906-2930.
    Karpov, K.; M.J. Tegner; L. Rogers-Bennett; P. Kalvass and I. 
Taniguchi. 2001. Interactions among red abalones and sea urchins in 
fished and reserve sites in northern California: implications of 
competition to management. Journal of Shellfish Research 20:743-753.
    Keiper, C.A.; D.G. Ainley; S.G. Allen and J.T. Harvey. 2005. Marine 
mammal occurrence and ocean climate off central California, 1986 to 
1994 and 1997-1999. Marine Ecology Progress Series 289:285-306.
    Kennedy, M.A.; A.D. Russell and T. P. Guilderson. 2005. A 
radiocarbon chronology of hunter-gatherer behavior from Bodega Bay, 
California. Radiocarbon 47:265-294.
    Kuebel-Cervantes, B.T. and J.S. Allen. 2006. Numerical model 
simulations of continental shelf flows off northern California. Deep 
Sea Research II 53:2956-2984.
    Kennedy, M.A.; A.D. Russell and T. P. Guilderson. 2005. A 
radiocarbon chronology of hunter-gatherer occupation from Bodega Bay, 
California, USA. Radiocarbon 47:265-293.
    Krause, P.R. 1994. Effects of an oil production effluent on 
gametogenesis and gamete performance in the purple sea urchin 
(Strongylocentrotus purpuratus Stimpson). Environmental and 
Toxicological Chemistry 13:1153-1161.
    Largier, J.; B.A. Magnell and C.D. Winant. 1993. Subtidal 
circulation over the northern California shelf. Journal of Geophysical 
Research 98:18147-18179.
    NOAA, National Centers for Coastal Ocean Science (NCCOS) 2003. A 
Biogeographic Assessment off North/Central California: To Support the 
Joint Management Plan Review for Cordell Bank, Gulf of the Farallones, 
and Monterey Bay National Marine Sanctuaries: Phase I--Marine Fishes, 
Birds and Mammals. Prepared by NCCOS's Biogeography Team in cooperation 
with the National Marine Sanctuary Program. Silver Spring, MD. 145 pp.
    Roark, E.B.; T.P. Guilderson; S. Flood-Page; R.B. Dunbar; B.L. 
Ingram; S.J. Fallon and M. McCulloch. 2005. Radiocarbon-based ages and 
growth rates of bamboo corals from the Gulf of Alaska, Geophysical 
Research Letters 32: L04606, doi:10.1029/2004GL021919.
    Rogers, D.P.; X. Yang and P.M. Norris. 1995. Diurnal evolution of 
the cloud-topped marine boundary layer. Part I: Nocturnal stratocumulus 
development. American Meteorological Society 52:2953-2966.
    Rogers-Bennett; L. Rogers; D.W. Bennett; W.A. and T.A. Ebert. 2003. 
Modeling red sea urchin growth using six growth models. Fishery 
Bulletin 101: 614-626.
    Vetter, E.W. 1995. Detritus-based patches of high secondary 
production in the nearshore benthos. Marine Ecology Progress Series 
120:251-262
    Wen, J.; Y.J. Zhao and A.S. Wexler. 2006. Marine particle 
nucleation: Observation at Bodega Bay, California. Journal of 
Geophyscial Research--Atmospheres 111. D08207, doi:10.1029/
2005JD006210.
    Website for Upwelling http://www.pfel.noaa.gov/pfel/qtrly_repts/
fy96q4/sep96
_3.html.
    Figure 1. The source waters for the Gulf of the Farallones and the 
Cordell Bank National Marine Sanctuaries lie in the expansion area from 
Point Arena to Bodega Bay. Point Arena is an important center of ocean 
upwelling, providing nutrients and food. Surface currents are shown 
flowing southward from Point Arena, California. `BML' refers to Bodega 
Marine Laboratory, situated just north of the existing Sanctuary 
boundary. Arrows point in the direction of the surface currents. Color 
indicates the speed of the current (red = faster).
    Data from the coastal radar of the Bodega Ocean Observing Node at 
the Bodega Marine Laboratory, University of California at Davis. 
Funding was provided by the Bodega Marine Laboratory and the State of 
California's Coastal Ocean Currents Monitoring Program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 2. Sea Surface Temperatures (SST) for the northern half of 
the California Current Upwelling Ecosystem. Data from the National 
Marine Fisheries Service. The darker the blue, the colder the water, 
indicating the strength of the upwelling. The expansion area from Point 
Arena to Bodega Bay is the area of strongest upwelling.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Cantwell. Thank you, Dr. Williams. Thank you for 
your testimony and for the demonstration--the interactive 
demonstration.
    Ms. Fosmark, thank you for being here.

 STATEMENT OF KATHY FOSMARK, CO-CHAIR, ALLIANCE OF COMMUNITIES 
                   FOR SUSTAINABLE FISHERIES

    Ms. Fosmark. Thank you.
    Madam Chair, members of the Subcommittee, for the record, 
my name is Kathy Fosmark, and I'm appearing today to present 
the views of the Alliance of Communities for Sustainable 
Fisheries on H.R. 1187, the Gulf of Farallones and Cordell Bank 
Marine Sanctuaries Modification Act.
    The Alliance is a nonprofit organization, and we represent 
18 subgroups that range throughout the West Coast. We are 
basically representing waterfront communities, and we work 
constructively with agencies and individuals and other marine 
protection organizations in order to ascertain the--and 
guarantee--that the best and current science is used. And we 
are here to promote public policy and linkage between healthy, 
sustainable fisheries and marine conservation.
    The Alliance and its members have extensive experience in 
dealing with National Marine Sanctuary Program over the last 15 
years.
    On a personal level, I am part of a multigenerational 
fishing family that first settled in California in the 1800s. I 
fished commercially with my father and my husband over the 
course of 30 years, and our eldest son has recently entered the 
fishery. Our family has fished the Pacific Ocean in the area 
covered by these sanctuaries, for tuna, salmon, swordfish, 
crab, Pacific halibut, shrimp, and groundfish, using a variety 
of gears.
    I am a member of the Pacific Fishery Management Council, 
although I am not here representing the members--the other 
members' views. I am here representing the Alliance.
    Fishermen don't oppose marine sanctuaries. Fishermen are 
conservationists, and need to depend on good science-based 
management in order to supply healthy seafood to the American 
consumer. California fishermen were responsible for the 
creation of these sanctuaries, but only in the condition of a 
promise made to the fishermen.
    I will read a small excerpt from the designation document. 
``Fishing is not being regulated as part of the sanctuary 
regime and is not included in the designation document as an 
activity subject to future regulation. Fisheries management 
will remain under the existing jurisdiction of the State of 
California National Marine Fishery Service and the Pacific 
Fishery Management Council.''
    Fishermen have come to distrust the sanctuary program. It 
appears their decisionmaking is political instead of science-
based. Recently, the Magnuson-Stevens Act was amended to ensure 
the councils used good science. Sanctuaries need to meet the 
same scientific standards as the Councils. Fishermen need to be 
protected as much as resources.
    I appreciate the Committee considering the House-passed 
version of H.R. 1187, as there have been some important 
changes, but we have concerns about the bill, based on the 
promise. It doesn't make it clear who controls fishing, gives 
sanctuary authority over living marine resources, and it also 
mandates zoning, which is a particular concern of ours, as you 
have heard earlier, with the Thunder Bay testimony, that that 
is not a situation of concern.
    Note that concerns have been realized from testimony of 
Bill Douros before the House and the Monterey National Marine 
Sanctuary need-decision paper that was issued, decision on 
marine protected areas without talking to the Council. The 
Pacific Fishery Management Council was not consulted before the 
need-decision was made. This is why fishermen want to have the 
promise kept. We cannot support the bill unless these concerns 
are addressed.
    Attached is suggested language, and we're happy to work 
with the Subcommittee to refine and improve the bill.
    Thank you.
    [The prepared statement of Ms. Fosmark follows:]

Prepared Statement of Kathy Fosmark, Co-Chair, Alliance of Communities 
                       for Sustainable Fisheries
    Madame Chair, members of the Subcommittee, for the record my name 
is Kathy Fosmark and I am appearing today to present the views of the 
Alliance of Communities for Sustainable Fisheries on H.R. 1187, the 
``Gulf of the Farallones and Cordell Bank National Marine Sanctuaries 
Boundary Modification and Protection Act.''
    The Alliance is a nonprofit organization representing eighteen 
commercial and recreational fishing organizations, ports, and harbors 
along the California Coast. Based in Monterey, California, the Alliance 
advocates for the heritage and economic value of fishing to California 
coastal communities by offering a broadly representative educational 
and promotional voice for waterfront communities to work constructively 
with interested agencies, individuals, and other marine protection 
organizations in order to ascertain and guarantee that: the best and 
most current oceanographic, socio-economic and fisheries science is 
accurately compiled; that science is readily available to the public 
for use in crafting and promoting public policy; and that the linkage 
between healthy sustainable fisheries, marine conservation, and coastal 
communities is firmly established in the public mind. The Alliance and 
its members have extensive experience in dealing with the National 
Marine Sanctuary Program over the past 15 years.
    On a personal level, I am part of a multi-generation fishing family 
that first settled in California in the 1800s. I fished commercially 
with my father and my husband over the course of 30 years and our 
eldest son now has entered the fishery. Our family has fished in the 
Pacific Ocean, including in the area covered by these Sanctuaries, for 
tuna, salmon, swordfish, crab, halibut, shrimp, and groundfish using a 
variety of gear types. I am also a member of the Pacific Fishery 
Management Council, although the views I am presenting today do not 
necessarily reflect those of the Council or its other members. However, 
I have attached to my testimony a letter from the Council to Senator 
Smith which provides the Council's views on the bill and ask that it be 
included in the record.
    My comments will address H.R. 1187 as passed by the House, as it is 
my understanding that this is the language the Subcommittee is 
considering. While not perfect--as noted below--we believe that 
substantial progress has been made on the bill and that it more 
generally addresses many of our concerns than the companion Senate 
bill, S. 2635.
    Fishermen do not oppose the concept of National Marine Sanctuaries. 
In fact, it was California fishermen who worked hard to have both of 
these Sanctuaries created. We recognize that Sanctuaries are designed 
to conserve special areas in the ocean and prevent damage to sensitive 
resources and habitats.
    However, when California fishermen supported creation of these 
Sanctuaries, they did so under a condition that has become popularly 
known as the ``promise to fishermen'': the Sanctuaries would not manage 
or otherwise regulate fisheries and fishing activities. Fisheries 
management in the ocean waters off California is in the hands of the 
Pacific Fishery Management Council. Fishermen are familiar and 
comfortable with the Council's system of management, which is an open 
and transparent process that is based on the best scientific 
information available and that solicits and respects diverse views. 
Without that promise, fishermen would not have supported creation of 
the Sanctuaries.
    This is the focus of our concerns regarding the language of H.R. 
1187. We appreciate the statement up front in the bill (section 3(c)) 
that nothing is intended to ``alter any existing authorities'' 
regarding fishing. Those existing authorities rest on the weak 
foundation of the Sanctuaries' respective designation documents. They 
are regulations, not law. And as such, they can be changed virtually at 
any time, as we saw happen over the last few years with the Channel 
Islands National Marine Sanctuary--an area where the promise to 
fishermen was broken.
    Further reinforcing our concern is the language in sections 
5(a)(2)(A)(i) and 5(b)(2)(A) which includes ``living marine and other 
resources within'' the expanded boundaries of the Sanctuaries. Fish are 
living marine resources and these sections give the Sanctuaries clear 
authority over fish. Because the language regarding fishing in section 
3 is not clear, the Sanctuaries could easily change their designation 
documents during a future management plan review such as the one 
required under section 7(b).
    We believe that our fears of the Sanctuary program taking a bigger 
role in fisheries management are well founded. For example, last year 
Mr. William Douros, West Coast Regional Director for the National 
Marine Sanctuary Program, testified before the House Committee on 
Natural Resources on reauthorization of the National Marine Sanctuaries 
Act and emphasized the program's role in resource management, stating 
that `'the System is continually on the cutting edge of resource 
management.'' In February of this year, the Monterey Bay Sanctuary 
announced it was moving forward with designing marine protected areas 
``in which the removal or alteration of marine life is prohibited or 
restricted''; in other words a marine reserve. No discussion on this 
issue was held with the Pacific Fishery Management Council until April, 
in spite of the fact that designation of marine reserves in ocean 
waters could have a profound affect on the fisheries managed by the 
Council. We are not opposed to fisheries conservation and management, 
or even to time and area closures that are scientifically based and 
designed to protect important fish stocks and habitat. We are opposed 
to more and more Federal agencies arbitrarily deciding that they don't 
want anyone to catch fish.
    Given this background, we are opposed to the language in section 
7(e)(2) that mandates establishment of zones ``if necessary to ensure 
protection of sanctuary resources.'' While we can understand the need 
for zoning to protect important historical artifacts such as the wreck 
of the S.S. MONITOR off North Carolina, adding this mandate here 
reinforces the concern about Sanctuary intrusion into the realm of 
fisheries management through the use of marine protected areas.
    In the area of sport fishing, we have been concerned about 
prohibiting the ``deposit or discharge of any introduced species'' into 
Sanctuary waters. The Sanctuaries themselves recognize that there is a 
thriving catch and release fishery for striped bass (Morone saxitilis) 
within the Sanctuaries and the proposed management plan changes 
published by the Sanctuaries last October make a clear exception for 
that fishery. H.R. 1187 acknowledges this by providing simply for 
appropriate regulations in section 7(d)(2).
    Similarly, sport fishermen are concerned about regulation of marine 
sanitation devices. While they agree with--and already meet--the 
requirements to use Type I or II devices, they are afraid that having 
language in a statute governing Sanctuaries will mean that Sanctuary 
enforcement officers, along with the Coast Guard, will be stopping 
their fishing operations and boarding their boats to inspect marine 
sanitation devices. We note that the House removed specific language on 
marine sanitation devices from H.R. 1187.
    California ports are worried about the effect of extending the 
Sanctuary boundaries to the mean high water line as described in 
section 5. The dynamic nature of our west coast currents requires 
frequent dredging of navigation channels and berthing areas to 
accommodate commercial and recreational vessel traffic. Prohibitions on 
discharge in Sanctuaries could effectively override the authority and 
scientific standards of the Environmental Protection Agency and the 
Corps of Engineers, making it difficult to keep our ports open. The 
House removed such language from H.R. 1187 during Committee mark-up and 
we believe this to be the best approach.
    Madame Chair, we appreciate the Congress's efforts to expedite 
changes in the Sanctuary boundaries through legislation and that some 
of our suggestions for changes in the original version of the bill have 
been adopted by the House. But unless our concerns about keeping the 
promise to fishermen are met, we cannot support the bill. We would 
rather take our chances with the existing administrative process; even 
the proposed regulations changing the management plans for these 
Sanctuaries are explicit in protecting our commercial and recreational 
fisheries.
    I have attached to my written testimony some suggested changes to 
H.R. 1187 that we think would provide continued protection for our 
fisheries. We would be happy to work with you and your staff to further 
refine the language in the bill.
    Again, thank you for the opportunity to present the Alliance's 
views on H.R. 1187. I would be happy to answer any questions.
Proposed Changes to H.R. 1187 (as Passed by the House) Offered by the 
        Alliance of Communities for Sustainable Fisheries
    1. Strike subsection 3(c)
    2. Redesignate sections 6 through 8 as sections 7 through 9
    3. Insert a new section 6 as follows:

        ``SEC.6.REGULATION OF FISHING--The regulation of commercial and 
        sport fishing within the Sanctuaries shall be exclusively under 
        the jurisdiction of the Pacific Fishery Management Council 
        established under section 302(a)(1)(F) of the Magnuson-Stevens 
        Fishery Conservation and Management Act (16 U.S.C. 
        1852(a)(1)(F)) and for those portions within State waters the 
        applicable laws and regulations of the State of California.''

    4. In the first sentence of subsection 8(e) as redesignated, strike 
``shall'' and insert ``may''
    5. Strike paragraph 8(e)(2) as redesignated and renumber the 
following paragraphs appropriately.
                                 ______
                                 
                         Pacific Fishery Management Council
                                       Portland, OR, April 24, 2008
Senator Gordon H. Smith,
404 Russell Building,
Washington, DC.

 Re: Pacific Fishery Management Council Comments on S. 2635

Dear Senator Smith:
    Thank you for your continued interest in west coast fishery issues 
and your request for Pacific Fishery Management Council (Pacific 
Council) comments on legislative matters of interest to the Pacific 
Council.
    At its April 2008 meeting, the Pacific Council and its Legislative 
Committee reviewed a variety of legislative matters including H.R. 
1187, the Gulf of the Farallones and Cordell Bank National Marine 
Sanctuaries Boundary Modification and Protection Act, as passed by the 
U.S. House of Representatives on March 31, 2008 and referred to the 
U.S. Senate. Additionally, on February 13, 2008, U.S. Senator Barbara 
Boxer (D-CA) introduced the bill in the U.S. Senate as S. 2635. Given 
these bills are now matters for U.S. Senate consideration, the Pacific 
Council requested I reiterate the following comments of the Pacific 
Council on H.R. 1187 originally conveyed to you in my letter of October 
9, 2007.

  <bullet> It is unclear why these proposed boundary expansions and 
        protective measures were not adopted and implemented under the 
        recently completed Joint Management Plan Review (JMPR) process 
        for the Monterey Bay, Gulf of the Farallones, and Cordell Bank 
        National Marine Sanctuaries. The Pacific Council believes some 
        of the expansion alternatives and prohibitions may have been 
        considered and rejected during the JMPR, and questions why 
        these provisions are being proposed for implementation through 
        legislation rather than the public JMPR process.

  <bullet> Section 2 of H.R. 1187 and S. 2635 find the areas within 
        these sanctuaries ``include some of the Nation's richest 
        fishing grounds'' and that ``Cordell Bank is at the nexus of an 
        ocean upwelling system, which produces the highest biomass 
        concentrations on the west coast of the United States.'' While 
        the Pacific Council agrees these areas are productive and are 
        likely to be ecologically important to the west coast, these 
        findings would benefit from independent verification.

  <bullet> Section 3 of H.R. 1187 and S. 2635 states that ``nothing in 
        this Act is intended to alter any existing authorities 
        regarding the conduct and location of fishing activities in the 
        Sanctuaries.'' The Pacific Council recommends this stated 
        intent be accompanied by a statutory mandate that fishery 
        management authority in Federal waters of the Sanctuaries is 
        retained by the Pacific Council and the National Marine 
        Fisheries Service.

  <bullet> Section 6 of H.R. 1187 and S. 2635 further clarifies that 
        these bills do not intend to prohibit the discharge of 
        biodegradable effluents or the discharge of fish, fish parts, 
        and chumming materials while legally fishing. The Pacific 
        Council is concerned about the regulation of waste water 
        discharges and would like to confirm that the United States 
        Coast Guard retains its current level of authority on these 
        matters.

    Perhaps central to the Pacific Council's interest in these matters 
is achieving legislative clarity on the authority to regulate fishing 
within National Marine Sanctuaries. The Pacific Council is in the early 
stages of initiating an Ecosystem Fishery Management Plan (EFMP) that 
is intended to serve as an ``umbrella'' plan that would advance fishery 
management under our four existing fishery management plans by 
introducing new science and new authorities to the current Pacific 
Council process. The Pacific Council has successfully employed spatial 
management concepts for years and has recommended closed areas to 
rebuild overfished species, minimize bycatch, and preserve essential 
fish habitat. The Pacific Council believes an EFMP will be an effective 
tool in achieving shared ecosystem-based management goals and 
objectives of the Pacific Council, National Marine Fisheries Service 
and the National Ocean Service within and outside National Marine 
Sanctuaries.
    Thank you again for providing the Pacific Council an opportunity to 
provide comments on H.R. 1187 and S. 2635.
            Sincerely,
                                       D.O. McIsaac, Ph.D.,
                                                Executive Director.
MDB:kam

cc: U.S. Senator Barbara Boxer, (D-CA)
U.S. Senator Maria Cantwell, (D-WA)
U.S. Senator Larry Craig (R-ID)
U.S. Senator Mike Crapo (R-ID)
U.S. Senator Dianne Feinstein, (D-CA)
U.S. Senator Patty Murray, (D-WA)
U.S. Senator Ron Wyden, (D-OR)
Pacific Fishery Management Council Members

    Senator Cantwell. Thank you very much for your testimony.
    I'm going to start with Mr. Gray, on the Thunder Bay 
Sanctuary and its origins. Originally, when that was proposed, 
it was proposed as a much larger sanctuary, is that correct--
originally?
    Mr. Gray. Yes, ma'am, it was proposed to be about twice the 
size of the current boundaries. In the negotiations with the 
State of Michigan, entire sanctuaries within State waters, as 
all the Great Lakes bottom lines, belong to the states. Due to 
concerns about the sanctuary, it was negotiated to about half 
the size of the current proposed--current sanctuary.
    Senator Cantwell. And has that been effective at meeting 
its original goals and protecting the historic shipwrecks and 
everything within the sanctuary?
    Mr. Gray. I believe it has. The communities that were 
opposed to joining the sanctuary at the beginning have all 
passed formal resolutions at the county level and the city 
level and township level asking to be brought into the 
sanctuary.
    Senator Cantwell. So, you think the differences from where 
we were on the original proposal to now, today, in expansion, 
is just that people have gotten more comfortable with the 
result of the sanctuary creation and now are back to where the 
original proposal was. Is that----
    Mr. Gray. It's actually back, and expanded beyond that, is 
what this proposal and our Advisory Council have proposed--
beyond the original scope. I believe a big part of that success 
is NOAA being in the community and part of the community. We 
work very closely with all of our community partners from the 
State level down to the local community, local businesses. And 
I believe that's the strongest change. Prior to designation, 
there wasn't the same presence in the community.
    Senator Cantwell.--okay. And Senator Levin mentioned that 
there was a lot of discussion from community leaders, and you 
just mentioned the county, so is there--were those public 
forums--how did they reach their----
    Mr. Gray. During--we held scoping meetings at the beginning 
of our boundary--or at the beginning of our management plan 
review process throughout the three counties. We received 
comment at those. The local governments, they all passed their 
resolutions as part of their formal meetings, so those--yes, 
they were all public forums.
    Senator Cantwell. OK. Thank you.
    Mr. Gray. Thank you.
    Senator Cantwell. And so, you don't know of any local 
opposition, is what you're saying. Is----
    Mr. Gray. No, ma'am.
    Senator Cantwell. Right. And I didn't ask Admiral 
Lautenbacher about this in his testimony, but obviously they 
have been supportive of this expansion, as well.
    Mr. Gray. The local communities or----
    Senator Cantwell. NOAA. NOAA has been supportive of this 
expansion, as well.
    Mr. Gray.--the underlying goals of it is to protect these 
shipwrecks. Yes, they are.
    Senator Cantwell. OK, thank you.
    Dr. Williams, Ms. Fosmark talked about the large support 
from the fishing industry, in general. What do we--what else do 
we know about local support of this expansion? And what has the 
process been to actually ascertain that local support?
    Dr. Williams. The formal process for the local support and 
broader support started when Congresswomen Woolsey introduced 
the bill in 2004. Thereafter, four county boards of 
supervisors--Sonoma, Marin, San Francisco, and Mendocino--
called for a public meeting, a hearing. They passed a 
resolution endorsing the bill. All of those meetings were 
publicly noticed, and public comment, oral and written, were 
encouraged.
    In addition, the Gulf of the Farallones and the Cordell 
Bank Sanctuaries Advisory Council had meetings that were 
noticed, and they ended up endorsing the Act, the legislation.
    In addition, the City of San Francisco and the Port of 
Oakland also endorsed the bill. And before 2004, there was 
public scoping processes going on in regards to the proposed 
legislation, but the proposal for the expansion was brought up 
originally by the public, and that started, in part, as part of 
the joint draft management scoping plan, and even before that. 
For example, the fishermen in--associated with the largest 
fishing group on the West Coast, the Pacific Coast Federation 
of Fishermen's Association, had requested that the Cordell Bank 
boundary, when it was designated, include part of the expansion 
area. So, public support has really been overwhelming. Since 
2002, I've attended, that I can recall and have on record, at 
least seven public scoping meetings where public comments, 
written and oral, have been encouraged. Some of these scoping 
meetings were done at the request of the sanctuary managers. 
For example, there was one in 2006, held at Bodega Marine 
Laboratory, where, as part of the agenda, the Modified Boundary 
Act was considered. At that time, it was H.R. 1712 and Senate 
bill 880, I believe.
    So, I have heard no local opposition; in fact, what I hear 
is overwhelming support for this expansion; in particular, 
because people recognize the economic importance of the marine 
resources in the sanctuary, both the fishes, but also the 
tourism industry is very important along the coast.
    Senator Cantwell. Ms. Fosmark, you talked about the fishing 
issues. And obviously the Sanctuaries Act requires cooperation 
with appropriate fisheries management authorities. And so, 
doesn't the Pacific Council get their say in the expansion? I 
mean, won't they have their input as it relates to fisheries 
management?
    Ms. Fosmark. Yes. Actually, there is a letter that was sent 
by the Pacific Fishery Management Council--it should be 
attached to my written testimony--from the Pacific Council 
regarding this bill. They're--the Alliance is also--the Pacific 
Fishery Management Council did comment on the need question for 
marine protected areas, and the issue here is, in 2004, there 
wasn't that risk of zoning, and this particular issue came up 
later. However, PCFFA, Pacific Coast Federation of Fishermen's 
Association, is a subgroup of the Alliance, and did separately 
write a letter supporting some language, the same exact 
language that we have in our testimony here today.
    Senator Cantwell. I guess my question is, if this is a 
concern, then why are organizations like the Pacific Coast 
Federation of Fishermen and the Association of Bodega Bay 
Fishermen endorsing the proposal? I mean, they're local 
fishermen that are supporting it. So, I think of the council 
management as, you know, a coordinating agency, but I would 
think that they would take their cues from local fishermen, 
whether they--there were--they were concerned. And if local 
fishermen weren't concerned, how is that--you know, how are 
those two things not being represented?
    Ms. Fosmark. Local fishermen, which, I may say, I am one of 
those local fishermen, they did have a concern, but they were 
reassured there was language in the bill that would protect 
them. However, it doesn't make it totally clear about fisheries 
management in the bill. It only says that fishermen--that 
fishing--it's a very vague version, it just doesn't clarify who 
has the authority to manage fish. The difference between the 
Sanctuary and the Pacific Council is, the Pacific Council is a 
very open process, it's based on subcommittees, science and 
statistical committees. It has a checks-and-balance system, and 
it regulates fisheries very well. That is not the case in the 
Sanctuary----
    Senator Cantwell. Well, I think--I think the point is, is 
that--while I'm not sure if you're referring to the House bill, 
but H.R. 1187 may not have that language clarified as to the 
point you're making, but certainly the National Marine 
Sanctuary Act does. And it requires that they--there be 
cooperation with other appropriate fishery management 
authorities in drafting any fishing regulations in the 
sanctuary. So, that authority is there in the original Act. So, 
you may not--you're not seeing that coordination in the 
language of this proposed bill, but it's certainly there in 
current law, so you would have that coordination.
    Ms. Fosmark. Yes. And we do understand--I do understand 
that there is that coordination and that they must come to the 
council to find a proper course of action. It says that, as 
well. Our problem is that, rather than come to the council, 
they're announcing that marine protected areas and zoning 
closures in marine reserves are necessary in other sanctuaries 
south of there, and the fear that fishermen have is that they 
will lose fishing grounds. And if they don't have access to 
their fishing grounds, including crab and salmon, which is a 
very important fishery to those regions, they will suffer, and 
those communities will suffer. And this is the main problem 
we're having, is that zoning is not being considered a fishing 
regulation.
    Senator Cantwell. Dr. Williams, would you like to comment 
on that?
    Dr. Williams. H.R. 1187 addresses Cordell Bank and Gulf of 
the Farallones National Marine Sanctuaries, and these 
sanctuaries have forged a very cooperative and responsive 
relationship with the fishermen. This--examples of this are on 
the record of the House subcommittee consideration of this 
legislation. And there has never been a problem in those 
sanctuaries with cooperating and being responsive to the 
fishermen's needs.
    Zeke Grader, who is the Executive Director of the Pacific 
Coast Federation of Fishing Associations, which is the largest 
on the West Coast, submitted a written statement that stated, 
``The language, as it exists in 1187, was a model for the rest 
of the Nation.'' Other sanctuaries have different relationships 
with the fisheries. We are talking about the Gulf of the 
Farallones and Cordell Bank managers, and they have excellent 
relations. They have included fishermen, and they have--if you 
read the notes in the fisheries--Pacific Fisheries Management 
Council and the Sanctuary Advisory Council, you can see that 
over the past few years there has been exchange about fishing 
in these sanctuaries. Also, the issue here is not the 
designation of marine protected areas, it's expansion of the 
boundaries of the Cordell Bank and Gulf of the Farallones 
National Marine Sanctuaries.
    Senator Cantwell. Thank you.
    Well, we've been joined by my colleague Senator Boxer. 
Thank you very much for being here. And I obviously--know you 
have great interest in at least one of these two areas----
    Senator Boxer. Yes.
    Senator Cantwell.--we're hearing about this morning. So, 
I'm going to turn the questioning over to you.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much.
    And I just wanted to explain that all morning I've been 
chairing a hearing about perchlorate, over in--and the dangers 
of perchlorate--over at EPW, and I'm done. I turned over the 
gavel so I could stay here, because this is such an important 
matter. And I thank the witnesses.
    And I thank you so much, and Senators Inouye and Stevens, 
for having a hearing here.
    If it's OK with you, could I respond to this fishery issue 
here and then could I give a--I think it's about a--oh, 4-
minute opening statement? Because--and I want to show you some 
photos and such, and then I'll be done.
    Senator Cantwell. Certainly.
    Senator Boxer. I don't have a lot of questions, because, 
frankly, I think the questions have been answered by my 
fishermen up there. I do understand and respect the comments of 
Ms. Fosmark, but we are talking about a sanctuary in the 
northern part--it's not the Monterey Bay. As a matter of fact, 
in the bill itself, in H.R. 1187--and I quote from the written 
statement of Zeke Grader, Executive Director of the Pacific 
Coast Federation of Fishermen's Association; he made this 
statement to the House. He said, ``Finally, H.R. 1187 makes 
clear that existing fishery entities''--and he lists who they 
are--California Department of Fish and Game, he lists them 
all--``retain sole activity over fisheries within sanctuary 
water.'' Section (3)(c) effect on fishing activities says in 
our bill, ``Nothing in this Act is intended to alter any 
existing authorities regarding the conduct and location of 
fishing activities in the sanctuaries.''
    I think this is a--if I could say, a strong man, strong 
person--because it's just not true. And I see our fishermen 
from that area being so supportive. They are one of the lead 
supporters of this bill. I mean, what--let me tell you what 
Zeke Grader said, Ms. Fosmark. He said, ``In supporting the 
creation of the Gulf of the Farallones Sanctuary, our 
organization sought to protect some of the best fishing grounds 
along the Pacific Coast, not to close them.''
    And so, I think, you know, if there are some issues--maybe 
there is a little misunderstanding, and I would love to meet 
with Ms. Fosmark, because I love the work she does. But, I just 
feel there is a disconnect here between the reality and some of 
the things you've said.
    And I think that when the House passes a bill--what was it? 
By voice vote? Is that right--a bill by voice vote, frankly I 
don't think there is any controversy, really, because it 
wouldn't have done that.
    So, our important bill will protect one of the world's most 
biologically diverse and productive regions. And I wanted to 
compliment Congresswoman Lynn Woolsey, Senator Feinstein, and 
again say, to have a bill pass by voice vote in the House is 
almost impossible, and this one did it, and I would hate to see 
any slowdown here. I'd like to move this along. I feel strongly 
about it.
    I want to show you the photo of the Sonoma coast to show 
you how truly spectacular and pristine this area is. And, Madam 
Chairman, I don't have to prove anything to you, but I always--
one of the favorite things I do as a Senator is work toward 
these kinds of bills, and wilderness bills, like you, and I 
want to share this.
    Established in 1980 and 1989, respectively, the Gulf of the 
Farallones and Cordell Bank National Marine Sanctuaries have 
helped protect the marine waters and the coastline that are 
quintessentially Californian and quintessentially West Coast. 
My bill will protect an even greater part of my state's coast 
by expanding the sanctuaries' boundaries to include more of 
northern California's great upwelling marine area, one of only 
four on the planet.
    And I want to take just a moment. Upwelling areas are 
places where deeper water comes to the surface, bringing the 
nutrients needed by marine algae to grow and support all higher 
forms of marine life. Though upwelling areas comprise only 1 
percent of the world's ocean, they produce 20 percent of the 
fish. Let me say it again: 1 percent of the world's ocean are 
upwelling areas, but they produce 20 percent of the fish. So, 
we can't turn away and--and especially we can't turn away in 
the name of saving fisheries. We need to save the fisheries by 
protecting these areas.
    The area from Point Arena to Bodega Bay, currently outside 
the sanctuary boundary, is particularly important. It has the 
most intense upwelling in all of North America, and an enormous 
capacity to support marine life. And I am proud that Senator 
Feinstein's and my bill will expand the sanctuary boundaries to 
protect this upwelling area.
    The unique productivity of this region is illustrated by 
the abundance and diversity of marine life it supports. And I 
want to show a series of charts here: 36 species of marine 
mammals, including the endangered blue and humpback whales. 
And, Madam Chair, we have worked so hard on protecting these 
creatures. Numerous coastal and migratory seabirds--we'll show 
you--oh, that's another beautiful--that is a seal, and you 
don't have it listed here, but I know that's a seal. And--
    [Laughter.]
    Senator Boxer.--coastal and migratory seabirds, including 
the blackfooted albatross. Do we actually have that one? I'm 
getting you very confused. This is--these are the seabirds. 
Look at them. Endangered leatherback turtles and coho salmon.
    And this is the--this is the beauty. Expanding the existing 
sanctuaries to include this area is necessary to protect this 
remarkable ecosystem from pollution and habitat degradation.
    I want to list the broad support the bill has: the 
California Coastal Commission, the California State Lands 
Commission, the counties of Sonoma, Marin, and Mendocino, and 
the City of San Francisco. Madam Chair, those are the areas 
that have the elected officials that are in closest proximity 
to this. Also supported by the fishermen in the area, including 
the Pacific Coast Federation of Fishermen's Association, by far 
the largest and most active association of commercial fishermen 
on the West Coast.
    The fishermen, most of all, recognize the urgency of 
passing this legislation: to preserve the water quality and 
habitat essential for good fishing. Our bill will help preserve 
an incomparable gem of an ecosystem, and I certainly look 
forward to working with you and our colleagues to move this 
important legislation forward.
    And, again, I want to thank Dr. Williams. And, Ms. Fosmark, 
I hope after the hearing we can have a chance to chat, as well.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Thank you Chairwoman Cantwell and Ranking Member Snowe, and 
Chairman Inouye and Ranking Member Stevens, for including ``the Gulf of 
the Farallones and Cordell Bank National Marine Sanctuaries Boundary 
Modification and Protection Act'' in today's hearing. This important 
bill would protect one of the world's most biologically-diverse and 
productive marine regions. I am proud to be joined in this effort by 
Congresswoman Lynn Woolsey and Senator Dianne Feinstein, and pleased 
that this bill passed the House of Representatives in March by voice 
vote.
    This photo of the Sonoma Coast shows how truly spectacular and 
pristine this area is. Established in 1981 and 1989 respectively, the 
Gulf of the Farallones and Cordell Bank National Marine Sanctuaries 
have helped protect the special marine waters and coastline that are 
quintessentially Californian. My bill will protect an even greater part 
of my state's coast by expanding the Sanctuaries' boundaries to include 
more of northern California's great ``upwelling'' marine area, one of 
only four on the planet.
    Upwelling areas are places where deeper water comes up to the 
surface, bringing the nutrients needed by marine algae to grow and 
support all higher forms of marine life. Though upwelling areas 
comprise only 1 percent of the world's ocean they produce 20 percent of 
its fish--that's right, 20 percent. The area from Point Arena to Bodega 
Bay, currently outside the sanctuaries' boundaries, is particularly 
important since it consistently has the most intense upwelling in all 
of North America and an enormous capacity to support marine life. I am 
proud that my bill will expand the sanctuaries' boundaries to protect 
this upwelling area.
    The unique productivity of this region is illustrated by the 
abundance and diversity of marine life it supports: 36 species of 
marine mammals, including the endangered blue and humpback whales; 
numerous coastal and migratory seabirds including the black-footed 
albatross; endangered leatherback turtles; and coho salmon. Expanding 
the existing Sanctuaries to include this area is necessary to protect 
this remarkable ecosystem from pollution and habitat degradation.
    My bill has broad, local support, including from the California 
Coastal Commission, the California State Lands Commission, the Counties 
of Sonoma, Marin, and Mendocino, and the City of San Francisco. It is 
also supported by fishermen, including the Pacific Coast Federation of 
Fishermen's Associations, by far the largest and most active 
association of commercial fishermen on the West Coast. Fishermen 
recognize the urgency of passing this legislation to preserve the water 
quality and habitat essential for good fishing.
    My bill will help preserve an incomparable gem of an ecosystem. I 
look forward to working with my colleagues to move this important 
legislation.
    I would like to enter the following documents for the record: *
---------------------------------------------------------------------------
    * All of these documents are retained in the Committee's files.

    Senator Cantwell. Well, thank you, Senator Boxer. And thank 
you for making it over, obviously, from chairing your own 
hearing on an important topic, to being here.
    And I think that concludes where we are today with our 
hearing on two topics, both the marine sanctuary and the NOAA 
budget hearing. And so, I thank the witnesses for being here to 
testify.
    And we're adjourned.
    [Whereupon, at 12:02 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. David Vitter, U.S. Senator from Louisiana
    The United States has the greatest amount of coastline in the 
world, and more than half of the Nation's residents live in coastal 
counties. Our Nation will be increasingly affected by coastal issues, 
and NOAA must be equipped to handle them. Louisianans are concerned 
about many of these issues, including sustainable and productive 
fisheries, hurricane and storm surge forecasting, and coastal erosion 
and restoration.
    I am concerned by the distribution of funds in the President's FY 
2009 NOAA budget. This year's budget of $4.1 billion represents a 
modest increase of $202 million over the FY 2008 enacted levels, but 
comes at a $40 million cost for the ``wet side'' programs of NOAA.
Hurricane Research
    I am pleased that NOAA is supporting more hurricane research. 
Additional research, forecasting, and infrastructure will help mitigate 
the impact of hurricanes along our coasts. Increases for the Hurricane 
Weather Research and Forecasting model, hurricane data buoys in the 
Gulf of Mexico and elsewhere, and additional aircraft hours dedicated 
to hurricane research are a step in the right direction.
    I also urge NOAA to work toward better storm surge predictions. I 
have previously introduced legislation on this important topic and 
believe that we need to make significant progress on storm surge 
prediction. Hurricane Katrina's storm surge flooding was devastating, 
and I hope NOAA can advance the state of the science in this area to 
help prevent more loss of life and property.
Hypoxia and Harmful Algal Blooms
    I am also concerned about the twin problems of hypoxia and harmful 
algal blooms. Louisiana's offshore hypoxic zone is growing and impacts 
our tradition of productive fisheries. In 2007 the dead zone was 7,900 
square miles--that's roughly the size of New Jersey.
    Fish and shrimp cannot survive in the dead zone. Loss of ocean 
habitat in the future through dead zone expansion may have severe 
consequences for Louisiana's commercial fisheries, yet plans to reduce 
the size of the dead zone to 2,500 square miles by 2015 are not on 
track.
    In addition, harmful algal blooms damage commercially valuable 
fisheries and shellfisheries and threaten public health. I urge NOAA to 
devote more energy to further research and practical control and 
mitigation solutions for harmful algal blooms and hypoxia.
Marine Monuments
    As this hearing also dealt with some marine sanctuary issues, I'd 
like to reiterate my opposition to any plans for a new Gulf of Mexico 
marine monument. The use of the Antiquities Act to create a monument 
could restrict vitally important marine areas without the benefit of 
public participation and stakeholder input. The Gulf is home to 
nationally significant commercial and recreational fisheries as well as 
critical energy infrastructure, and a monument designation would take 
away these and other voices.
    The two existing NOAA sanctuaries in the Gulf of Mexico established 
public forums that involve all interested parties in decisions to 
protect marine areas. I urge that proposals in the future continue 
using these protocols, and not the Antiquities Act, so as to maintain a 
trusted, transparent public process.
    I would like to add a letter signed by Sens. Shelby, Sessions, and 
myself opposing marine monuments to the record.
                                 ______
                                 
                                                U.S. Senate
                                     Washington, DC, April 21, 2008
Hon. James Connaughton,
Chairman,
Council on Environmental Quality,
The White House,
Washington, DC.

Dear Chairman Connaughton:

    We are writing to express our strong objections regarding a 
proposal to create a network of marine monuments within the Gulf of 
Mexico. This proposal, currently being circulated within the 
Administration, could have grave impacts for the Gulf Coast's 
recreational fisheries, commercial fisheries, marine cargo shipping, 
and domestic offshore energy industry. Each of these industries is of 
fundamental importance to our regional and state economies, and the 
Nation's economy as well.
    It is our understanding that you and representatives from the 
National Oceanic and Atmospheric Administration have discussed a plan 
for the President to declare a network of marine monuments throughout 
the Gulf of Mexico under the Antiquities Act of 1906. We are concerned 
that an attempt to use this authority could restrict vitally important 
marine areas without the benefit of public participation and 
stakeholder input.
    The Gulf of Mexico is home to productive commercial and 
recreational fisheries that have an annual economic impact of over $4.5 
billion. A number of the Nation's top ports are also located in the 
Gulf region. Maritime infrastructure and fisheries are still recovering 
after the devastating 2005 hurricanes, while facing increased 
competition from subsidized foreign aquaculture and unsustainable 
fishing practices of other nations.
    In addition to nationally significant fisheries, the Gulf Coast has 
the greatest concentration of energy infrastructure in the world, with 
an estimated 4,000 of the world's 7,000 offshore platforms located 
here. The Gulf of Mexico supplies up to 30 percent of the Nation's 
energy needs, and provides a source of secure domestic energy in a time 
of increasing volatility in the world energy market.
    We support the protection of environmentally sensitive marine 
areas, and feel that the best way to continue to protect natural 
resources is to fully engage the public interest. Recommendations to 
expand protected areas should be based on recognized need, with sound 
scientific justification.
    The Gulf of Mexico Fishery Management Council, which represents a 
spectrum of stakeholder interests from all five Gulf states, is 
specifically tasked to manage fisheries and identify areas of 
particular concern. The Flower Garden Banks and Florida Keys National 
Marine Sanctuaries Advisory Councils have already established public 
forums which involve all interested parties in decisions to protect 
marine areas. Any proposal under the Antiquities Act would short-
circuit these councils, disrupting a trusted, transparent public 
process.
    We strongly urge you to refrain from moving forward on a Gulf of 
Mexico Marine Monument. This Administration does not have enough 
remaining time to fully consider the variety of public interests that 
must be represented, and such a significant project should not move 
forward without the participation and support of the many stakeholders 
involved.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                Vice Admiral Conrad C. Lautenbacher, Jr.
    Question 1a. Admiral Lautenbacher, while I am pleased to see a 
request of $60.3 million for the continuation of construction for the 
Pacific Regional Center, I am concerned that this level of funding is 
sufficient for only two of the three buildings included in the initial 
plan. How do you intend to provide for the construction of the third 
building?
    Answer. The multi-year funding request contained in the FY 2009 
President's Budget will fund renovation/construction of two buildings 
and other support structures for central IT/network infrastructure 
(``main distribution facility''), security command control center, and 
other central building operations space required for the security and 
operations of the entire Pacific Regional Center complex. The Pacific 
Tsunami Warning Center and International Tsunami Information Center and 
several other small programs, will remain fully operational in off-
site, primarily leased space. The multi-year budget request, if 
appropriated, will allow us to proceed with the consolidated Pacific 
Regional Center project.

    Question 1b. The unfunded building is intended to house the central 
computer system, correct? Is this system not critical to the 
operational capabilities of the facilities as a whole?
    Answer. The President's FY 2009 Budget Request provides funding for 
a revised building plan in which the critical central computer system 
is housed in Building A. As mentioned above, the current plan for 
Building A supports the central IT/network infrastructure (``main 
distribution facility''), security command control center, and other 
central building operations space required to support the security and 
operations of the entire complex.

    Question 1c. If the requested funds for the Pacific Regional Center 
are not appropriated in FY 2009, what will be the impact to this 
project?
    Answer. If the funds requested for the Pacific Regional Center are 
not appropriated, due to a year-long continuing resolution or 
reductions effected during the appropriations process, there will be 
substantial delays in both schedule and cost associated with the 
project. We estimate there will be a 10-15 percent cost escalation for 
each year construction is delayed; for the Pacific Regional Center, 
this would amount to a $20-30 million cost growth.
    In addition to the cost impact, there are increased risks to the 
NOAA programs supported at NOAA's current facilities, should the 
project be delayed. The Pacific Regional Center replaces dispersed, at-
risk, and overcrowded buildings with consolidated, state-of-the-art 
facilities supporting the critical science, research and operational 
missions conducted by NOAA in Hawaii.

    Question 1d. Admiral, the Pacific Regional Center in Hawaii 
represents a unique opportunity for NOAA to consolidate its various 
programs and organizations under one roof and to utilize existing 
Federal property. However, I am concerned that NOAA will face funding 
challenges with the operation of this Center in the future, similar to 
those challenges faced in the Seattle, Washington, Center. How does the 
NOAA intend to fund the day-to-day operating costs at the new Center 
and to plan for out-year funding requirements for repairs at the 
Center?
    Answer. Costs at an owned-facility can be categorized into three 
categories:

  <bullet> Annual operating expenses (e.g., utilities, maintenance 
        contracts).

  <bullet> Sustainment expenses (predictable investments to maintain 
        the functionality of a building); e.g., regularly scheduled 
        replacement of building systems and equipment).

  <bullet> Repair and restoration expenses (unpredictable repair or 
        replacement of building systems to restore operations).

    The first category (annual operating expenses) is predictable, and 
relatively stable from year-to-year. The second category (sustainment 
expenses), is predictable, but not as stable from year-to-year, since 
it is affected by the life-cycle of specific building systems, and the 
costs of building systems. For example, a roof may only need to be 
replaced every 20 years (predictable), but its replacement costs are 
likely to cause large spikes in required funding (not stable). The 
final category (repair/restoration) is not predictable, and also not 
stable from year-to-year; it is also affected by failure to adequately 
fund sustainment costs at a facility.
    The preferred model for supporting these types of costs at the 
Pacific Regional Center would be as follows:

        1. Annual operating expenses (including sustainment costs): 
        Annual operating expenses would be paid through current 
        program/line office ``tenant'' transfers (e.g., for utilities, 
        maintenance contracts, etc.) toward the overall costs of 
        building operations. Any additional operational costs at the 
        new Center above historical cost levels incurred in the 
        separate facilities would be requested through the 
        appropriations process as an increase in the Operations, 
        Research, and Facilities (ORF) account.

        2. Repair and restoration costs: These costs would be funded 
        through the establishment of a dedicated budget line within the 
        Procurement, Acquisition, and Construction account. This 
        approach provides a transparent way to evaluate and budget for 
        major facility repairs during each fiscal cycle.

    Question 2a. The NOAA budget requests an additional $4.5 million 
for non-labor related adjustments, such as fuel costs. Given record 
high energy prices, is this increase sufficient for NOAA to meet rising 
fuel costs for its aircraft and vessel operations?
    Answer. At the time of our FY 2009 budget development, NOAA 
projected ship diesel fuel to cost $2.47 per gallon. The FY 2009 
President's Budget request includes approximately $14.9 million for 
ship fuel. NOAA expects the average price for fuel for the remainder of 
FY 2008 to be about $4.12 per gallon. In the event that this price 
remains the average for FY 2009, NOAA would need approximately an 
additional $10.4 million over the planned amount to cover diesel fuel 
for the fleet to maintain planned FY 2009 operation levels.
    [NOAA attempts to use a Department of Defense fueling contract to 
refuel its ships whenever feasible. However, depending on their in-port 
location, sometimes the ships must refuel paying the prevailing 
commercial market rate.]
    Rising fuel prices have also impacted NOAA's ability to charter 
days at sea. The day rate to charter both UNOLS and commercial ships 
has increased due to the rise in fuel costs. For example, R/V REVELLE's 
FY 2007 day rate was $26,200/day. As of March 2008, this rate is now 
$32,000/day, a 22 percent increase. Other UNOLS vessels of the same 
class have also correspondingly increased their day rates.
    As with the rising costs of ship fuel, aviation fuel prices have 
also increased. During development of the FY 2009 budget, NOAA 
projected aircraft fuel to cost $2.93 per gallon. The FY 2009 
President's Budget Request includes approximately $4.0 million for 
aircraft fuel. However, fuel prices paid by NOAA aircraft have averaged 
$3.79 per gallon in FY 2008, and we estimate that fuel will cost $4.20 
per gallon in FY 2009. This estimate translates into an FY 2009 
aviation fuel cost of approximately $5.8 million for NOAA aircraft to 
maintain planned operation levels.

    Question 2b. If this funding level is not sufficient, how do you 
plan to address the shortfall?
    Answer. High diesel fuel prices may limit NOAA's ability to perform 
scientific operations at sea. At the budget planning estimate of $2.47 
per gallon for diesel fuel, NOAA ships were expected to support 3,390 
operating days in FY 2009. Through June 2008, the NOAA fleet has 
averaged $3.05/gallon for the fiscal year. When NOAA finalizes its 
Fleet Allocation Plan in the year of execution, we will update the 
estimate for operating days.
    Escalating aviation fuel prices will also cut into NOAA's flight 
hours. At the budgeted rate of $2.93 per gallon, we expected NOAA 
aircraft to support 2,845 flight hours in FY 2009. At the projected 
rate of $4.20 per gallon, NOAA could provide 1,750 flight hours--a 
reduction of 1,095 hours or a 38 percent decrease.
    To compensate for higher than planned ship and aircraft fuel 
prices, one or more NOAA platforms may need to be brought off-line for 
the year or platforms may experience a reduction in operating days or 
flight hours. The NOAA Fleet Council will evaluate these measures for 
their programmatic and public impacts before NOAA makes its final 
decisions.

    Question 3a. In its vision statement, the NOAA underscores the 
value of an informed society. However, the President's FY 2009 budget 
proposes to cut funding for NOAA's education programs by 48 percent. 
Admiral, how does the NOAA intend to educate and inform the public 
without adequate education programs?
    Answer. NOAA has requested $16.5 million in FY 2009 for the NOAA 
Education Office. NOAA also funds education activities through a number 
of programs in the line offices. For example, the President's FY 2009 
Budget Request includes $3.2 million for educational activities 
conducted through the National Marine Sanctuaries Program, the National 
Estuarine Research Reserves, and the Coral Reef Conservation Program, 
all within the National Ocean Service.
    NOAA is currently updating its Education Plan as requested by the 
America Creating Opportunities to Meaningfully Promote Excellence in 
Technology Education, and Science Act. In addition, NOAA has contracted 
the National Academy of Sciences to perform a review of its Education 
program and provide recommendations for optimizing NOAA's investment in 
education. That review is currently underway and the results will be 
considered as NOAA develops future budget requests.

    Question 3b. What is the NOAA doing to assert the value of its 
education programs both within the government and externally to the 
public?
    Answer. NOAA has a vision for ``an informed society that uses a 
comprehensive understanding of the role of the oceans, coasts and 
atmosphere in the global ecosystem to make the best social and economic 
decisions.'' Inherent in this vision is the need for an environmentally 
literate public that is aware of, and capable of understanding, issues 
affecting Earth's environment. NOAA generates data and scientific 
findings that are crucial for assessing the state of the oceans and the 
atmosphere. NOAA is actively working to assure that these unique data 
and findings are provided to the public in a focused manner that will 
foster advancement of environmental literacy.
    In 2007, Congress recognized the role of NOAA in Earth system 
science education with the passage of the America COMPETES Act (P.L. 
110-69). This legislation mandates NOAA to ``conduct, develop, support, 
promote, and coordinate formal and informal education activities at all 
levels to enhance public awareness and understanding of ocean, coastal, 
Great Lakes, and atmospheric science and stewardship by the general 
public and other coastal stakeholders, including underrepresented 
groups in ocean and atmospheric science and policy careers.''
    NOAA is actively engaged, both within the Federal Government and 
externally, to meet these requirements.
Interagency Efforts
    NOAA is the co-chair in the Interagency Working Group on Ocean 
Education (IWG-OE), established by the Interagency Committee on Ocean 
Science and Resource Management Integration (ICOSRMI). The IWG-OE is 
tasked to implement recommendations of the U.S. Ocean Action Plan to 
collaborate across Federal agencies in order to increase ocean literacy 
and build a future work force. Formally established in 2006, the 
working group has been working to compare agency programs and identify 
common priorities. The IWG-OE's efforts:

  <bullet> Address lifelong learning through formal and informal 
        education;

  <bullet> Leverage resources by broadening and strengthening networks 
        and investing in common messages;

  <bullet> Recognize ocean education as a specific expression of Earth 
        system science and environmental education and link to these 
        important concepts; and

  <bullet> Promote the &3Ocean Literacy Essential Principles and 
        Fundamental Concepts &1as a model framework for organizing our 
        efforts to increase understanding of the relevance of the ocean 
        to our everyday lives.

External Efforts
Partnerships
    NOAA has established strategic partnerships with formal and 
informal education groups that promote the use of NOAA products and 
services and contribute toward the development of an environmentally 
literate public. Key partnerships include:

  <bullet> National Science Teachers Association (NSTA): NOAA is 
        working with NSTA, through a Cooperative Agreement, to develop 
        a series of education products for teachers on topics aligned 
        to NOAA's mission. These products provide tens of thousands of 
        science teachers with professional development and classroom 
        resources in the form of Science Objects, SciGuides, and 
        WebSeminars.

  <bullet> Ocean and Climate Literacy efforts: To ensure consistency 
        and incorporation of key NOAA subject areas, NOAA engaged 
        external partners, both Federal and non-, for the development 
        of both the Ocean and the Climate Literacy essential principles 
        and fundamental concepts. NOAA is working with the education 
        community toward broad adoption of these principles in the 
        classroom and in free-choice learning venues.

  <bullet> Smithsonian Institution's Ocean Initiative (OI): NOAA has 
        made a significant commitment to support the OI. Major NOAA-
        Smithsonian partnership efforts include, a national exhibition 
        on the ocean at the National Museum of Natural History--the 
        Ocean Hall and a virtual extension of the exhibit through an 
        Ocean Web Portal. The mission of the OI is to advance 
        scientific understanding of the ocean and increase public 
        awareness of its importance to all life. It is expected that 
        over 6 million visitors will visit the Ocean Hall and over 10 
        million visitors will experience the Ocean Web Portal every 
        year.

  <bullet> Coastal Ecosystem Learning Centers (CELC) Network: In 
        partnership with Coastal America, NOAA is working with the CELC 
        Network to educate and involve the public in protecting our 
        Nation's coastal and ocean ecosystems. For example, NOAA's 
        ``Ocean Today'' kiosk (a continuously updated interface to the 
        latest ocean discoveries & originally developed for the 
        Smithsonian's Ocean Hall) is being pilot tested in five CELCs 
        for possible wider use within the network.

  <bullet> Science On a Sphere (SOS) Collaborative Network: NOAA has 
        created a collaborative network of more than 30 informal 
        science education institutions and universities interested in 
        the development of spherical display technologies for showing 
        current data about Earth processes. Most of these partners have 
        created public exhibits around NOAA's Science On a Sphere and 
        are evaluating the impact it has on the audience. Through this 
        network NOAA promotes sharing of best practices and content for 
        these data visualization systems, and solicits feedback on how 
        to improve its data products for the informal science education 
        community.

    Question 4a. I understand that the cost of fully implementing the 
Magnuson-Stevens Fishery Conservation and Management Act is expected to 
be, at minimum, $75 million for FY 2009. Is this correct?
    Answer. The cost of fully implementing the Magnuson-Stevens 
Reauthorization Act (MSRA) in FY 2009 is $45.3 million, the amount 
requested in NOAA's FY 2009 Budget request. This is an increase of 
$31.8 million over the $13.5 million provided in FY 2008. The $45.3 
million will fully meet the FY 2009 requirements necessary to fulfill 
the top MSRA priorities of ending overfishing, implementing widespread 
market-based fishery management, and increasing international 
cooperation.

    Question 4b. Is the $31.8 million requested in the President's FY 
2009 budget for Magnuson-Stevens implementation sufficient to achieve 
the mandates set forth in the Act by 2011?
    Answer. NOAA's requests over the last few years have been 
increasing in order to meet the highest priority MSRA requirements. In 
FY 2008 Congress provided NOAA $13.5 million for MSRA and closely 
related items, a decrease of $16.6 million compared to the President's 
budget. This year, we are requesting an additional $31.8 million for a 
total of $45.3 million to continue MSRA implementation.
    The NOAA FY 2009 budget request focuses on the top MSRA priorities 
of ending overfishing by 2011, implementing widespread market-based 
fishery management, and increasing international cooperation.
    The FY 2009 budget request will help end overfishing by ensuring 
that annual catch limits (ACLs) are put into place. The request 
supports widespread market-based fishery management through the 
increased use of limited access programs, and will support increased 
international cooperation on issues such as illegal, unreported, and 
unregulated fishing and international agreements as mandated by the 
MSRA.

    Question 4c. How does NOAA plan to fulfill the mandates set forth 
in the Magnuson-Stevens Act with inadequate funding?
    Answer. The $45.3 million in the FY 2009 request for MSRA 
implementation will keep NOAA on pace to meet the 2010/2011 deadlines 
for ending overfishing and establishing Annual Catch Limits.

    Question 5a. The effects of marine debris on coral reefs are 
particularly evident in the Northwestern Hawaiian Islands, which 
include 69 percent of all U.S. coral reefs by area. While I am happy to 
see that the President has included $4 million for the NOAA Marine 
Debris program in the FY 2009 request, do you feel that, given the 
scope of this issue, the request sufficiently addresses this pressing 
issue?
    Answer. The President's Budget request for $4 million will allow 
the NOAA Marine Debris Program to address the most pressing issues of 
marine debris through several different avenues, including funding 
assessment and research projects, removal projects, and outreach and 
education activities. All of these are done in conjunction with other 
organizations and research facilities, so we can leverage the amount of 
funding received from Congress. We are also beginning to better 
coordinate Federal activities and needs to achieve more by capitalizing 
on each other's activities.

    Question 5b. As part of the enacted Marine Debris Research, 
Prevention, and Reduction Act, Congress instructed the NOAA to create a 
Federal Information Clearinghouse to provide information about the 
potential sources of Marine Debris. Can you confirm that the NOAA is 
working toward implementing this database in accordance with all of the 
requirements contained in the Act?
    Answer. The President's FY 2009 Budget Request provides NOAA funds 
to start the development and implementation of the Federal Information 
Clearinghouse, as required by the Marine Debris Research, Prevention, 
and Reduction Act. NOAA is working toward implementing this data base, 
and to date has been engaged in the planning and scoping for the 
Clearinghouse. A public-use version is expected to become available in 
FY 2010.

    Question 6a. There is growing public interest in and support for 
marine sanctuaries to protect and conserve valuable marine resources 
and ecosystems. Is NOAA able to meet the management and conservation 
needs at existing sanctuaries with the proposed budget level?
    Answer. The President's FY 2009 Budget Request provides a total of 
$49.9 million for the 13 national marine sanctuaries and the 
Papahanaumokuakea Marine National Monument. With these funds, NOAA is 
able to meet the management and conservation needs of our existing 
sanctuaries. The National Marine Sanctuary System encompasses over 
18,000 square miles of waters and marine habitats, and increases our 
knowledge and understanding of complex marine ecosystems. With the 
increasing environmental pressures on our Nation's coastal areas, the 
importance of maintaining a system of marine protected areas is 
evident.

    Question 6b. If the proposed sanctuary expansions become Federal 
law, can you ensure that the additional resources needed for these 
sanctuaries will not have a negative impact on the management and 
conservation of the existing areas within the National Marine Sanctuary 
System?
    Answer. NOAA will work to ensure that existing sanctuaries are not 
adversely impacted, should the proposed sanctuary expansions (Gulf of 
the Farallones, Cordell Bank, and Thunder Bay National Marine 
Sanctuaries) be enacted.

    Question 7. Admiral Lautenbacher, I want to thank you for your 
service to NOAA for the past 7 years. Reflecting on your service, what 
would you identify as the top challenges facing the NOAA now and in the 
future? How do you hope to address these challenges?
    Answer. NOAA faces many challenges as the country becomes more 
dependent on the products and services we provide.
    Internally, we have tried to break down stovepipes that existed 
between our different line offices and have instituted a rigorous 
budget process that directly links funding to outcomes. Through this 
process, we identify specific needs of the American public and are able 
to bring to bear all of our expertise throughout the agency to meet 
those needs.
    An Organic Act will give statutory guidance to the Agency and will 
give future NOAA leaders the tools they need to meet those goals.
    NOAA continues to be challenged to improve the transition from 
research to operations. As an operational agency, NOAA has to ensure 
that fundamental research is focused on improving our operational 
capabilities. In some cases, such as our satellite program, this means 
improving working relationships across agencies as we've been doing 
with NASA. But often, it means simply breaking down historic barriers 
between our researchers and our operational staff.
    With climate variability and change profoundly influencing economic 
prosperity, human health, and national security, NOAA stands committed 
to providing the public with relevant and reliable climate information 
in support of policy decisions in government and the private sector. To 
this end, NOAA will seek to leverage its research portfolio, monitoring 
capacity, and operational infrastructure with those capabilities of its 
partners.
    Despite these challenges, NOAA is made up of more than 12,000 
people who believe deeply in the agency and its mission. I have every 
reason to believe they will continue to rise to meet the challenge as 
they have always done in the past.

    Question 8. NOAA is charged with collecting data to help the public 
understand, plan for, and respond to the impacts of climate change. In 
light of a recent study indicating that the Federal Government's 
efforts fall short in this regard, how will you ensure that NOAA's 
climate data and services are accessible and useful to decisionmakers, 
especially at the local level?
    Answer. NOAA's National Data Centers for Climate, Geophysics, 
Oceans and Coasts work very closely with the climate science community 
to ensure the data they archive is readily available to support 
deliberation and action by decisionmakers at international, national, 
regional, and local levels.
    NOAA received a 2007 report from the National Academy of Sciences 
entitled: Environmental Data Management at NOAA: Archiving, 
Stewardship, and Access. NOAA is developing the necessary management 
and business processes to implement the nine recommendations from this 
report. NOAA's National Data Centers work very closely with regional 
and state climatologists to ensure data are fully available to them to 
support customized climate products that are useful at these levels.
    Looking to the future, concurrently with the NOAA satellite 
acquisition programs, NOAA's National Data Centers have been developing 
and implementing the next generation data archive and access 
infrastructure--the Comprehensive Large Array-data Stewardship System 
(CLASS). CLASS will ensure that NOAA will be able to deliver the large-
sized complex climate data and products derived from these next 
generation satellite systems to users in a timely manner. The 
Administration recognizes the importance of providing continuity of 
data from high-priority climate sensors to the climate science 
community. Included in the overall strategy is an element focused on 
the stewardship of climate data records that would be funded through 
the President's FY 2009 Budget Request for climate sensors.
    Finally, data from NOAA's Data Centers are currently being 
incorporated in monthly, seasonal, and annual climate assessments, 
drought outlook products, and ocean climatology products, as well as 
many other climate data products. Full funding of the President's FY 
2009 Budget Request for NOAA's Data Centers and Information Services 
will ensure that NOAA's National Data Centers continue to provide these 
valuable services to regional and local climate data users and continue 
to develop the necessary processes to deliver future higher resolution 
data.

    Question 9. Admiral Lautenbacher, it has come to my attention that 
the Pacific Region is the only Weather Service Region whose Director is 
not a Senior Executive Service member, also known as a ``SES.'' Why is 
this position not a SES position? Does NOAA plan to make this a SES 
position?
    Answer. Jack Hayes, Director of the National Weather Service for 
only the past 9 months, is evaluating his corporate leadership and 
their roles and responsibilities. He is working with NOAA's Workforce 
Management Office and NOAA's Operating Executive Resources Board to 
evaluate the roles and responsibilities of the Pacific Region Director 
to determine if these roles and responsibilities meet the criteria for 
the Senior Executive Service.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                Vice Admiral Conrad C. Lautenbacher, Jr.
    Question 1a. The Administration's proposed NOAA budget is an 
increase of 5.2 percent over the FY08 enacted level. All of this 
increase, however, goes toward the satellites acquisition program, with 
the National Ocean Service, National Marine Fisheries Service, and 
Oceanic and Atmospheric Research all receiving cuts. Are the satellite 
program's cost increases eating away at our Nation's oceans programs?
    Answer. NOAA has a diverse mission ranging from managing fisheries 
to predicting severe weather. The Administration's request provides a 
balanced set of priorities to sustain core mission services and address 
our highest priority program needs. Even within a restrained fiscal 
environment, however, the President's FY 2009 Budget Request includes 
over $49 million over the prior year request in increases in support of 
the President's Ocean Initiative. $21 million is new funding over the 
prior year request that directly supports the additional requirements 
of the reauthorized Magnuson-Stevens Fishery Conservation and 
Management Act. As in the past, NOAA will continue to work within the 
Administration and with Congress to ensure the needs of ocean, coastal 
and fisheries program are addressed.

    Question 1b. Are the satellite cost increases presenting a 
significant budget challenge for NOAA? How are they impacting your 
ability to support NOAA's other agencies?
    Answer. Although satellite cost increases continue to present a 
significant challenge for NOAA, we have an extensive planning process 
that ensures the highest priorities are addressed in our annual budget 
request, and that all programs receive appropriate funding. We have not 
cut or taxed other programs to fund increases in satellites, and we 
work continuously within the Administration and with Congress to create 
a balanced portfolio of programs to address the Nation's most critical 
needs.

    Question 2a. The 2010 Census has recently experienced major cost 
overruns and acquisition problems. In April, these problems prompted 
Secretary Gutierrez to submit a plan to Congress, including a request 
to transfer $232 million in FY 2008 from other agencies (including $27 
million from NOAA) to the Census Bureau. Additionally, up to $700 
million more will be needed in FY 2009 and $2.1 billion between 2010 
and 2013.
    Admiral, were you aware of Secretary Gutierrez's plan to transfer 
$27 million from NOAA this year before he presented this plan to 
Congress?
    Answer. Yes, in terms of timing, but it was not a plan to transfer 
$27 million from NOAA. The Administration requested increased statutory 
authority to transfer funds to the Census Bureau, and provided a list 
showing the universe of candidates that might be transferred in the 
event that Congress provided the authority. The list showed that the 
Department had unrequested funds, including NOAA funds, in excess of 
the maximum estimated need for the Census Bureau. But the minimum 
estimated need was some $70 million less, so there was a substantial 
likelihood from the start that a transfer of NOAA funds would not be 
necessary. The actual need turned out to be $156 million, not $232 
million, so even if Congress had provided the requested authority the 
Department could have met that need without including any NOAA funds in 
a subsequent transfer proposal.

    Question 2b. Were you or anyone else in NOAA consulted on where 
from within NOAA these funds should come from?
    Answer. Current statutory authority does not permit the Department 
to transfer funds from NOAA to another bureau. Had Congress provided 
the requested authority to allow such a transfer, NOAA certainly would 
have been consulted on whether to use NOAA funds as a source and, if 
so, which funds. NOAA was not consulted on the Department-wide 
candidate list.

    Question 2c. If Secretary Gutierrez has his way, where from within 
NOAA would these funds come from?
    Answer. The candidate list consisted of appropriations that the 
President did not request or that exceeded the requested level, and 
that were not identified in the list of Congressional earmarks and 
Congressionally-directed spending items that accompanied the 
Consolidated Appropriations Act, 2008.

    Question 3a. In a hearing last month before the House 
Appropriations Subcommittee on Commerce, Justice, and Science, you 
testified that certain divisions of NOAA have had to delay hiring due 
to budget constraints. You identified the National Weather Service as 
being most affected, although other parts of NOAA have also been 
affected. The proposed budget for the National Marine Fisheries Service 
is $46.8 million less than the 2008 enacted level. How many positions 
within the agency will go unfilled in 2009 because of this budget?
    Answer. Although the President's FY 2009 Budget Request for NMFS is 
under the FY 2008 enacted levels, this is primarily due to the 
exclusion of Congressionally-directed projects not requested by the 
Administration. At this time, and outside of being consistent with 
prior year lapse rates for hiring staff, NOAA does not anticipate that 
any additional positions will go unfilled for FY 2009.

    Question 3b. What effect will these vacancies have on NOAA's 
ability to fulfill the requirements of the Magnuson-Stevens 
Reauthorization Act?
    Answer. In FY 2008 Congress provided NOAA about $13.5 million for 
the Magnuson-Stevens Reauthorization Act (MSRA). For FY 2009, we are 
requesting an additional $31.8 million above the FY 2008 enacted 
amount. The NOAA FY 2009 budget request focuses on the top MSRA 
priorities of ending overfishing by 2011, implementing widespread 
market-based fishery management, and increasing international 
cooperation.
    NOAA does not have the capacity to efficiently meet all the new 
MSRA requirements in 1 year. However, the FY 2009 NOAA budget request 
provides adequate funding to fulfill the top MSRA priorities of ending 
overfishing by 2011, implementing widespread market-based fishery 
management, and increasing international cooperation. We are phasing in 
the funding increases to match our capacity to meet the new 
requirements. As stated above, we do not anticipate any vacancies 
related to the FY 2008 funding levels.

    Question 3c. The National Ocean Service and Office of Atmospheric 
Research are also slated to incur budget decreases. How will these 
budget decreases impact hiring?
    Answer. For both the National Ocean Service and the Office of 
Atmospheric Research, the FY 2008 Omnibus bill reduced funding for a 
number of core base programs. NOAA has taken a number of steps to 
absorb these reductions, including deferring program improvements, 
delaying or terminating contract actions, deferring research grants, 
and delaying hiring for noncritical positions. NOAA is a labor 
intensive organization with over 12,000 employees and 25 percent of its 
operating budget allocated to personnel-related costs. The full FY 2009 
President's Budget is critical for avoiding such actions in the future.

    Question 4a. Because of historically low salmon returns, the states 
of California, Oregon, and Washington are now experiencing the largest 
fishery closure in U.S. history. In 2006, an estimated 800,000 Chinook 
salmon returned to the Sacramento River; but this year, estimates are 
that less than 90,000 will return. There is debate, however, whether 
these poor salmon returns are due to poor oceanographic conditions or 
poor salmon conservation. What is NOAA's science telling us so far? Is 
it possible that the poor oceanographic conditions might be linked to 
climate change?
    Answer. The ocean conditions necessary for the survival of young 
salmon are linked to the circulation of ocean currents, particularly 
currents that cause upwelling of cold, nutrient rich waters to the 
surface. The strength and location of these currents varies from season 
to season and year to year. Longer-term changes in climate also affect 
the wind patterns and ocean currents. Both short-term variation and 
long-term climate change will affect the ocean conditions critical to 
salmon survival. However, separating the relative effects of these two 
influences is speculative without a long-term record.

    Question 4b. Do NOAA's climate, ocean, and fisheries research 
programs have the resources needed to gather the data necessary to 
definitively explain the cause for this disaster? If so, then what is 
the definitive explanation?
    Answer. NOAA is leading the way in establishing Ocean Observation 
Systems for the purpose of collecting and analyzing data that will help 
answer this question. These data have been collected sporadically in 
some areas in the past, but comprehensive observations will greatly 
enhance our understanding of ocean processes and their influence on 
living marine resources. Funding of this work is included in the NOAA 
budget, and continues to be furnished through the cooperation of many 
partners in the ocean science community, including the National Science 
Foundation. More time is required to amass the observations and to 
monitor longer-term cyclic changes before NOAA will be able to provide 
a definitive explanation.

    Question 5a.In response to low salmon returns in 2006, $60.4 
million in disaster assistance was provided to salmon fishermen in 
Oregon and California. These funds were given to the Pacific States 
Marine Fisheries Commission to administer a grant program for fishermen 
and businesses affected by the salmon closure. If and when Congress 
provides disaster relief for the salmon fisheries, do you anticipate 
NOAA would use the same mechanism for distributing the funds that was 
used for the 2006 salmon disaster?
    Answer. Yes, NOAA intends to partner with the Pacific States Marine 
Fisheries Commission to administer funding for the salmon disaster if 
funds are made available. The 2006 distribution was made according to 
plans developed by the affected states (Oregon and California), and was 
implemented through the Pacific States Marine Fisheries Commission. 
NOAA ensured that the plans developed by the states were consistent 
with Congressional intent, and issued the funds as a grant to the 
Commission for distribution in accordance with the state plans. At this 
point, the states have not yet completed their 2008 plans. As a result, 
we do not have their specific recommendations for distribution of the 
funds. NOAA is maintaining regular contact with liaisons in each of the 
Governors' Offices. With their agreement, NOAA intends to follow a 
similar mechanism this year.

    Question 5b. What are some lessons learned from past distributions 
during fisheries disasters?
    Answer. The first important lesson was confirmation that the 
proposed method of distribution of funds in 2006 was effective and 
accountable.
    Once the plans were in place, NOAA was able to move the funds 
quickly and in a way that assured we had effective tracking and 
accountability.
    This experience also demonstrated the importance of developing 
clear and detailed standards, such as who should receive funds and the 
qualifying years of fishing, for those who may qualify for a share of 
the funding.
    In general, the 2006 fishery disaster process went well but there 
was some dispute about the standards developed by the states, and how 
individual applicants qualified for particular amounts of funding.
    We expect that the standards now being developed by the states for 
distribution of the FY 2008 funds will be informed by the 2006 fishery 
disaster process.
    Finally, when the immediate income needs of the fishing communities 
were met, additional funding still remained. While there were a number 
of potential uses for that funding (to help restore the fishery or 
prevent a similar failure in the future), those uses were, for the most 
part, not a part of the initial 2006 plans. In this year's 
distribution, we seek to ensure that plans allow for the best use of 
any funds remaining after the immediate needs have been addressed.
    The fact that there have been two such distributions in a fairly 
short period of time serves as a reminder that, while distributions can 
be effective in providing short-term income support. it is also vital 
to identify the underlying causes of the fishery failure, and, where 
possible, invest in long-term solutions.

    Question 6a. At the July 2007 hearing on the NOAA satellites 
program, I expressed my concerns about the many climate sensors that 
were cut from the National Polar-orbiting Operational Environmental 
Satellite System. I'm happy to see that this year's budget request 
includes $74 million to add several of these climate sensors back in. 
How important is it that NOAA get this funding for the climate sensors?
    Answer. It is extremely important to NOAA and the national and 
international climate science community that NOAA receive timely and 
full funding of the $74 million for the Climate Sensor/Climate Data 
Record initiative. The $74 million continues the Administration's 
efforts to restore the five high priority climate instruments that were 
demanifested from the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) in 2006, and to address the recommendation of 
the National Academies of Sciences Decadal Survey Report (2007) to 
restore key climate and environmental sensors.
    The $74 million budget increase in FY 2009 will fund development of 
Total Solar Irradiance Sensor (TSIS) and Clouds and Earth Radiant 
Energy System (CERES), and provide for Climate Sensor/Climate Data 
Record development and continuity. NOAA and the National Aeronautics 
and Space Administration (NASA) previously jointly funded restoration 
of Ozone Mapper/Profiler Suite-Limb onto the NPOESS Preparatory Project 
(NPP) satellite. However, full funding of the NPOESS-related budget 
requests in the NASA, NOAA and Air Force appropriations bills is also 
required to ensure the climate sensors can be integrated and launched 
on the NPP and NPOESS satellites. By launching these sensors on 
existing spacecraft, NOAA takes advantage of pre-existing launch 
opportunities on NPP and NPOESS. NOAA must receive these funds by 
October 1, 2008 to meet the schedule for CERES and TSIS to be 
integrated onto NPP and NPOESS, respectively, and still meet scheduled 
launch dates.

    Question 6b. What would be the impact if Congress were to not fully 
fund this request?
    Answer. If NOAA does not receive full funding at the $74 million 
level by October 1, 2008, current acquisition and development 
activities will be canceled and NOAA will not be able to develop TSIS 
and CERES in time for the respective NPP and the first NPOESS satellite 
(C-1) launch. Further, NOAA would be forced to readjust current long 
lead planning to continue development of climate sensors for future 
spacecraft. NOAA would readjust the Climate Data Record component of 
the initiative which would diminish the availability of these data to 
national and international climate scientists. National decision-makers 
would not have the required information to develop the necessary policy 
(such as Congressional legislation, Presidential directives, or State 
action) to appropriately respond to global climate change. Finally, 
international bodies such as the United Nations would not have the data 
to support the necessary multilateral dialogue to develop global 
consensus on the appropriate actions required to address climate 
change.

    Question 6c. Would it hurt NOAA's ability to monitor global warming 
and the ongoing changes to our planet's climate?
    Answer. Not receiving the FY 2009 budget increase of $74 million to 
fund development of TSIS, CERES, and associated climate data records 
and not receiving full funding of the NPOESS-related budget requests in 
the NASA, NOAA and Air Force appropriations bills would hinder NOAA's 
ability to monitor on-going and future changes of the global climate 
after current missions expire.

    Question 6d. Would it reduce your ability to replace our current 
sensors without a gap in climate monitoring?
    Answer. 6d. Without funding to develop demanifested climate sensors 
and to develop the Climate Data Record initiative on NPP and NPOESS, 
there will be a significant gap in our ability to monitor the climate.

    Question 6e. If you got more than $74 million for climate sensors, 
how would you use it?
    Answer. Based on the current portfolio of satellite acquisition 
activities that NOAA, NASA and the Air Force are pursuing, it would be 
very difficult to absorb and effectively use any additional funds above 
the FY 2009 President's Budget Request. The President's FY 2009 Budget 
Request does assume continued funding of Climate Sensor/Climate Data 
Record development in FY 2010 and beyond to continue these efforts.

    Question 7a. What impacts does the reduced funding for the NOAA 
Office of Response and Restoration have on our Nation's oil spill 
response capabilities?
    Answer. The FY 2008 enacted appropriation for NOAA provides $11.5 
million for response and restoration base activities; this amount is 
$5.3 million below the FY 2008 requested level. Specific impacts 
include a reduction in:

  <bullet> Capacity to respond to two simultaneous medium spill events 
        (which has occurred on two occasions over the past 5 years) or 
        one large spill, such as the EXXON VALDEZ or Hurricane Katrina.

  <bullet> Developing and updating oil prediction models, 3-dimensional 
        models, Environmental Sensitivity Index (ESI) maps, and 
        socioeconomic valuation tools. For example, some of the ESI 
        maps are more than 25 years old.

  <bullet> Conducting and participating in preparedness and response 
        training and drills, such as the highly successful Safe Seas 
        Exercises that contribute so effectively to elevating response 
        capacity at the regional level.

    Question 7b. At these funding levels, does NOAA have the ability to 
fully respond to two major oil spills simultaneously?
    Answer. It is important that NOAA's Office of Response and 
Restoration (OR&R) receive the President's request of $17.3 million in 
FY 2009 in order to help rebuild core capabilities that have diminished 
over the past 4 years. At the FY 2008 enacted appropriation of $11.5 
million, OR&R has limited capacity to respond to two major oil spills 
simultaneously, without taking measures such as temporarily reassigning 
from other NOAA programs, or recalling retired personnel. Without such 
measures, the level of response OR&R would be able to provide, 
including scientific support, on-scene responders, and damage 
assessment, would be very limited.

    Question 8a. NOAA's oil spill response office currently has a 
backlog of its ecological sensitivity maps. These maps are used in 
decision-making during spill responses to decide which environmentally 
sensitive areas to protect.
    During the COSCO BUSAN oil spill in San Francisco, responders 
relied on NOAA's ecological sensitivity maps to identify areas that 
needed protection from the spreading oil. NOAA's maps for the outer 
coast of Washington, though, are twenty-three years old and severely 
outdated. By relying on outdated maps, aren't we risking our ability to 
respond effectively to a spill on the Washington coast?
    Answer. It is true that the Washington Coast atlases are among the 
oldest in the country, but this does not necessarily mean that these 
maps are outdated. Older maps can still provide useful information and 
NOAA continues to use these maps during response events.

    Question 8b. If Congress funds the Office of Response and 
Restoration at levels dramatically below the President's request like 
we did last year, isn't it a safe assumption that the ecological 
sensitivity map backlog will grow? How much will it cost to update all 
of the maps that need to be updated?
    Answer. Appropriations below the President's request have led to an 
increase in the Environmental Sensitivity Index (ESI) backlog. Funding 
ESI maps has most often been accomplished by using a variety of funding 
sources, both Federal and state. Funding at the FY 2009 budget request 
level will allow NOAA to update 1 ESI atlas.

    Question 9a. During the recent Coast Guard budget hearing, Admiral 
Allen testified that he is uncertain of the Coast Guard's ability to 
respond to oil spills in the Arctic. He even went so far as to question 
whether the Coast Guard's ships and planes can even operate in Arctic 
conditions. Do you believe that our Nation currently has the 
capabilities to effectively respond to a major oil spill in the Arctic 
Ocean?
    Answer. The vast majority of the pollution response equipment in 
the U.S. Arctic Region belongs to Alaska Clean Seas and the petroleum 
industry. While these pre-positioned caches provide a capability to 
respond to most spills, a prolonged clean-up operation would require 
transporting resources (i.e., human, mechanical, etc.) to the impacted 
area from outside of the region.
    NOAA's role in spill response comprises of scientific support and 
damage assessment. Currently, NOAA's capability to perform this role in 
the Arctic is challenged by limited experience working in oil-in-ice 
conditions and limited environmental baseline information in terms of 
both biological densities and environmental sensitivities of resources 
for damage assessment. However, given current vessel traffic in the 
Arctic Ocean, the likelihood of a major spill in that region is remote. 
As vessel traffic in the Arctic Ocean increases and the likelihood of 
major spills grows less remote, Federal agencies responsible for 
responding to such spills will adapt.

    Question 9b. Do we have the scientific knowledge necessary to know 
how to respond effectively to oil spills in the Arctic?
    Answer. NOAA and U.S. Coast Guard continue to develop and acquire 
the necessary expertise to respond effectively to spills in Arctic 
conditions. The SELENDANG AYU (2004) spill off of Unalaska, Alaska, 
represents the type of spill the U.S. would be facing in the Bering Sea 
region, as well as the Beaufort and Chukchi Seas. NOAA has the 
expertise on the current state-of-the-art in response techniques and is 
working with the international research and development community to 
improve predictive capabilities for oil-in-ice scenarios. NOAA's work 
on spills like the SELENDANG AYU clearly identifies additional 
information required to understand how oil released into the Arctic 
weathers the processes by which oil lingers in the environment, and how 
these processes ultimately result in injuries to the biological and 
ecological resources in these environments.

    Question 9c. What steps is NOAA taking to prepare us for major oil 
spills in the Arctic?
    Answer. NOAA is proactively looking at plausible spill scenarios 
that we might face in the Arctic. NOAA is working with the U.S. Arctic 
Research Commission and U.S. Coast Guard to define these scenarios. A 
NOAA-sponsored workshop took place in March 2008 to start defining 
these scenarios and to develop data-gaps and research needs in order to 
improve response capabilities. NOAA is strengthening these partnerships 
and looking for opportunities to leverage resources to improve response 
capabilities. In addition, NOAA is attempting to increase the education 
and information base for potential Arctic responders. For increased 
access to pertinent information before and during an oil spill 
response, NOAA has developed a new high resolution environmental 
information system that can access both static data (like biological 
sensitivities and shoreline characteristics) as well as real-time data 
from monitoring stations (like weather and currents). Appropriation of 
the President's FY 2009 Budget Request would allow NOAA to make 
progress on the development of this system.

    Question 10a. In a letter commenting on the Environmental Impact 
Statement for the Chukchi Sea oil and gas drilling plan, the National 
Marine Fisheries Service wrote that the Minerals Management Service's 
analysis ``did not present a strong enough case to NMFS that marine 
resources would be adequately protected.'' Do you support your agency's 
assessment that the Minerals Management Service's plan for oil and gas 
drilling in the Arctic Ocean's Chukchi Sea does not adequately protect 
marine resources and ecosystems?
    Answer. The NOAA Fisheries Service's letter, dated January 30, 
2007, presented comments on the Minerals Management Service's (MMS) 
draft Environmental Impact Statement for the Chukchi Sea Planning 
Area--Oil and Gas Lease Sale 193 and Seismic Surveying Activities in 
the Chukchi Sea. The comment letter specifically concerned support for 
the preferred alternative (Alternative III), and whether the DEIS 
presented a strong enough case to justify that alternative over NOAA 
Fisheries' recommendation to adopt Alternative IV. While NOAA supported 
Alternative IV, we do not consider the adoption of Alternative III by 
the MMS to mean the process or conclusions of the EIS are unacceptable. 
The MMS employed the best available scientific data in preparing the 
DEIS. Furthermore, the alternative the MMS adopted excluded a sizable 
portion of the area we recommended for exclusion from the sale area.
    Where appropriate to comply with the Marine Mammal Protection Act, 
NOAA Fisheries Service will issue letters of authorization or 
incidental harassment authorizations on specific oil and gas activities 
in the Chukchi and Beaufort Seas to allow for the incidental harassment 
of marine mammals. This allows NOAA Fisheries Service to place 
conditions on the oil and gas drilling activities which may result in 
modification to operations. These conditions are added to ensure that 
the effects of the drilling and production activities do not result in 
more than a negligible impact on marine mammals in the area. NOAA 
Fisheries Service will develop our own NEPA documentation to support 
any letter of authorization or incidental harassment authorization.
    NOAA Fisheries Service will continue to coordinate with the MMS as 
production and development plans evolve.

    Question 10b. Do you resent the fact that the Minerals Management 
Service largely ignored your agency's plea to adopt the more 
environmentally-sensitive drilling plan for the Chukchi Sea?
    Answer. NOAA did not review a ``drilling plan,'' but rather an EIS 
for a lease sale which encompasses a much broader range of issues than 
a drill plan. NOAA recommended an alternative for the sale plan which 
would have included a 60 mile buffer between the lease sale and the 
Alaska Chukchi coastline. The actual boundaries for Sale 193 are 
greater than 60 miles offshore in some important habitats, such as the 
Leydyard Bay critical habitat area, and are never closer than 25 miles. 
Thus, we cannot agree that our comments were largely ignored, although 
our stated preference and recommendation was for the 60 mile buffer. 
NOAA is currently working closely with the MMS to reduce impact to our 
trust resources due to oil and gas exploration, and to complete 
research to answer many of the environmental issues raised in our 
letter.

    Question 11a. In Washington State, we have recently seen the 
emergence of the Puget Sound Partnership--an innovative, collaborative, 
science-based effort to manage the Puget Sound environment based on an 
ecosystem-based management approach. Will NOAA invest in this important 
effort in Washington State, which is already being seen throughout the 
country as a model for regional ocean governance and ecosystem-based 
management?
    Answer. NOAA is currently investing funding and providing staff 
support in Puget Sound. The Director of the Northwest Fisheries Science 
Center, who is a member of the Puget Sound Partnership's Science Panel, 
is serving as NOAA's lead for the Puget Sound Partnership's recovery 
effort. A NOAA Puget Sound Coordination Group has also been formed 
under the guidance of the Director of the Northwest Fisheries Science 
Center. The Regional Administrator for NOAA's National Marine Fisheries 
Service, Northwest Region is one of three Federal representatives on 
the Puget Sound Partnership's Ecosystem Recovery Board. Additional NOAA 
staff participates in other advisory groups in support of the 
Partnership.

    Question 11b. In my state, the Puget Sound Partnership is making a 
major push to restore Washington's waters using a science and 
ecosystem-based approach. Isn't this the kind of regional effort that 
you support and that should be replicated elsewhere throughout the 
country?
    Answer. NOAA is very supportive of the approach being taken to 
restore Puget Sound and views the Puget Sound Partnership as one of the 
model efforts in the Nation for an ecosystem approach to management.

    Question 11c. Is it true that NOAA does not have funding available 
for participation in the Puget Sound Partnership?
    Answer. In the years 2003 through 2007, NOAA expenditures in Puget 
Sound across all line offices averaged about $27.4 million annually, 
including habitat restoration, salmon recovery, contaminated sediment 
cleanup, and science. Approximately $15.7 million annually was from the 
Pacific Coastal Salmon Recovery Fund. The amount for 2008 will be about 
the same, while the NOAA's request for 2009 is lower, largely due to a 
reduction in the request for Pacific Coast Salmon Recovery funding. 
NOAA is working within the Puget Sound Federal Caucus to better 
coordinate funding and actions from all Federal agencies, which will 
create some efficiency in carrying out this work. However, NOAA 
recognizes that moving to an ecosystem approach to management will 
require scientific and management resources and extensive coordination. 
For example, a Leadership Group composed of city and county elected 
officials from the Puget Sound region, government agency 
representatives, tribes, conservation organizations, and private 
industry recently completed the recovery plan for Puget Sound Chinook. 
This plan will require coordination between many groups within the 
Puget Sound.
    As the Partnership develops its Action agenda over the next 6 
months, NOAA will endeavor to assist the Partnership as much as 
possible and will work with the Partnership and the Federal Caucus to 
identify those actions that would benefit from NOAA's leadership and 
fiscal support. These will be considered as the Administration develops 
its outyear priorities and budget.

    Question 12. A small program called ``Mussel Watch'' may be cut 
under this year's NOAA budget. This program monitors water quality and 
chemical contaminants by analyzing mussel tissues. The 22-year-old 
program has collected data on over 120 contaminants along Washington's 
shorelines, and has been instrumental in demonstrating the Puget 
Sound's toxic problems. Although the program is small, Mussel Watch is 
instrumental in monitoring water quality in Washington. Will NOAA 
continue support for this successful program?
    Answer. NOAA appreciates your concern for the Mussel Watch Program, 
and we are pleased to hear of the program's value to your state. 
Because Mussel Watch is funded a year in advance, the program will 
continue through FY 2009 using FY 2008 funds. Continued support will 
depend on the final appropriations for FY 2009. However, we continue to 
explore options, such as increased partnerships with state and local 
stakeholders, to maintain this important national observing program.

    Question 13a. In response to the 2004 Indian Ocean Tsunami, the 
Bush Administration pledged $37.5 million toward expanding the U.S. 
Tsunami warning program to protect lives and property along all U.S. 
coasts. NOAA deployed the final two tsunami detection buoys in the 
South Pacific this past March, completing the U.S. Tsunami Warning 
System. Given the completion of the Pacific tsunami warning system, 
what grade would you give our current Tsunami Warning System?
    Answer. The U.S. Tsunami Warning System is highly effective. In May 
2008, the Office of Management and Budget (OMB) completed a Program 
Assessment Rating Tool (PART) on NOAA's Tsunami Monitoring, 
Forecasting, and Warning Program. OMB gave the program an ``effective'' 
rating, which is the highest score a program can receive.
    NOAA has made tremendous progress in just 3\1/2\ years. In March 
2008, NOAA completed the U.S. Tsunami Warning System strengthening 
effort. In addition to the completed deployment of 39 Deep-ocean 
Assessment and Reporting of Tsunami (DART) stations, NOAA: (1) upgraded 
120 and installed 16 new National Water Level Observation Network 
(NWLON) tide gauges (for a total of 136); (2) added 8 new seismic 
stations and worked with partners, such as the U.S. Geological Survey 
to enhance the Nation's seismic networks; (3) developed site-specific 
inundation models; (4) upgraded telecommunications infrastructure; and 
(5) expanded operations at its two Tsunami Warning Centers to 24 hours/
day, 7 days/week. Equally important to success are processing systems, 
warning message content and generation, communications to coastal 
communities, local response capability, and the pre-planning at the 
local level which includes public education, warning response, and 
recovery.
    In the Pacific region, NOAA improved accuracy, timeliness, and 
reliability of tsunami detection. NOAA's tsunami observational network 
in the Pacific includes 32 DART stations, 74 NWLON tide gauges, and 8 
seismic stations. NOAA researchers and data managers also completed 22 
site-specific inundation models. We made improvements in the level of 
community awareness, preparedness, response, and recovery capability as 
demonstrated through tsunami communication tests, evacuation drills, 
disaster planning, and public education.
    During the next year, NOAA's Tsunami Warning System will be 
reviewed by the National Academies of Science to determine if there are 
any other enhancements that can be made to the warning system, so we 
can better serve coastal residents and visitors.

    Question 13b. What other actions need to be taken to ensure 
accurate and timely tsunami predictions?
    Answer. While continued investment in tsunami warning 
infrastructure, such as observing stations, will improve the accuracy 
and timeliness of tsunami predictions, there must be an investment in 
tsunami research, mitigation, and public outreach and education 
efforts. Maintaining the existing U.S. Tsunami Warning System is 
critical. NOAA is continuing to improve and upgrade the overall Tsunami 
Warning System. This is achieved through improvements to Tsunami 
Warning Center computing capabilities, such as routine software 
upgrades and enhancements. Improvements to forecasts and tsunami 
products, based on new techniques, research and customer demand, are 
also part of a continuous process to improve the service NOAA's Tsunami 
Warning Centers provide to the Nation every day. Collaborative research 
is needed to advance data collection, analysis, and assessment for 
tsunami tracking and numerical forecast modeling, as well as mitigation 
science.

    Question 13c. In your opinion, where are the most vulnerable gaps 
in our tsunami warning system?
    Answer. The most vulnerable gaps in the Nation's Tsunami Warning 
System include:

        1. Delivery of warning messages to those most at risk--Warning 
        information can be effectively distributed through the NOAA/NWS 
        infrastructure, but the information is only useful when people 
        have the capability to receive it, e.g., NOAA Weather Radio or 
        other means. We are working to strengthen this infrastructure 
        and improve receipt of warning information.

        2. Improving hazard mitigation--While we have made progress in 
        our modeling of inundation mapping for a significant portion of 
        the highest risk areas in Washington, Hawaii, and Puerto Rico, 
        more can be done for these and other areas. Our plans include 
        continued development and refinement of inundation maps for 
        evacuation routes, land use planning, and educating the public 
        about their risk.

        3. Promoting mitigation activities for exposed communities and 
        infrastructures--Working with our Federal, state and local 
        partners, we will continue an aggressive outreach and education 
        program to ensure the public, both resident and visitor, 
        understand how to respond to tsunami information and can take 
        appropriate action.

    Over the next 5 years, NOAA will use funding from the 2008 spectrum 
sale, as directed by the Deficit Reduction Act of 2005, to reduce these 
vulnerabilities in the Tsunami Warning System.

    Question 14. NOAA's Office of Response and Restoration includes a 
Marine Debris removal program, with a proposed budget of $4 million. 
Funding for research and cleanup of Marine Debris peaked at $4.9 
million in FY 2005 and has remained at lower levels since then. The 
need for the removal of marine debris is an ongoing issue affecting our 
oceans and coastal areas. How has the reduced funding levels affected 
the Office of Response and Restoration's ability to address this 
important issue?
    Answer. The President's Budget request for $4 million will allow 
the NOAA Marine Debris Program to address the most pressing issues of 
marine debris through several different avenues, including funding 
assessment and research projects, removal projects, and outreach and 
education activities. All of these are done in conjunction with other 
organizations and research facilities, so we can leverage the amount of 
funding received from Congress. We are also beginning to better 
coordinate Federal activities and needs to achieve more by capitalizing 
on each other's activities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                Vice Admiral Conrad C. Lautenbacher, Jr.
    Question 1. Stellwagen Bank National Marine Sanctuary is one of the 
richest marine systems in the Nation. However, a 2007 status report 
evaluated the sanctuary's health based on 17 key indicators--most 
received marks of fair or poor. We need to be making the investments to 
protect these remarkable resources. At a time when there is increased 
public interest in and support for marine sanctuaries, why does the 
President's budget call for a $2.5 million decrease to the Marine 
Sanctuary Program base--reducing funding levels to $44.4 million?
    Answer. The FY 2009 President's budget provides $44.4 million for 
the National Marine Sanctuary base. These funds will provide resources 
to protect our investments in our 13 national marine sanctuaries--
including the Gerry E. Studds Stellwagen Bank National Marine 
Sanctuary--and the Papahanaumokuakea Marine National Monument. NOAA 
works within the Administration's budget process to ensure that 
adequate funds are requested to allow the National Marine Sanctuary 
Program to manage these sites based on priority needs and critical core 
requirements. We remain deeply committed to protecting the special 
natural, historic, and cultural resources of these areas.

    Question 2. Congress appropriated $235,000 in FY08 for the 
deployment of a weather buoy in Nantucket Sound--this is critical to 
safe navigation and weather forecasting. What is NOAA's schedule for 
deployment of the buoy?
    Answer. The Nantucket Sound Weather Buoy is scheduled to be 
deployed in April 2009. This schedule includes acquisition, 
fabrication, integration, and testing.

    Question 3. I understand that the President's budget will add back 
two sensors that were de-manifested from the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS)--the CERES (Clouds 
and the Earth's Radiant Energy System) and TSIS (Total Solar Irradiance 
Sensor). What is your long-term plan to ensure the continuity of 
essential climate observation data?
    Answer. The President's FY 2009 Budget Request includes a $74 
million initiative to continue the restoration of climate measurements 
that were demanifested from the NPOESS program in 2006, and to address 
the recommendation of the National Academies of Sciences Decadal Survey 
Report to restore key climate and environmental sensors.
    NOAA and the National Aeronautics and Space Administration (NASA) 
have determined that near-term continuity of three of these 
measurements can be fulfilled through existing plans. Aerosol 
measurements can be fulfilled with the 2009 launch of the Aerosol 
Polarimeter Sensor on the NASA GLORY mission. Ozone vertical profile 
data requirements were addressed by the NPOESS Executive Committee's 
2007 decision to remanifest the Ozone Mapper/Profiler Suite-Limb sensor 
onto the NPOESS Preparatory Project (NPP). Continuity of RADAR 
altimetry measurements can be fulfilled through the Jason 2 mission 
that was launched on June 20, 2008.
    Continuity of the remaining two measurements--Earth radiation 
budget and total solar irradiance--will be supported by the $74 million 
in the President's FY 2009 Budget Request. Continuity of the Earth 
radiation budget data can be met with the Clouds and Earth Radiant 
Energy System (CERES) sensor. NOAA and NASA will accelerate development 
of this instrument and will integrate it on the NPP mission which is 
scheduled for launch in June 2010. A replacement CERES instrument will 
be developed and flown on the first NPOESS satellite (C-1) when it is 
launched in 2013. Total solar irradiance measurement continuity can be 
met by the Total Solar Irradiance Sensor (TSIS). The $74 million in the 
FY 2009 President's Budget request will allow this instrument to be 
developed and launched on the first NPOESS satellite (C-1) in 2013.
    To achieve this near-term success, these instruments must be 
delivered in time to be integrated onto the NPP and NPOESS C-1 
spacecraft, respectively, to meet scheduled launch dates. NOAA must 
receive full funding or authorization to expend funds at the $74 
million level by October 1, 2008 to meet these schedules. Additionally, 
full funding of the NPOESS-related budget requests of NOAA, NASA, and 
the Air Force is also required to ensure that the climate sensors can 
be integrated and launched on the NPP and NPOESS satellites to meet 
scheduled launch dates.
    Regarding long-term planning, NOAA and NASA, in collaboration with 
the Office of Science and Technology Policy and the Office of 
Management and Budget, continue to work with the climate science 
community to determine when additional sensors must be developed and 
launched to ensure uninterrupted continuity of these climate sensor 
measurements.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                Vice Admiral Conrad C. Lautenbacher, Jr.
    Question 1. S. 931, the National Hurricane Research Initiative Act 
of 2007, was introduced in March 2007 and referred to the Committee on 
Commerce, Science, and Transportation. This legislation would 
dramatically expand the scope of basic research on hurricanes, 
including enhanced data collection, data analysis in critical research 
areas, and mechanisms to translate the results into improved forecasts 
and planning. This legislation designates NOAA and the National Science 
Foundation (NSF) as lead agencies for the Initiative. NOAA's various 
line offices and many other Federal agencies, such as the U.S. 
Geological Survey, the National Aeronautics and Space Administration, 
Federal Emergency Management Agency (FEMA), and offices within the 
Department of Defense (e.g., Office of Naval Research) have existing 
authorities and activities that are closely aligned with the goals of 
this Initiative. Is NOAA prepared to work cooperatively with NSF to 
manage and implement this 10-year Initiative?
    Answer. NOAA is prepared to work cooperatively with NSF to manage 
and implement this 10 year initiative. NOAA has already engaged with 
NSF to formulate an agreement aimed at cooperating in the development 
of improved hurricane forecasting and to ensure expertise and 
facilities of academic and research institutions and other 
nongovernmental organizations nationwide are leveraged to address this 
national challenge.

    Question 2. How would this Initiative be coordinated with NOAA's 
existing hurricane program activities, including the agency's Hurricane 
Forecast Improvement Project, to avoid duplication of effort and 
address the highest-priority needs of the primary consumers of the 
research results?
    Answer. NOAA established the national Hurricane Forecast 
Improvement Project (HFIP) to ensure a coordinated NOAA effort for 
improving hurricane forecasts and ensure the efforts meet the highest 
priority needs of NOAA operational elements. One of the primary 
objectives of HFIP is to accelerate and transition proven research 
results into operations. The HFIP manager reports directly to the 
Assistant Administrator for Weather Services and the Assistant 
Administrator for Oceanic and Atmospheric Research. This project is 
overseen by an Executive Oversight Board consisting of key NOAA 
Hurricane Program operational managers. Any NOAA hurricane research 
activities arising from the National Hurricane Research Initiative, 
including the application and transition of the broader initiative 
research results to NOAA operations, would be managed through the NOAA 
HFIP, with review by its Executive Oversight Board and the responsible 
Assistant Administrators. The draft plan for HFIP was published in the 
Federal Register for public comment, and the comments we received 
supported the plan.

    Question 3. Academic and research institutions and other 
nongovernmental organizations nationwide possess expertise and 
facilities that are well suited to undertake much of the research that 
would be conducted under this Initiative. How would NOAA, in 
coordination with NSF, maximize the effective utilization of these 
considerable non-Federal assets in conducting the Initiative's 
fundamental research and in developing and disseminating related 
products?
    Answer. NOAA is currently engaging with the other key Federal 
agencies, including NSF, NASA, and the Navy (including Office of Naval 
Research) to develop a National Hurricane Research Alliance. This 
Alliance will leverage existing Federal hurricane coordination efforts, 
including those from the Office of the Federal Coordinator for 
Meteorological Services and Supporting Research, to manage overall 
roles and responsibilities (including those of the broader academic 
community funded by NSF, NOAA, and others). Through this Alliance, NOAA 
and NSF will work with the other entities to maximize the effective use 
of considerable non-Federal assets in conducting the Initiative's 
fundamental research, and in developing and disseminating related 
products and services.

    Question 4. The National Earthquake Hazards Reduction Program 
(NEHRP), which was created in 1977, has research goals, program 
partners, and products similar to those proposed for the National 
Hurricane Research Initiative. In NEHRP's 2004 reauthorization (P.L. 
108-360), Congress reorganized the program in several ways. Changes 
included shifting lead-agency responsibilities from FEMA to the 
National Institute of Standards and Technology (NIST), and creating an 
advisory committee composed of non-Federal experts to provide guidance 
to the lead agency and the program's Interagency Coordinating 
Committee.
    Would NOAA view a similar structure--specifically, collaboration 
between a lead Federal agency, an interagency working group, and an 
expert advisory committee--as being beneficial in implementing the 
National Hurricane Research Initiative and in periodically examining 
its progress and aiding in the review and revision of program goals as 
needed?
    Answer. NOAA does view a similar structure as being beneficial in 
implementing the National Hurricane Research Initiative but points out 
that a similar structure is already in place. As stated in the previous 
response, NOAA is currently engaging with other key Federal agencies 
through the National Hurricane Research Alliance and the Office of the 
Federal Coordinator for Meteorological Services and Supporting 
Research. NOAA's existing Science Advisory Board would be an effective 
expert advisory committee to periodically examine scientific progress 
and aid in review.

    Question 5. Does NOAA have any other interagency or 
intergovernmental (i.e., Federal/state/local) partnerships through its 
hurricane research program, forecast operations, community resiliency 
initiative, or other related programs that should be considered as 
Congress considers this National Hurricane Research Initiative?
    Answer. The Federal Coordinator for Meteorological Services and 
Supporting Research (OFCM) coordinates Federal Hurricane Operations and 
Research efforts across the responsible Federal agencies. Efforts from 
the OFCM should be considered by Congress as it considers the National 
Hurricane Research Initiative. We suggest hurricane related research 
efforts from the National Ocean Partnership Program and the U.S. 
Weather Research Program also be considered by Congress to further the 
overall hurricane research effort.

    Question 6. In addition to reauthorizing and restructuring NEHRP, 
P.L. 108-360 established the National Windstorm Impact Reduction 
Program (NWIRP) in 2004. The program's primary goals are to improve 
meteorological understanding of windstorms, quantify windstorm impacts, 
and identify and promote cost-effective measures to reduce windstorm 
impacts.
    Please summarize briefly what progress NOAA has made in addressing 
the goals of NWIRP with the funds appropriated by Congress from FY 2005 
through FY 2008. In particular, please explain how NOAA intends to 
spend the approximately $700,000 that was appropriated by Congress for 
FY2008. What additional accomplishments related to NWIRP's goals has 
NOAA made through other authorized program activities?
    Answer. The Act stipulates that ``NOAA shall support atmospheric 
sciences research to improve the understanding of the behavior of 
windstorms and their impact on buildings, structures, and lifelines.'' 
In line with the Act, NOAA spends $700,000 per year on activities that 
improve the understanding of the behavior of windstorms and their 
impacts. This includes the continuing development and use of the H*WIND 
(hurricane wind analysis) product at the Hurricane Research Division, 
the National Severe Storm Laboratory's outreach on structural wind 
hazards, and Sea Grant's funding of an instrumented house in coastal 
North Carolina and corresponding education and outreach through its 
extension service.
    In response to the legislation and to a bilateral plan with the 
National Institute of Science and Technology (NIST), NOAA has a 
$300,000 increase in the FY 2009 Hurricane Forecast Improvement Project 
initiative to deploy high time and spatial resolution wind measurements 
along the coast for use by structural engineers.
    In general, NOAA supports a number of activities related to 
measuring and predicting windstorms and their impact such as:

  <bullet> The National Weather Radar Testbed is studying how 
        Multifunction Phased Array Radar (MPAR), with its advanced 
        capabilities and performance can meet the Nation's weather, 
        aviation, and homeland security needs. NOAA scientists recently 
        proved MPAR can detect rotation, hail, microbursts and gust 
        fronts well ahead of other radars due to its rapid scan 
        capability.

  <bullet> NOAA researchers co-sponsored the annual NOAA Hazardous 
        Weather Testbed with forecasters from the National Weather 
        Service Storm Prediction Center to focus on early and precise 
        warnings of severe weather hazards. The Hazardous Weather 
        Testbed also emphasizes developing, testing and evaluating 
        forecasts that could predict severe weather a week in advance.

    Question 7. In April 2006, the National Science and Technology 
Council published the ``Windstorm Impact Reduction Implementation 
Plan,'' as required by P.L. 108-360. NOAA was one of several Federal 
agencies involved in the formulation of this plan.
    Since the implementation plan was completed, how has NOAA been 
engaged by the Office of Science and Technology Policy (OSTP) and/or 
the Office of Management and Budget (OMB) concerning NWIRP? Beginning 
with FY 2005, has OSTP or OMB ever provided NOAA with any guidance 
concerning NWIRP during formulation of NOAA's annual budget request? In 
turn, has NOAA sought assistance from OSTP in preparing budget requests 
or spending plans for NWIRP-related activities? To the best of your 
knowledge, is the level of interaction or guidance that NOAA has 
received from OSTP typical of that provided to the other agencies 
participating in this program?
    Answer. In response to the NWIRP legislation, OSTP formed a Working 
Group on Wind Hazard Reduction under its Subcommittee for Disaster 
Reduction in 2005. Each agency mentioned in the legislation plus the 
Federal Highway Administration is represented on this Working Group.
    NOAA chaired the Working Group for the first 2 years during which 
time an implementation plan and a biannual progress report was 
completed. These were done under the guidance of the OSTP. OSTP has 
discussed the way forward with the NWIRP agencies, but no additional 
actions have been taken under NWIRP. The OSTP guidance has been 
provided at the Working Group meetings to all agency representatives 
equally, and the agency representatives have had the opportunity to 
provide their ideas about ways forward.
    NOAA has not asked for assistance from OSTP on budget requests or 
spending plans for NWIRP-related activities. OSTP has left these 
matters to the agencies.

    Question 8. From FY 2005 through FY 2008, NOAA was authorized to be 
appropriated $2 million per year under NWIRP. Is funding of $2 million 
per year adequate for NOAA to partner fully with the other NWIRP 
agencies and accomplish the research and operations-related goals 
described in the NWIRP-authorizing statute and in the April 2006 
implementation plan?
    Answer. NOAA supports the President's FY 2009 budget request of $1 
million for activities within NOAA related to the National Windstorm 
Impact Reduction Act. This funding will allow NOAA to develop new 
strategies and technologies for observing storms, to improve our models 
for predicting storm intensity, and to provide critical assistance to 
forecasters.
    Additionally, the President's 2009 Budget, not including the 
recently transmitted budget amendment, provides nearly $20 million for 
hurricane-related increases across NOAA, including modeling 
improvements on forecasts and storm surge and research into ocean 
vector winds and coastal inundation.
    NOAA has a diverse mission ranging from managing fisheries to 
predicting severe weather. The Administration's request provides a 
balanced set of priorities to sustain core mission services and address 
our highest priority program needs. NOAA will continue to work within 
the Administration and with Congress to ensure that our program needs 
are addressed.

    Question 9. Harmful algal blooms (HABs) and hypoxia events have 
far-reaching consequences for coastal communities, including human 
health impacts, harm to wildlife and ecosystems, and economic losses 
from lost tourism. Congress is currently considering legislation that 
would reauthorize the Harmful Algal Bloom and Hypoxia Research and 
Control Act (HABHRCA), which was first passed in 1998 and last amended 
in 2004. NOAA has several programs that support research and other 
activities concerning HABs (e.g., ECOHAB, MERHAB, RDDT) and hypoxia 
(e.g., CHRP, NGOMEX).
    For FY 2009, the Administration has only requested $10.8 million 
for HABHRCA-related programs. While this represents an increase of $2 
million over what Congress appropriated in FY 2008, it is still far 
below historical levels ($12.7-20.2 million) and far below the $25.5 
million that is currently authorized.
    Does the Administration view the funding requested for FY2009 as 
adequate to address the myriad research, forecasting, monitoring, 
prevention, and response needs that exist among the state, regional, 
and local authorities nationwide that are dealing with HABs and hypoxia 
events and their impacts?
    Answer. The President's FY 2009 Budget Request includes $15.8 
million for the National Centers for Coastal Ocean Science (NCCOS) 
Competitive Research line, which supports a suite of competitive grant 
programs including Harmful Algal Bloom and Hypoxia Research and Control 
Act programs. If appropriated at $15.8 million for the Competitive 
Research line, NCCOS will use at least $8.9 million for research 
related to harmful algal blooms and hypoxia. Over the past few years 
this effort has been appropriated below the President's request. This 
has reduced the scope of activities and delayed progress of NOAA 
efforts toward mitigating HAB and hypoxia impacts to coastal ecosystems 
and communities.

    Question 10. There are a number of reports required by HABHRCA that 
NOAA is yet to complete and furnish to Congress. Please report on 
NOAA's progress in completing these overdue reports, including a 
timeline for final submission.
    Answer. On December 10, 2004 the President signed the Harmful Algal 
Bloom and Hypoxia Amendments Act of 2004 (HABHRCA) which calls on NOAA 
to advance the scientific understanding of, and ability to detect, 
monitor, assess, predict and mitigate, harmful algal blooms (HABs) and 
hypoxia (low oxygen conditions). HABHRCA called for 5 written reports 
to assess the current state of research on and response to harmful 
algal blooms and hypoxia. The Interagency Working Group on Harmful 
Algal Blooms, Hypoxia, and Human Health (IWG-4H), co-chaired by NOAA 
and the Centers for Disease Control and Prevention, was tasked with 
drafting the reports. The IWG-4H has been working to ensure these 
reports include the most up to date information and are of the highest 
quality, which has taken some time. The status of the reports is as 
follows:

   <ctr-circle> The National Assessment of Efforts to Predict and 
            Respond to Harmful Algal Blooms in U.S. Waters, was 
            published in September 2007;
   <ctr-circle> The National Scientific Research, Development, 
            Demonstration, and Technology Transfer Plan on Reducing 
            Impacts from Harmful Algal Blooms (RDDTT Plan) and The 
            Scientific Assessment of Marine Harmful Algal Blooms are 
            undergoing interagency review;

   <ctr-circle> The Scientific Assessment of Freshwater Harmful Algal 
            Blooms has been completed and approved and will be 
            published online soon; and

   <ctr-circle> The Scientific Assessments of Hypoxia is currently 
            being drafted by the Interagency Working Group.

    Question 11. Significant hypoxia events have become more numerous 
in coastal waters around the U.S., including in the Great Lakes and 
along the Pacific Northwest. At this time, scientists or research 
entities interested in pursuing grants for hypoxia-related work, 
particularly outside of the Gulf of Mexico, have far fewer 
opportunities to compete for funding as compared to their HABs 
counterparts.
    Since HABHRCA's enactment, has NOAA received requests for 
assistance to undertake hypoxia-related research, forecasting, 
monitoring, prevention, or mitigation activities from areas outside of 
the Gulf of Mexico? If so, what geographic regions were covered by 
these requests, and what was the cumulative cost (approximately) of the 
requested assistance? How much has NOAA spent (approximately) in the 
last 5 years internally and extramurally on hypoxia-related research in 
the Gulf of Mexico? In areas outside of the Gulf of Mexico?
    Answer. Through the NOAA Coastal Hypoxia Research Program (CHRP), 
initiated in FY 2004 with competitions held in FY 2005 and FY 2007, 
NOAA has received requests for assistance to undertake hypoxia-related 
research, forecasting, monitoring, prevention, or mitigation activities 
from many regions outside of the Gulf of Mexico, a testament to the 
national scale of the problem. These requests have been binned into the 
following regions with a corresponding cumulative cost of the requested 
assistance:

       Hypoxia Requests for Research Funding by Region (FY 05-07)



Regions not covered by NGOMEX \1\

  Multiple Regions \2\                                       $14,500,000
  Gulf of Mexico estuaries                                    $6,400,000
  Chesapeake Bay/Delaware Inland Bays                        $19,700,000
  Great Lakes                                                 $6,000,000
  Southeast--NC/SC/GA                                        $14,600,000
  Northeast--NJ/NY/MA                                        $12,500,000
  Pacific Northwest                                          $10,900,000
------------------------------------------------------------------------
    Total                                                    $84,700,000
------------------------------------------------------------------------

\1\ Northern Gulf of Mexico Program addressing hypoxia on the Louisiana/
  Texas shelf influenced by the Mississippi River.
\2\ Projects addressing hypoxia in more than one region.

    Over the past 5 years (FY 2004-2008), NOAA has spent the following 
on hypoxia research:

                                       Hypoxia Research Funded (FY 04-08)

                                                                               Competitive         Intramural

NOS/CSCOR

  Gulf of Mexico                                                                   $7,640,654
  Outside Gulf of Mexico                                                           $7,234,041
NOS/NERRS (outside Gulf)                                                                                $180,000
NOS/NCBO (Chesapeake Bay)                                                            $500,000
OAR/Sea Grant (outside Gulf)                                                         $370,000
OAR/GLERL (Lake Erie Hypoxia--IFYLE)                                                                  $6,500,000
----------------------------------------------------------------------------------------------------------------
    Subtotals                                                                     $15,744,695         $6,680,000
----------------------------------------------------------------------------------------------------------------
  Gulf of Mexico                                                                   $7,640,654
  Outside Gulf of Mexico                                                          $14,784,041
----------------------------------------------------------------------------------------------------------------
    Total                                                                         $22,424,695
----------------------------------------------------------------------------------------------------------------


    Question 12. The availability of funding notwithstanding, do you 
have any recommendations on how to achieve greater equity in terms of 
opportunities for eligible entities to compete for funding for hypoxia-
related activities? Has NOAA considered building on NGOMEX and CHRP to 
create broader (i.e., national) hypoxia programs that are parallel in 
scope to ECOHAB and MERHAB?
    Answer. The recently reauthorized HABHRCA and the report required 
by this legislation provide guidance for ongoing and future NOAA 
research efforts related to hypoxia. NOAA has maintained a long-term 
research program investigating the causes, consequences and prediction 
of the seasonal hypoxic (or ``dead'') zone in the northern Gulf of 
Mexico, the largest zone of its type in North America. These efforts, 
funded through the northern Gulf of Mexico Research Program (NGOMEX), 
have provided the scientific basis for the Gulf of Mexico Action Plan 
required by HABHRCA. NGOMEX funds interdisciplinary research projects 
to develop a fundamental understanding of the northern Gulf of Mexico 
ecosystem with a focus on the causes and effects of the hypoxic zone 
and the prediction of its future extent and impacts. The research 
program is directed toward the goal of developing a predictive 
capability and an adaptive management framework for hypoxia in the 
Louisiana continental shelf ecosystem. Given the scale and impact of 
the problem in the Gulf of Mexico, with nutrient management 
implications for roughly 40 percent of the United States, NOAA 
continues to support the NGOMEX program and its participation in the 
Mississippi River/Gulf of Mexico Watershed Task Force. Complimentary to 
NGOMEX is the Coastal Hypoxia Research Program (CHRP), the intent of 
which is to expand NOAA's research capability to address hypoxia in 
other regions outside of the Gulf of Mexico experiencing hypoxia. The 
objective of CHRP is to provide research results and modeling tools 
that will be used by coastal resource managers to assess alternative 
management strategies for preventing or mitigating the impacts of 
hypoxia on coastal ecosystems. Determining the causes of hypoxia, 
developing the capability to predict its occurrence in response to 
varying levels of anthropogenic stress, and evaluating the subsequent 
ecological, economic, and social impacts are necessary to assess 
potential management alternatives. Therefore, between the two programs 
(NGOMEX and CHRP), researchers and managers from anywhere in U.S. have 
an opportunity to compete for hypoxia research support. More 
information about both programs is available at the following websites:

        CHRP: http://www.cop.noaa.gov/stressors/pollution/current/
        chrp.html,

        NGOMEX: http://www.cop.noaa.gov/stressors/pollution/current/
        gomex-fact
        sheet.html.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                Vice Admiral Conrad C. Lautenbacher, Jr.
    Question. To which ports and in which amounts will you distribute 
FY 2008 funding for operation of the Physical Oceanographic Real-Time 
System (PORTS) program?
    Answer. NOAA met with appropriations staff on this issue and will 
provide funding for the operation and maintenance contracts of the 
following PORTS:

Houston Galveston PORTS
Upper Chesapeake Bay PORTS
New York/New Jersey PORTS
  
  
  
$210K
$235K
$210K (government cost estimate for new maintenance contract to be 
awarded by August 30)
      
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                Vice Admiral Conrad C. Lautenbacher, Jr.
    Question 1a. The Administration has requested approximately $4.1 
billion for NOAA in its 2009 proposal--a 5.2 percent increase from the 
level enacted in Fiscal Year 2008. This Administration's request 
exceeds funding previously provided by Congress, which would appear to 
suggest that the President is placing a greater priority on funding our 
critical ocean and atmospheric science and management programs. 
However, upon closer examination, it is clear that this increase in 
funding is entirely devoted to a single satellite program, and that 
most other programs--including all ocean and coastal programs--are 
facing notable cuts.
    Satellites are expensive and warrant a $200 million request, but is 
it fair to say that this increase is being paid for by requesting cuts 
for most other programs--most notably all oceans and coastal programs? 
If not, is NOAA suggesting that Congress has been over-funding the 
ocean and coastal programs?
    Answer. NOAA has a diverse mission ranging from managing fisheries 
to predicting severe weather. The Administration's request provides a 
balanced set of priorities to sustain core mission services and address 
our highest priority program needs. Even within a restrained fiscal 
environment, however, the President's FY 2009 Budget Request includes 
over $1.9 billion in ocean and coastal program funding, including $49 
million in increases in support of the President's Ocean Initiative. 
NOAA will continue to work within the Administration and with Congress 
to ensure the needs of ocean, coastal and fisheries program are 
addressed.

    Question 1b. What Congressional directives would not be carried out 
if these ocean and coastal cuts are maintained in the 2009 budget?
    Answer. NOAA removes unrequested Congressional directives and add-
ons during our annual planning process to prepare the President's 
Budget Request, and before addressing NOAA's priorities within the new 
budget. The determination of NOAA priorities within the President's 
Budget Request is shaped by both the Administration's priorities and 
NOAA's programmatic needs. Each fiscal year, NOAA undergoes an 
extensive review of current and future projects, allowing for a 
continuous reevaluation of priorities and funding. The top priorities 
that emerge come from integrated requirements-based planning linked to 
NOAA's strategic vision and the optimization of our capabilities. 
Within the constraints of the current fiscal environment, NOAA proposes 
funding its highest priority programs.

    Question 2. Last October, NMFS issued regulations on the lobster 
industry intended to protect endangered whales. These rules would 
require lobstermen to use sinking rope to connect their strings of 
pots, something made nearly impossible in many areas off the coast of 
Maine by rocky bottom conditions and strong tides. NMFS suggested that 
these regulations would impose total costs of approximately $14 
million, over ninety percent of which would be borne by the lobster 
industry. The Maine Lobstermen's Association puts that figure at $10-
15,000 in first year costs alone per lobsterman, and annual replacement 
costs of up to $9,000, far in excess of your agency's estimates. In 
July 2007, a GAO analysis of the then proposed rules found that NMFS:

  <bullet> ``did not adequately represent uncertainties associated with 
        proposed gear modifications cost, and could not fully assess 
        impacts on fishing communities.'' and

  <bullet> ``cannot estimate the extent to which risks to whales will 
        be reduced'' by these regulations.

    In other words, it appears that your agency conducted an inadequate 
economic analysis and then imposed on the lobster industry a set of 
regulations that have an unproven likelihood of success.
    Answer. NOAA Fisheries Service believes the economic analysis 
presented in the Draft Environmental Impact Statement (DEIS) used to 
determine the costs of the then proposed fishing gear modifications was 
adequate. NOAA Fisheries Service noted that GAO's review of the DEIS 
economic analysis recommended no changes to the models or methods 
employed. GAO's principal finding with respect to the economic analysis 
was to recommend that NOAA Fisheries Service improve the representation 
of uncertainties in the analysis by presenting a range of possible 
costs in the Final Environmental Impact Statement (FEIS).
    In response to this recommendation, the FEIS includes a 
quantitative assessment of the sensitivity of compliance cost estimates 
to variations in four factors: (1) the increase in gear loss that 
lobster trap/pot vessels fishing in Maine inshore waters may experience 
as a result of converting from floating groundline to sinking and/or 
neutrally buoyant groundline; (2) the rate at which sinking and/or 
neutrally buoyant groundline will wear out and need to be replaced; (3) 
the price of sinking and/or neutrally buoyant line relative to the 
price of floating line; and (4) the estimated number of state-permitted 
vessels subject to the Atlantic Large Whale Take Reduction Plan 
requirements. The FEIS presents this analysis, providing cost estimates 
for each regulatory option under a range of alternative assumptions. 
NOAA Fisheries Service believes that incorporation of this analysis 
into the FEIS fully addresses GAO's recommendations for improvement of 
the economic analysis presented in the DEIS.
    Some industry organization's cost analyses include alternative 
assumptions that increase each of the cost parameters to reflect 
extreme predictions of gear costs and functionality. Although the 
industry organization's have an intimate knowledge of the lobster 
fishery, their statements are based upon the predictions of individuals 
with limited or no experience fishing with sinking groundline. In 
contrast, NOAA Fisheries Service gear experts developed the assumptions 
applied in the economic analysis based upon detailed conversations with 
individuals throughout the Atlantic coast with years of experience 
fishing sinking groundline in a variety of habitats, including Maine's 
rocky bottom. NOAA Fisheries Service would also like to specify some 
additional points related to these comments:

  <bullet> The average cost of groundline was estimated based upon 
        estimates for specific products. The estimate the commenter 
        uses for certain brands is significantly higher than the price 
        at which the brand is sold by gear suppliers.

  <bullet> The commenter's assumptions about the useful life of sinking 
        groundline are based upon field studies with experimental gear, 
        instead of commercially available sinking groundline used in 
        NOAA Fisheries Service assumptions.

  <bullet> Based upon discussions that NOAA Fisheries Service gear 
        experts had with fishermen operating with sinking groundline in 
        hard bottom environments, the rate of gear loss would be 
        significantly less than the rate suggested by the commenter.

  <bullet> Evidence from Vessel Trip Report data indicates that a 
        significant number of Federal permit holders that the commenter 
        assumes would be affected by the rule do not actively fish and 
        would therefore not incur costs of gear conversion.

    Question 2a. Do you find it acceptable that a single industry is 
saddled with such major economic impact for regulations that are not 
even likely to achieve their intended goal?
    Answer. Based on comments received on the Draft Environmental 
Impact Statement (DEIS), NOAA Fisheries Service developed a new 
preferred alternative in the Final EIS (FEIS) that offered 
significantly lower economic costs while sacrificing little 
protectiveness. Chapter 8 of the FEIS provides an overview of the costs 
and benefits of all the alternatives. Because of the geographic 
concentration of the lobster fishery in New England (see FEIS Chapter 
7) and the relatively large size of the lobster fishery, it is true 
that New England vessels bear a large share of the overall estimated 
costs of the Atlantic Large Whale Take Reduction Plan modifications. 
Given whale movements and behavior, however, New England waters 
represent important areas for entanglement risk reduction. Furthermore, 
the social impact analysis suggests that only a limited subset of 
smaller vessels are likely to experience costs that represent a 
significant share of per-vessel fishing revenues. Groundline buyback 
programs will help mitigate compliance cost impacts.
    NOAA Fisheries Service firmly believes that the recent amendment to 
the Take Reduction Plan will achieve its intended goals. NOAA Fisheries 
Service believes that the final rule published in October 2007 
represents a comprehensive suite of amendments to the Take Reduction 
Plan. NOAA Fisheries Service worked with the Atlantic Large Whale Take 
Reduction Team to help evaluate the Take Reduction Plan and discuss 
additional modifications necessary to meet the goals of the Marine 
Mammal Protection Act and the Endangered Species Act. NOAA Fisheries 
Service also solicited input from the public after issuing a Notice of 
Intent to prepare an EIS. Although there were no consensus 
recommendations from the Take Reduction Team or consistent proposals 
from the public, NOAA Fisheries Service believes that it has developed 
the best options available for amending the Take Reduction Plan.

    Question 2b. Do you agree that the general public, which receives 
the benefit of that protection, bear some of the cost? If so, what 
programs do you intend to fund within the parameters of this budget 
request that will help defray the burdensome cost to the affected 
fishing industries?
    Answer. We agree that the general public, which receives the 
benefit of that protection, should bear some of the cost. While the FY 
2009 budget does not request additional funding for lobster gear 
buyback and recycling programs, NOAA Fisheries Service has worked with 
the fishing industry and conservation organizations such as the Gulf of 
Maine Lobster Foundation, the National Fish and Wildlife Foundation and 
the International Fund for Animal Welfare to promote these activities. 
As a result of these gear buyback efforts, approximately 4,700 miles of 
floating line have been removed from the ocean providing a valuable 
entanglement risk reduction for large whales.

    Question 3. Following a field hearing on this topic in Maine this 
past February, lobster fishermen have been meeting with representatives 
from environmental groups to attempt to come to some consensus about a 
way forward on this issue that will increase benefits to whales but 
reduce the impacts on the lobster industry. These may include 
permission to use neutrally buoyant rope in certain areas in exchange 
for a reduction in endlines--the ropes that run from the buoy to the 
traps on the seabed. This proposal would almost certainly result in 
less rope in the water, and greater protection for whales and reduce 
costs and increase safety for our lobstermen.
    If these groups come to a mutually acceptable, scientifically 
supported agreement, how could the regulations be changed to reflect 
that proposal? Is it feasible for these changes to be in place before 
the scheduled implementation date of October 5, 2008? If not, could 
that date be pushed back to coincide with the start of the next fishing 
year?
    Answer. Should this group develop a mutually acceptable, 
scientifically supported alternative to the sinking groundline 
requirement, NOAA Fisheries Service would forward their proposal to the 
Atlantic Large Whale Take Reduction Team for consideration. If the 
proposal received a favorable review from the Take Reduction Team, NOAA 
Fisheries Service would develop and publish a proposed rule and 
supporting environmental analysis. The proposed rule and ultimately, 
the final rule, would go through the normal rulemaking process as 
required by the Administrative Procedures Act and other applicable 
mandates and statutes. Based on the various mandates and statutory 
requirements, it would not be feasible to develop and implement changes 
to the sinking groundline provision prior to the scheduled October 5, 
2008 implementation date.
    However, NOAA Fisheries Service has recently published a proposed 
rule to amend the regulations implementing the Atlantic Large Whale 
Take Reduction Plan to provide an additional 6 months (through April 5, 
2009) for trap/pot fishermen along the Atlantic East Coast to comply 
with the broad-based sinking groundline requirement. NOAA Fisheries 
Service will evaluate the comments received on the proposed rule prior 
to making its final determination regarding the 6-month extension.

    Question 4. While many fishermen continue to do their part to 
minimize right whale entanglements, and others are being forced to bear 
the burden of undue and unproven regulatory restrictions, many are 
troubled by the fact that there seems to be little progress in reducing 
right whale deaths due to ship strikes. In fact, ship strikes have 
killed three times as many north Atlantic right whales since 2001 than 
gear entanglements. In February 2007, NOAA sent a final rule to the 
Office of Management and Budget that would reduce the likelihood of 
ship strikes by instituting speed limits in certain areas along the 
eastern seaboard at times when whales are present. Today, more than a 
year later, that rule stills sits with OMB.
    Given that it has been over a year since the final rule was 
submitted to OMB, when can we expect to see action taken on it? Do you 
agree that your agency has failed to protect whales from ship strikes 
as it is required to do under the Marine Mammal Protection Act? 
Assuming this failure is unacceptable to you, how do you intend to 
rectify the situation?
    Answer. NOAA has taken and continues to take a comprehensive 
approach to minimizing the risk of ship strikes and other threats to 
whales. Since NOAA published an Advanced Notice of Proposed Rulemaking 
on the ship strike rule in 2004 and a proposed rule in 2006, NOAA has, 
with the U.S. Coast Guard and through the International Maritime 
Organization, shifted ship traffic lanes to reduce the risk of 
collisions between large ships and whales into and out of Boston 
Harbor. The shift in Boston ship traffic added only 3.75 nautical miles 
(roughly 10 to 22 minutes to one-way trips depending upon the type of 
vessel and the speed at which they travel), yet would potentially 
reduce the risk of ship strikes to right whales by moving ships out of 
known right whale habitat.
    Also, in collaboration with the U.S. Coast Guard and with the 
support of the International Maritime Organization, NOAA established 
and continues to maintain two Mandatory Ship Reporting systems--one in 
waters off New England and another in calving/nursery areas in waters 
off Georgia and Florida. The systems, operational since July 1999, 
require that all ships 300 gross tons and greater report to a shore-
based station via satellite communication systems upon entering these 
two key right whale aggregation areas. Mariners are required to report 
ship name, call sign, entry location, destination, and ship speed. The 
reports prompt an automated return message providing information about 
the vulnerability of right whales to ship strikes, and recent right 
whale sighting locations.
    In 2006, NOAA established recommended shipping routes in key right 
whale aggregation areas within Cape Cod Bay and off three ports in 
Georgia and Florida. The routes are an attempt to reduce the co-
occurrence of whales and ships by minimizing ship transit times in 
whale habitat and avoiding specific whale aggregation areas, while also 
ensuring navigational safety and limiting adverse effects on the 
shipping industry.
    NOAA has also worked with its partners in developing, publishing, 
and distributing guidelines for mariners when operating in right whale 
habitat. NOAA and other Federal and state agencies support or conduct 
extensive aircraft surveys for right whales. NOAA Fisheries Service 
assembles reports and right whale ``alerts'' are disseminated to 
mariners via multiple media.
    Additionally, through U.S. Coast Guard and other broadcasts, NOAA 
provides vessel speed advisories in areas where right whales occur. 
Education and outreach remain an important part of NOAA's overall 
strategy for reducing threats to right whales and other whales from 
ship strikes. For example, in June 2007, NOAA and the U.S. Coast Guard 
released ``A Prudent Mariner's Guide to Right Whale Protection.'' This 
interactive, multi-media CD program is distributed free-of-charge upon 
request and contains crew training information about right whales, 
recommended navigation actions when operating in right whale habitat, 
guidance for compliance with the Mandatory Ship Reporting System, and 
what to do in the event an injured right whale is sighted.

    Question 5a. NOAA requires basic oceanographic data to improve 
climate and resource management models and create more accurate weather 
and sea state forecasts. I appreciate your request of $6.5 million for 
implementation of NOAA's Integrated Ocean Observing System, and $14.5 
million for regional observations. These are increases from last year's 
request, but still below the $26.3 million Congress enacted in FY08 for 
ocean and coastal observations. And your request is still far below the 
number recommended by the U.S. Commission on Ocean Policy: $138 million 
to initiate an IOOS system, and escalated that figure to half a billion 
dollars within 5 years. While we can argue about actual numbers, 
investment on this scale is warranted, as forecasts based on data from 
an ocean observing system in the south Pacific is estimated by NOAA to 
have generated returns in excess of one billion dollars annually. Given 
these potential economic benefits, why have you requested such a 
relatively modest amount to ocean observing systems this year?
    Answer. The FY 2009 President's Budget Request is $21 million for 
NOAA Integrated Ocean Observing System (IOOS) activities. This is $7 
million above the FY 2008 request or nearly 50 percent more than 
included in last year's request; this increase demonstrates a 
continuing commitment to the IOOS program. Within the context of NOAA's 
overall budget, any new investment area is funded at the expense of 
other important NOAA programs. Modest, incremental budget increases can 
be expected for new programs as they work toward demonstrated and 
validated program results.
    The requested increase of $7 million will:

  <bullet> Support a national technical capability within NOAA ($3.0 
        million);

  <bullet> Improve capacity for the Data Assembly Center at NOAA's 
        National Data Buoy Center (NDBC) in Stennis, Mississippi ($1 
        million); and

  <bullet> Provide additional support for the regional component of 
        IOOS ($3 million).

    Within the $21 million total, $14.5 million is requested for ``IOOS 
Regional Observations''. This funding will allow NOAA to continue its 
competitive selection process for grants and cooperative agreements, to 
establish a regional network of observing systems to serve both 
national and regional needs for ocean observing data and information 
services.
    The remaining $6.5 million, requested for the NOAA IOOS Program, 
will continue national IOOS implementation efforts and development of 
an IOOS Data Integration Framework. NOAA has made progress with 
implementing IOOS. Some examples of our work:

  <bullet> Established a dedicated IOOS Program and developed a 
        strategic plan;

  <bullet> Conducted the first peer-reviewed, competitive grants 
        process for regional IOOS awards; (resulting in 23 IOOS 
        cooperative agreements);

  <bullet> Developed a prioritized list of measurements, based on 
        feedback from users: temperature, salinity, sea level, surface 
        currents, and ocean color;

  <bullet> Established common processing standards to be applied 
        nationally; and

  <bullet> Implemented IOOS Data Integration Framework at three NOAA 
        centers of data, which will result in interoperable data.

    Making progress on these modest steps is imperative to 
demonstrating the value of a U.S. IOOS and garnering the support to 
build the IOOS envisioned by the U.S. Commission on Ocean Policy and 
others.

    Question 5b. What is your opinion of the Ocean Commission's 
assessment that an IOOS system will require upwards of $500 million to 
operate effectively?
    Answer. The U.S. Commission on Ocean Policy called for a fully 
developed IOOS in 10 years, with initial estimates of annual funding on 
the order of $500 to $750 million. These cost values have not been 
independently evaluated. NOAA has made progress implementing IOOS under 
our current budget requests. Continued support for research and 
development, regional observing development, and data management and 
communication efforts will be required to fully develop the U.S. IOOS. 
NOAA believes IOOS can be built and operated in phases, with a level of 
new investment much below the Ocean Commission's estimate.
    To do this NOAA is focusing efforts internally and collaborating 
with its regional partners to build and demonstrate the viability of 
the regional and data management components. NOAA continues to be 
committed to building a national IOOS, and is providing the leadership, 
management, and oversight needed to facilitate its development.

    Question 6a. NOAA is now in the second year of running a 
competitive national program to fund the regional research and 
operational components of the Integrated Ocean Observing System. The 
funding provided to the IOOS program last year was woefully 
insufficient, and as a direct result, the Gulf of Maine Ocean Observing 
System, just one of eleven such systems nationwide, will be forced to 
remove as many as half of its buoys from the water this year because 
they simply do not have the money to continue operating them. 
Interrupting the continuity of these data streams will have 
consequences beyond baseline research, as a Woods Hole Oceanographic 
Institute study has shown that GoMOOS returns six dollars to the 
regional economy for every dollar invested.
    First of all, what does NOAA hope to gain by requiring regional 
observation programs to compete against one another? Doesn't this 
system inherently result in a set of winners and losers, when in 
reality we should be trying to build a system in which all regions are 
equally ``winners''? Why not promote a ``merit based'' system, as in S. 
950?
    Answer. With the FY 2007 Omnibus Appropriation, NOAA initiated a 
transition from a collection of Congressionally-directed projects to a 
competitive award system to develop a national network of coastal ocean 
observing systems.
    NOAA is working to establish a national network of regional coastal 
ocean observing systems by soliciting high-quality proposals through a 
competitive and merit-based process. NOAA recognizes that past 
competitive processes may not have been optimal to support a national 
network and we are looking at ways to structure future funding 
announcements, such that competition is focused within, not among, each 
of the 11 IOOS regions.
    NOAA included a selection criterion within its FY 2008 Federal 
Funding Announcement that allows proposals deemed to be meritorious of 
funding to be elevated based on the need to maintain geographic 
distribution. NOAA continues to operate a highly transparent funding 
process and works closely with its regional partners on lessons learned 
to support a fair, yet robust process.

    Question 6b. It is painfully obvious that the top line number--the 
overall pot of money for these regional competitions--is too low. What 
was the total amount allocated for FY07 and FY08? What is the amount 
requested for FY09? These numbers are not clearly identified in your 
request.
    Answer. In FY 2007, NOAA awarded $22.4 million to support regional 
IOOS development, including the eleven IOOS Regional Associations and 
Regional Coastal Ocean Observing Systems (RCOOS). This included 23 IOOS 
Development awards spanning three focus areas:

  <bullet> Regional coastal ocean observing systems development;

  <bullet> IOOS applications and product development; and

  <bullet> Regional Data Management and Communication guidance and 
        processes.

    In FY 2008, Congress appropriated $26.3 million for NOAA IOOS 
(approx. 58 percent above the President's Budget Request). NOAA awarded 
$20.4 million of the total IOOS appropriation to support regional IOOS 
development. This included 11 new management and planning awards to the 
Regional Associations and 7 new RCOOS awards to continue development of 
regional ocean observing systems.
    The FY 2009 request for ``IOOS Regional Observations'' is $14.5 
million. NOAA intends to use these funds to support existing, multi-
year, regional awards.

    Question 6c. If every region were to receive the amount of funding 
warranted to build an effective ocean observation program, how much 
funding would NOAA have to allocate for these regional programs?
    Answer. NOAA is completing program assessments within each IOOS 
region to better understand baseline costs, existing capabilities, and 
diversity of funding sources. This review will serve as a basis for 
further analysis of regional needs and requirements.

    Question 6d. Some regions note that they cannot compete for funds, 
because they are suffering from the effects of being under-funded in 
the past. Do you agree with this characterization? How can NOAA help 
these programs get on a more competitive footing?
    Answer. NOAA is not aware that some regions have concluded they 
cannot compete for funds. The NOAA IOOS funding process is transparent, 
open, and consistent with competitive funding processes across the 
agency. NOAA is working closely with our regional partners to develop 
viable observing capabilities with available resources.

    Question 7. The New England Fishery Management Council is currently 
in the process of developing the next major amendment to its groundfish 
fishery management plan. At a meeting last month, the Council decided 
to table proposals to explore new management methods to replace the 
existing days-at-sea system. Under the present system, groundfishermen 
have an average of just 47 days-at-sea. Estimates suggest these levels 
could be cut by as much as an additional 70 percent under Amendment 16, 
leaving the same fisherman with just 15 days to make a living. Has NOAA 
provided funding in this budget to determine the viability and 
potential benefits of any groundfish management plan other than days-
at-sea? Are any existing programs investigating other management 
measures?
    Answer. Yes. The FY 2009 President's Budget requests an increase of 
$4.8 million to develop and implement Limited Access Privilege 
Programs. Of this amount, $1.142 million is preliminarily allocated to 
the Northeast Region. In FY 2008, NOAA is funding development of the 
Amendment 16, which also includes development of sector management. 
Through sector management part or all of groundfish fishery resources 
(denominated in terms of catch) would be allocated to various industry 
sectors. One of the major benefits of self-selecting sectors is that 
they provide incentives to self-govern, therefore, reducing the need 
for the New England Fishery Management Council and NOAA Fisheries 
Service mandated measures. Sectors also are thought to reduce the risk 
of overfishing by operating under a hard total allowable catch (TAC) 
for at least some species, rather than input controls based on a target 
TAC.

    Question 8. The regulations established by NMFS in Amendment 13 
call for a review of the plan for fishing year 2009 using information 
based on a 2008 peer-reviewed benchmark assessment. This assessment, 
also known as the GARM III, will not be completed until August 2008 at 
the earliest, yet the Council is already considering plans to cut Days-
at-Sea despite the fact that they do not have adequate data as mandated 
by NMFS's own regulations. The Council's current plan is to complete 
work on a Draft Environmental Impact Statement for Amendment 16 by the 
first week in June, 2 months before the GARM is completed, and to enact 
a final regulation in October 2008, at the very meeting that will 
provide the public's first opportunity to hear a formal presentation of 
the data included in the GARM.
    Given that the Magnuson-Stevens Act requires the Council to give 
the public ``a reasonable opportunity to respond to new data or 
information'' before taking final action, how do you rationalize this 
schedule for implementation of Amendment 16 with the requirements of 
Magnuson-Stevens? Why should the Council not delay action on Amendment 
16 until the necessary data can be appropriately considered and 
included in management measures?
    Answer. Based on the preliminary results of the assessment process, 
the New England Fishery Management Council has determined that it is 
necessary to see the final scientific results before it can complete a 
draft document that will fully inform the public of the alternatives 
under consideration. The Council will continue working on those aspects 
of the amendment that are not reliant on the final scientific results. 
Because it is unlikely that Amendment 16 measures will be in place at 
the beginning of the new fishing year (May 1, 2009), the agency is 
evaluating options for ensuring that efforts to rebuild stocks and end 
overfishing are not compromised during this time.

    Question 9a. The 2008 budget request included $10 million for the 
Penobscot River Habitat Restoration Project--an unprecedented dam 
purchase and removal partnership among Federal and State agencies, non-
profit organizations, a private electricity company, and the Penobscot 
Indian Nation that would retain over 95 percent of the river's 
electricity production while providing unrestricted access to nearly 
1,000 miles of unobstructed habitat for salmon and other diadromous 
species. Of the $25 million Congress directed toward the Open Rivers 
Initiative for Fiscal Year 2008, how much of that is NOAA now putting 
toward the Penobscot River Restoration Project?
    Answer. Within the NOAA budget Congress did not appropriate $25 
million for the Open Rivers Initiative (ORI). The FY 2008 appropriation 
permits the following under the Fisheries habitat Restoration line in 
the budget:

  <bullet> $10.0 million for Penobscot River habitat Restoration.

  <bullet> $12.9 million for Community-Based Restoration.

  <bullet> $1.6 million for Open Rivers Initiative.

  <bullet> $0.8 million for Chesapeake Bay Oyster Restoration.

    No Open Rivers Initiative funding is being used in FY 2008 for the 
Penobscot River Restoration Project. The $10 million in FY 2008 for the 
Penobscot River Restoration Project is included in NOAA's $25 million 
appropriated under the Fisheries Habitat Restoration line.

    Question 9b. Going forward with this multi-year project, how will 
NOAA decide how to allocate funding under the Open Rivers Initiative? 
How will NOAA engage its Federal partners such as the Fish and Wildlife 
Service and the Army Corps of Engineers to help defray the costs of 
large-scale projects like the Penobscot River Restoration?
    Answer. NOAA requested $7 million in FY 2009 for the Open Rivers 
Initiative. Projects selected for funding under the Open Rivers 
Initiative (ORI) must be a dam or stream barrier removal project that 
benefits diadromous fish and fosters economic, educational, and social 
benefits for the surrounding community. ORI is a nationally competitive 
program, with applications going through a multiple step review, 
ranking and selection process. Projects are ineligible if they are 
outside of the $1,000,000 maximum allowable request or the $30,000 
minimum allowable request; or if the dam is licensed by the Federal 
Energy Regulatory Commission (FERC) at the time of proposal submission. 
NOAA also evaluates and selects projects according to NOAA's standard 
evaluation criteria:

        1. Importance and Applicability of Proposal.

        2. Technical/Scientific Merit.

        3. Overall Qualifications of Applicants.

        4. Project Costs.

        5. Outreach, Education, and Community Involvement.

    NOAA routinely partners with other Federal agencies, such as the 
U.S. Fish and Wildlife Service, the U.S. Army Corps of Engineers, and 
the Natural Resources Conservation Service, to accomplish habitat 
restoration goals for coastal and river habitats, including dam 
removals.
    Regarding the Penobscot River Restoration Project, NOAA is working 
closely with the U.S. Fish and Wildlife Service, the U.S. Geological 
Survey, and the U.S. Army Corps of Engineers on acquisition, removal 
and restoration design, and permitting issues. NOAA will continue to 
work closely with these agencies and the Federal Energy Regulatory 
Commission as the Federal and state permitting processes progress 
throughout FY 2008 and into FY 2009. These agencies are providing 
critical technical assistance and funding to advance the project to the 
next stage. NOAA remains committed to see the project through to 
completion and will continue to work with our Federal partners who are 
contributing key technical and financial resources to the project.

    Question 10. The FY 2009 budget requests $32.7 million for observer 
coverage overall, on par with last year's request and the enacted 
levels, but there is no information in the budget request specifying 
how much of that will go to the New England Groundfish Observer 
Program. As you are aware, under Amendment 13, NMFS must provide at 
least 10 percent observer coverage to monitor bycatch in the New 
England groundfishery and in the scallop fishery. How much funding 
would you allocate for groundfish observers in New England? What 
percentage of coverage will this level of funding provide?
    Answer. The President's FY 2009 Budget Request for the New England 
Groundfish Court-Ordered Observers budget line is $8.619 million. 
During litigation concerning Northeast Multispecies Fishery Management 
Plan (FMP) Amendment 9, NOAA Fisheries Service was temporarily ordered 
to provide either a 10 percent coverage level or to determine the 
appropriate coverage level to provide statistically reliable bycatch 
information on all gear sectors in the Northeast Multispecies Fishery. 
NOAA Fisheries Service's analysis suggested that 5 percent coverage of 
all groundfish days-at-sea trips was sufficient to monitor catches and 
discards in the groundfish fishery with an acceptable level of 
precision and accuracy. Although NOAA Fisheries Service is no longer 
subject to that court order, it has continued to provide a 5 percent 
coverage level through FY 2008 in the Northeast Multispecies Fishery to 
ensure statistically reliable information on groundfish bycatch levels.
    NOAA Fisheries Service is transitioning to a Standardized Bycatch 
Reporting Methodology (SBRM) process, which is now mandated by the New 
England Fishery Management Council. The SBRM requires a method to 
allocate sea days for observer coverage in all Northeast fisheries so 
that bycatch estimates are provided at a reliable level. The SBRM 
includes a prioritization and consultation process with the Fisheries 
Management Councils in the Northeast region. The data is also analyzed 
statistically to ensure this level of coverage produces a sufficiently 
precise bycatch estimate.
    The sea scallop program is primarily industry funded through 
Amendment 13 to the Scallop FMP, although still supported by NOAA 
Fisheries Service funds for specific activities. It is difficult to 
project the number of observed sea days that will occur through an 
industry funded program. However, in FY 2006 a total of 2,200 sea days 
were observed. Assuming this same level of observer coverage, NOAA 
Fisheries Service anticipated funding the sea scallop industry-funded 
program at approximately $397,000 in FY 2009. NOAA Fisheries Service 
funds are used to cover the 72-hour call in notifications, data 
processing, data quality assurance programs, program oversight to 
attain proper coverage and sampling, and portions of the observer 
training and sampling gear. Approximately 10 percent of the trips are 
currently observed in the general category access areas, limited access 
areas, and limited access open area scallop fisheries (not general 
category open area). Although this may change under the SBRM, coverage 
in the sea scallop fishery will be maintained at a level high enough to 
provide statistically valid bycatch estimates.

    Question 11. Herring has been described as a ``keystone species'' 
in the Gulf of Maine ecosystem, serving as forage for larger species 
such as tuna and endangered northern right whales, as bait in the 
lobster industry, and as a commercially important species in its own 
right. The New England herring fishery is also in need of additional 
observer coverage to help settle many ongoing disagreements about the 
status of this stock and its harvest and bycatch levels. How much 
funding--and what level of coverage--can NMFS devote to observer 
coverage in the herring fishery? How much coverage is needed to truly 
address the ongoing questions about stock and bycatch uncertainties?
    Answer. The Northeast Observer Program must now allocate observer 
coverage in the herring fishery pursuant to the Standardized Bycatch 
Reporting Methodology (SBRM), which is now mandated by the New England 
Fishery Management Council. The FY 2009 budget under the New England 
Groundfish Court-Ordered Observers budget line was intended to provide 
observer coverage in the herring mid-water trawl fishery at a target 
level of 20 percent, with a lower coverage rate, closer to 5 percent 
for the purse seine herring fishery. With the transition to the new 
SBRM process, the target coverage levels for the herring fishery will 
need to be reevaluated. The specific FY 2009 funding amount targeted 
for these herring fisheries is approximately $460,000.
    The Herring Plan Development Team is actively addressing and 
identifying the monitoring needs of the herring fishery as a New 
England Fishery Management Council priority through the proposed 
Amendment 4 to the Herring Fishery Management Plan. The objectives of 
this Amendment include implementing measures to improve the long-term 
monitoring of catch in the herring fishery, consideration of the health 
of the herring resources, and evaluation of the important role of 
herring as forage and predator fish throughout its range. NOAA 
Fisheries Service may adapt or readdress target levels of observer 
coverage as the need for coverage is fully examined during this 
process.

    Question 12a. There are concerns about NOAA's ability to provide a 
long-term, cost-effective satellite system given its budgetary 
constraints and its recent track record beset with launch delays and 
instrument development failures. Most recently, the launch date for the 
NPOESS Preparatory satellite was pushed back an additional 9 months to 
June 2010. This launch was initially scheduled for May of 2006, so we 
are now looking at more than 4 years of delay and when the NPOESS 
satellites do fly they will be lacking many key instruments initially 
planned to be onboard. As a matter of fact, a September 2007 National 
Academy of Sciences Report noted that in January 2006, more than 120 
instruments were used to collect climate data--a number that is 
expected to drop to fewer than 80 instruments by 2010, a decline of 25 
percent or more. The FY09 budget includes $74 million to restore key 
climate sensors cut from the next generation of environmental 
satellites. Will this increased funding address the problems in the NAS 
report?
    Answer. The President's FY 2009 Budget Request includes a $74 
million initiative to fund the Administration's commitment to restore 
two of the five high priority climate measurements that were 
demanifested from the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) in 2006. The Administration has previously 
addressed the other three high priority climate measurements.
    The $74 million budget increase will fund development of Total 
Solar Irradiance Sensor (TSIS) and Clouds and Earth Radiant Energy 
System sensor (CERES). In 2007, NOAA and the National Aeronautics and 
Space Administration (NASA) jointly funded restoration of Ozone Mapper/
Profiler Suite-Limb to the NPP satellite. However, full funding of the 
NPOESS-related budget requests in the appropriations bills for NOAA, 
the National Aeronautics and Space Administration (NASA), and the Air 
Force appropriations bills is required to ensure that the climate 
sensors can be integrated and launched on the respective NPP and NPOESS 
satellites.
    NOAA and NASA have determined that near-term continuity of the 
other two measurements can be fulfilled through existing plans detailed 
below:

  <bullet> Continuity of radar altimetry measurements can be fulfilled 
        through the Jason 2 mission that was successfully launched on 
        June 20, 2008.

  <bullet> Aerosol measurements can be fulfilled with the 2009 launch 
        of the Aerosol Polarimeter Sensor on the NASA GLORY mission.

    NOAA and NASA, in collaboration with the Office of Science and 
Technology Policy and the Office of Management and Budget, continue to 
work with the climate science community to ensure that the climate 
sensors are developed and placed in orbit in time to continue and 
enhance climate data collection and avoid an interruption of these 
important space-based climate measurements.

    Question 12b. What assurances can you provide that we will not 
simply continue to see one instrument failure after another and an 
unending string of delays?
    Answer. NOAA, NASA, and the Air Force carefully assessed the 
processes and capabilities required to build these instruments and 
place them onto the appropriate and most cost-effective satellite. 
Careful consideration was given to cost, schedule, and technological 
maturity of the sensors, as well as the capability of the Federal 
Government and its contractors to successfully deliver the instruments. 
The conclusion of this review indicated that the remanifested climate 
sensors are instruments that have been flown before or will be flown 
prior to being placed on an operational satellite.
    NOAA will work directly with NASA to build near-duplicate 
instruments (i.e., not push for new unproven technology), in order to 
limit cost growth and ensure we meet the launch schedules of the NPOESS 
Preparatory Project (NPP) and the first NPOESS satellites (C-1). These 
climate sensors will be subject to demanding test programs that will 
identify and address flaws in the design and manufacturing of the 
instruments prior to launch. NOAA and NASA believe that the necessary 
program management and engineering oversight processes are in place to 
identify and take the appropriate steps to mitigate cost, schedule, and 
risk of these climate sensors to the NPP and NPOESS programs.

    Question 12c. Will the latest delay in the launch of the NPOESS 
Preparatory satellite cause additional cost increases? Will there be 
information gaps?
    Answer. The NPOESS Executive Committee (EXCOM) recently received a 
revised cost estimate from the DOD's Cost Analysis Improvement Group 
(CAIG). This estimate included development, production and operations 
and sustainment costs for the baseline program. Given the differences 
between the CAIG estimate and the Integrated Program Office estimate, 
the EXCOM members are engaged in ongoing discussions to reconcile the 
two cost estimates and determine which estimate will form the basis of 
the NPOESS Acquisition Program Baseline (APB). Once the APB is updated, 
NOAA will inform the Committee of the EXCOM decision and implications 
of the revised estimate to the program.
    With respect to information gaps, existing NOAA, Air Force, and 
NASA Polar-orbiting satellites continue to provide data. However, as we 
get closer to 2010 the chances of specific instrument failures on these 
existing satellites increases. All three agencies will manage their 
spacecraft to maximize the health and safety of the satellites and 
instruments to ensure that data will be available until NPP and NPOESS 
are launched. Through a pre-existing agreement with the Europeans, the 
MetOp satellite is on-orbit and also providing critical operational 
data. The real impact of the NPP delay is the extended time to access 
and use the improved datasets that NPP will provide. The NPOESS 
Executive Committee and Integrated Program Office remain committed to 
mission success.

    Question 13a. Apparently NOAA satellite operations has uncovered a 
potentially serious battery issue on the GOES-11 (GOES West) satellite 
currently in orbit and covering the Pacific Ocean and Western United 
States. GOES-11 was expected to last until the end of 2011, but that 
date is now in serious jeopardy. In the process of preparing the 
batteries for eclipse operations, NOAA found that one of the two 
spacecraft batteries was having problems holding a charge. While the 
satellite could go through the upcoming months without a problem, there 
is a particular failure situation that could result in an end of life 
condition for the satellite.
    What information does NOAA receive from the satellite--and is NOAA 
prepared for a worst case scenario if adjustments to its existing 
battery charging procedures cannot be made in an attempt to manage the 
GOES-11 problem? What will this failure mean to the program? Will GOES-
13 be used to collect the information that GOES West was expected to 
send back to NOAA until the end of 2011 or will there be gaps in data?
    Answer. GOES-11, which was launched in May 2000, currently serves 
as the operational ``GOES-West'' satellite and provides operational 
environmental data and other services for the western United States and 
Central Pacific regions. GOES-11 provides the following information:

  <bullet> Visible and infrared images of the Earth's atmosphere, at 5, 
        15, and 30 minute intervals.

  <bullet> Space environment monitoring data including Earth's magnetic 
        field and energetic particle measurements.

  <bullet> Data collection system receives environmental data from 
        surface based data collection platforms and ocean buoys and 
        relays them to users. Data are also used for tsunami detection 
        and reservoir monitoring.

  <bullet> Search and rescue distress signals from aircraft, marine, 
        and land based vessels are relayed through the Search and 
        Rescue Satellite-Aided Tracking System.

  <bullet> Broadcast of operational weather data through the Low Rate 
        Information Transfer system and emergency warnings through the 
        Emergency Weather Information Network transponders.

    GOES-11 battery performance degradation was first observed in Fall 
2004 as a gradual decline in voltage. NOAA satellite operators modified 
battery charging procedures to allow the spacecraft to maintain 
acceptable voltage by reducing power system loads during the 
approximately 70 minute eclipse period. The eclipse, approximately 6 
weeks long, occurs in the Spring and Fall months when the Earth is 
between the spacecraft and the sun and the spacecraft is unable to 
charge its batteries to acceptable levels in order to support nominal 
satellite operations.
    NOAA satellite operators project that the gradual degradation of 
the batteries will worsen with time. During the Spring 2008 eclipse, 
NOAA identified a limited number of non-time critical services, 
including secondary payload instruments and communication services that 
could be turned off during the eclipse periods. Additionally, NOAA took 
GOES-13 (the on-orbit spare spacecraft) out of on-orbit storage prior 
to eclipse season to test a space environment sensor and left it in an 
operational configuration as a hot backup to GOES-11 in the event of a 
catastrophic failure of the GOES-11 power system. GOES-13 was also used 
to provide an alternate source of data communication and to provide 
SARSAT services during GOES-11 eclipse.
    In the event of a GOES-11 failure, NOAA is prepared to activate 
GOES-13 which will supply the same data as GOES-11 to ensure continuity 
of geostationary environmental satellite observations over the western 
U.S. and Central Pacific. Procedures have been developed and exercised 
to optimize this transition in the event it is required. With a failure 
of GOES-11 and the early activation of GOES-13, NOAA would not have an 
on-orbit spare spacecraft to meet all of its mission requirements until 
the launch of GOES-O now scheduled for December 2008. Based on current 
analyses, NOAA does not anticipate a gap in geostationary environmental 
data coverage, but the current situation underscores the importance of 
developing the next-generation GOES-R series so it will be launched and 
ready to provide uninterrupted data when the GOES-N,-O,-P series of 
satellite has finished its mission life.

    Question 14a. A bluefin tuna tagging program has been ongoing in 
the north Atlantic since 1999, but the NOAA budget request and 
Congressional funding has not consistently supported this effort. I am 
very pleased to see the request for $850,000 in the NOAA FY09 budget 
request. Bluefin tuna is one of the most valuable fish in the ocean--
individual fish can bring tens of thousands of dollars at auction--yet 
in recent years, the fishery has declined precipitously. Many 
scientists and resource managers believe that lax regulatory practices 
in Europe and elsewhere are largely to blame for this decline. However, 
without strong science to back these claims, the U.S.'s assertions that 
our sustainable management practices are being undermined by other 
countries' policies carry little water.
    Despite an uneven recent history of requesting and enacting funding 
for bluefin tuna tagging, has NMFS been able to maintain this program 
year after year? To what extent have lapses in data collection impacted 
the long-term viability of the study?
    Answer. NOAA Fisheries Service has not been able to maintain this 
program in all years, largely because funding levels have been 
inconsistent due to Congressional earmarks. In the FY 2008 enacted 
budget, this program was funded at $446,000 under an earmark. The FY 
2009 Budget request includes $850,000 for this program. However, 
different research teams (primarily academics) have conducted 
electronic tagging of bluefin tuna using a variety of funding sources, 
including Congressional funding and private funds. A consistent level 
of funding for NOAA would ensure their long-term viability, to more 
directly address management questions, and to increase NOAA's access to 
the resulting data. It should be noted that other scientific research 
tools, such as genetics and microchemical analyses, also aid in 
understanding better stock structure and the impacts that eastern 
Atlantic fisheries have on the western population of bluefin tuna.

    Question 14b. How has a lack of data affected the U.S. position at 
ICCAT? What else can we do to increase ICCAT members' attention to the 
need to study and conserve these stocks?
    Answer. The United States needs strong and reliable data for 
accurate estimates of the fraction of the total catch by fishermen in 
the eastern Atlantic comprised of fish from the western stock, as well 
as how the decline of the eastern stock affects U.S. catches of bluefin 
tuna. These data help to make a strong case for the conservation of the 
eastern stock.
    Last year, compliance concerns together with the steep decline of 
the eastern stock, led the United States to propose a temporary 
suspension of the eastern bluefin tuna fishery until such time as 
countries could demonstrate control of their fisheries. The United 
States proposal did not achieve consensus. Harvesters did agree to 
report in detail on their implementation of eastern bluefin tuna 
fishery rules before the 2008 ICCAT meeting. The United States will 
review over the coming months the steps taken by eastern harvesters to 
comply with ICCAT's rules. It is too early to say where that review 
will lead us. Measures to improve compliance with eastern Atlantic and 
Mediterranean bluefin tuna measures remain a U.S. priority. In general, 
compliance discussions at ICCAT should be much more robust than in the 
past as the United States now chairs the Compliance Committee.
    In addition to compliance discussions, the management measures for 
the eastern Atlantic and Mediterranean stock of bluefin tuna will be 
reviewed by ICCAT this fall following completion of a new stock 
assessment. NOAA expects that ICCAT will need to adopt new measures to 
reduce mortality on this stock substantially. This will be a high 
priority for the United States at ICCAT this year.

    Question 15a. Harmful algal blooms and hypoxia continue to wreak 
havoc on our ocean and coastal waters--and the number, size, duration, 
ecological effects, and economic impacts of these events only continue 
to grow with each passing year. According to NOAA's own online report, 
the U.S. seafood and tourism industries alone suffer losses of $82 
million to harmful algal blooms and hypoxia annually, and these numbers 
are likely to continue to grow. Yet it is very unclear what the 
Administration proposed to do about this in the future--any effort that 
NOAA is devoting to these outbreaks seems to be buried in the FY09 
budget request.
    How much funding is NOAA requesting for harmful algal bloom and 
hypoxia activities in FY09? On what would you spend this funding? And 
how did you spend the funding allocated to this program in FY08?
    Answer. The FY 2009 President's Request includes $15.8 million for 
NCCOS Competitive Research, of which NOAA expects to spend at least 
$8.9 million on research related to harmful algal blooms (HABs) and 
hypoxia. The Harmful Algal Bloom and Hypoxia Research and Control Act 
(HABHRCA) is primarily implemented through the suite of competitive 
national grant programs (ECOHAB, MERHAB, NGOMEX, CHRP) supported 
through the NCCOS Competitive Research line (formerly ``Extramural 
Research''). Congress' long-term and continued support of HABHRCA has 
enabled NOAA to provide tools in areas that are necessary for managers 
to respond to and predict annual HAB and hypoxia events such as those 
affecting the New England, Gulf of Mexico, Pacific Northwest and 
California coasts as well as the Great Lakes. Products include 
development and transition of regionally-specific detection and 
analysis methods, coupled biological-physical models, enhanced state 
and local government HAB monitoring capacity in both marine and 
freshwater environments and new methods for prevention, control and 
mitigation.
    NOAA is in the process of finalizing FY 2008 funding 
recommendations for grants related to HAB and hypoxia research. The 
release of specific funding information regarding individual grants is 
restricted until final awards are made. NOAA can provide this funding 
information on specific projects related to HABs and hypoxia funded in 
FY 2008 later in the fiscal year.

    Question 15b. How is NOAA increasing its ability to work with 
regions, states, and local communities to respond to and mitigate the 
impacts of these outbreaks? As we craft a new bill to reauthorize the 
Harmful Algal Bloom and Hypoxia Research and Control Act, what lessons 
have we learned to guide future efforts?
    Answer. NOAA is taking two steps to increasing regional HAB and 
hypoxia efforts. The first step is to conduct regional workshops to 
assess research and response needs and develop plans. Examples of 
previous and planned efforts include:

  <bullet> April 2006--Hypoxia in the Northern Gulf of Mexico: 
        Assessing the State of the Science Symposium;

  <bullet> July 2006--State of the Research on Red Tide in the Gulf of 
        Mexico: Workshop and Public Forum;

  <bullet> April 2006--Hypoxia in the Northern Gulf of Mexico: 
        Assessing the State of the Science Symposium;

  <bullet> January 2007--Summit on Long-term Monitoring of the Gulf of 
        Mexico Hypoxic Zone: developing the Implementation Plan for an 
        Operational Observation System;

  <bullet> March 2007--Ecological Impacts of Hypoxia on Living 
        Resources;

  <bullet> January 2008--Mississippi River/Gulf of Mexico Watershed 
        Nutrient Task Force EPA Science Advisory Board Hypoxia Advisory 
        Panel Report;

  <bullet> April 2008--Regional Workshop for Harmful Algal Blooms in 
        California Coastal Waters;

  <bullet> June 2008--Gulf of Maine Operational Forecasting Workshop;

  <bullet> September 2008--West Coast Regional HAB Workshop, during the 
        West Coast Governors' Agreement (WCGA) on Ocean Health; and

  <bullet> December 2008--Nuisance Macroalgal Blooms in coastal Maui: 
        assessment and integration of physical factors and biological 
        processes.

    The second step is to use the information we gather during the 
regional workshops to set research funding priorities for our HAB and 
hypoxia programs on a regional basis. This approach is based on lessons 
learned over the last 10 years of HAB and hypoxia research. Some 
lessons we have learned:

  <bullet> Effective HAB and hypoxia management is based on 
        understanding the causes and impacts of HABs;

  <bullet> There are many immediate short term benefits to HAB and 
        hypoxia research. For example, the development of methods to 
        detect HAB cells and toxins is essential to monitoring and 
        early warning and is usually the first product of HAB research. 
        Examples of more long term products are annual predictions of 
        bloom or hypoxia severity, development of prevention 
        strategies, and development of new control methods;

  <bullet> The ability to provide assistance during events is critical 
        to resource and public health managers in the face of new or 
        large HAB or hypoxia events. Further, data obtained during 
        severe outbreaks of HABs or hypoxia has greatly advanced our 
        understanding of these events and our ability to predict and 
        manage them;

  <bullet> Making research products such as new control methods, 
        prevention strategies, and forecasting abilities operational is 
        a challenge that requires considerable testing through pilot 
        projects at different scales; and

  <bullet> HABs and hypoxia are regionally specific occurrences that 
        are best addressed on a regional basis.

    Question 15c. In your opinion, should Congress focus on preventing 
or mitigating these outbreaks? Would it be more cost effective to focus 
on prevention or mitigation?
    Answer. Both prevention and mitigation are essential goals. Many 
mitigation strategies can be implemented quickly. Prevention, on the 
other hand, requires a more thorough understanding of the causes of a 
HAB occurrence and the long-term management efforts needed to reduce 
the distribution and severity of blooms. Some blooms cannot be 
controlled at all or only to a limited extent so, for these, mitigation 
is the only option. Proposed regional research and action plans 
(mentioned in the response to 15b) can be used to evaluate the most 
effective course of action--mitigation, prevention or both--for each 
regional HAB problem.

                                  <all>

</pre></body></html>
